<html>
<title> - CONFRONTING RAPE AND OTHER FORMS OF VIOLENCE AGAINST WOMEN IN CONFLICT ZONES SPOTLIGHT: DRC AND SUDAN</title>
<body><pre>[Senate Hearing 111-161]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-161
 
CONFRONTING RAPE AND OTHER FORMS OF VIOLENCE AGAINST WOMEN IN CONFLICT 
                     ZONES SPOTLIGHT: DRC AND SUDAN 

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                                AND THE

                     SUBCOMMITTEE ON INTERNATIONAL
                     OPERATIONS AND ORGANIZATIONS,
                        HUMAN RIGHTS, DEMOCRACY,
                       AND GLOBAL WOMEN'S ISSUES

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 13, 2009

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                               ----------
                        U.S. GOVERNMENT PRINTING OFFICE 

53-635 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 


















                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       Republican Leader designee
BARBARA BOXER, California            BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JOHNNY ISAKSON, Georgia
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   JIM DeMINT, South Carolina
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming
JEANNE SHAHEEN, New Hampshire        ROGER F. WICKER, Mississippi
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON AFRICAN AFFAIRS        

            RUSSELL D. FEINGOLD, Wisconsin, Chairman        

BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   JIM DeMINT, South Carolina
EDWARD E. KAUFMAN, Delaware          BOB CORKER, Tennessee
JEANNE SHAHEEN, New Hampshire        JAMES E. RISCH, Idaho

                         ------------          

          SUBCOMMITTEE ON INTERNATIONAL OPERATIONS AND        
            ORGANIZATIONS, HUMAN RIGHTS, DEMOCRACY,        
                   AND GLOBAL WOMEN'S ISSUES        

              BARBARA BOXER, California, Chairman        

RUSSELL D. FEINGOLD, Wisconsin       ROGER F. WICKER, Mississippi
ROBERT MENENDEZ, New Jersey          JIM DeMINT, South Carolina
EDWARD E. KAUFMAN, Delaware          JOHN BARRASSO, Wyoming
JEANNE SHAHEEN, New Hampshire        Republican Leader designee
KIRSTEN E. GILLIBRAND, New York

                              (ii)        

  





















                            C O N T E N T S

                              ----------                              
                                                                   Page

Ahmadi, Neimat, Darfuri Liason Officer, Save Darfur Coalition, 
  Washington, DC.................................................    35
    Prepared statement...........................................    36
Boxer, Hon. Barbara, U.S. Senator from California, opening 
  statement......................................................     3
Ensler, Eve, founder, V-Day, New York, NY........................    30
    Prepared statement...........................................    32
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, opening 
  statement......................................................     1
Isakson, Hon. Johnny, U.S. Senator from Georgia, opening 
  statement......................................................     4
Nabintu, Chouchou Namegabe, president and founder, South Kivu 
  Women's Media Association, Democratic Republic of Congo........    38
    Prepared statement...........................................    40
Prendergast, John, cofounder, the Enough Project, Washington, DC.    51
    Prepared statement...........................................    53
Verveer, Hon. Melanne, Ambassador at Large for Women's Global 
  Issues, accompanied by Hon. Esther Brimmer, Assistant Secretary 
  of State for International Organization Affairs, and Phil 
  Carter, Acting Assistant Secretary of the Bureau of African 
  Affairs, Department of State, Washington, DC...................     5
    Joint prepared statement.....................................     8
Warwick, Robert, director, International Rescue Committee, 
  Baltimore, MD..................................................    42
    Prepared statement...........................................    44


              Additional Material Submitted for the Record

Wicker, Hon. Robert F., U.S. Senator from Mississippi, prepared 
  statement......................................................    20
Article from the Associated Press dated May 5, 2009, ``Iran, 
  Syria Defend Palestinian Militancy''...........................    66
Prepared Statement from Physicians for Human Rights..............    67

                                 (iii)

  


CONFRONTING RAPE AND OTHER FORMS OF VIOLENCE AGAINST WOMEN IN CONFLICT 
      ZONES; SPOTLIGHT: THE DEMOCRATIC REPUBLIC OF CONGO AND SUDAN

                              ----------                              


                        WEDNESDAY, MAY 13, 2009

        U.S. Senate, Subcommittee on African Affairs, 
            Subcommittee on International Operations and 
            Organizations, Human Rights, Democracy, and 
            Global Women's Issues, Committee on Foreign 
            Relations,
                                                    Washington, DC.
    The subcommittees met jointly, pursuant to notice, at 2:30 
p.m., in room SD-419, Dirksen Senate Office Building, Hon. 
Russell Feingold, chairman of the Subcommittee on African 
Affairs, and Hon. Barbara Boxer, chairman of the Subcommittee 
on International Operations and Organizations, Human Rights, 
Democracy, and Global Women's Issues, presiding.
    Present: Senators Feingold, Boxer, Shaheen, Kaufman, 
Corker, Isakson, and Wicker.

         OPENING STATEMENT OF HON. RUSSELL D. FEINGOLD,
                  U.S. SENATOR FROM WISCONSIN

    Chairman Feingold. This hearing will come to order. Good 
afternoon, everybody. On behalf of both the Senate Foreign 
Relations Subcommittee on African Affairs and its Subcommittee 
on International Operations and Organizations, Human Rights, 
Democracy, and Global Women's Issues, I want to welcome all of 
you to this innovative joint hearing entitled, ``Confronting 
Rape and Other Forms of Violence Against Women in Conflict 
Zones; Spotlight: The Democratic Republic of Congo and Sudan.''
    I'm, of course, honored to be cochairing this hearing with 
Senator Boxer, who has been a great leader in raising awareness 
about the many challenges facing women and girls around the 
world. I want to also recognize the ranking member of the 
subcommittee that I chair, Senator Isakson, and we look forward 
to the ranking member of the subcommittee Senator Boxer chairs, 
Senator Wicker. I'll invite my colleagues to deliver some 
opening remarks in just a moment.
    Among the many troubling things I've seen and heard during 
my travels over the last 17 years as a member of this 
committee, the suffering of women and girls in the eastern 
Democratic Republic of Congo stands out.
    In 1999, I traveled to 10 countries in Africa in an effort 
to help bring about a resolution to Congo's ongoing crisis, and 
then nearly a decade later, in the summer of 2007, I traveled 
to eastern Congo to see firsthand the conditions that have 
persisted through a decade of conflict and crisis.
    Millions have died during that decade and millions more 
have been displaced from their homes. During that most recent 
trip, I met with women and girls who have been gang raped and 
sexually abused, often leaving them with horrific physical and 
psychological damage. Many of these women had lost their 
husbands, their homes, and their livelihoods and yet against 
all odds, they refused to give up, if only for the sake of 
their children.
    The stories I heard in eastern Congo are horrifying, and 
even more horrifying is how common such stories have become for 
women and girls across eastern Congo and other conflict zones, 
including those in Sudan. Rape and other forms of gender-based 
violence are not just outgrowths of war and its brutality, they 
can also be weapons of war.
    In the past few years, there has been an increased focus on 
the urgent need to address these brutal tactics, whether 
through the U.N. Security Council resolutions or NGO campaigns, 
and the United States has an important role to play in helping 
to facilitate such initiatives and ensure that sound policies 
are implemented.
    I hope today's hearing will evaluate how the United States 
and our partners, including regional and international 
organizations, can best do so in the context of our overall 
strategies to promote lasting peace and stability in Congo, 
Sudan, and all other conflict zones.
    At the same time, I hope today's hearing will examine 
structural changes within the U.S. Government as well as the 
international community that can help integrate gender-
sensitive approaches into our assistance programs, especially 
with regard to security sector reform.
    In addition, there are steps that the international 
community can take to enhance our collective capacity to 
anticipate, prevent, and respond to sexual- and gender-based 
violence. For example, the U.N. Security Council last year 
passed Resolution 1820, which condemns the use of rape and 
other forms of sexual violence in conflict situations and 
states that rape can constitute a war crime, a crime against 
humanity, or a constitutive act with respect to genocide.
    The resolution also calls for effective steps to prevent 
and respond to acts of sexual violence as a way of contributing 
to the maintenance of international peace and security, 
including ending the impunity for perpetrators.
    Finally, the resolution requested the Secretary General to 
develop and implement appropriate guidelines, training 
programs, and strategies for how U.N. peacekeeping missions can 
better address sexual violence, and this is due at the end of 
June. So I certainly hope that today's discussion will 
contribute to and further these current efforts.
    Now, just before I turn to my colleagues, let me quickly 
introduce our first panel of witnesses. We will hear from 
Assistant Secretary for International Organizations Esther 
Brimmer; Ambassador at Large for Global Women's Issues Melanne 
Verveer; and Acting Assistant Secretary for African Affairs 
Phil Carter. I'm grateful to all of you for being here. Your 
presence together shows the kind of cross-bureau coordination 
at State that we want and that we need in order to address such 
an important issue.
    And I especially congratulate Secretary Brimmer and 
Ambassador Verveer on your recent confirmations. I ask that you 
do your best to keep your opening remarks to 5 minutes each so 
we can have plenty of time for questions and discussion.
    And then on our second panel, we will hear from several 
nongovernmental experts on these issues, including individuals 
who have seen firsthand, often many times, this violence, and 
have led programs to combat it.
    Senator Boxer will introduce our second panel of witnesses, 
and I will now turn to her for her opening remarks. And once 
she is done, we will go to Senator Isakson, and then Senator 
Wicker, if he has arrived, and then on to our witnesses.
    Senator Boxer.

            OPENING STATEMENT OF HON. BARBARA BOXER,
                  U.S. SENATOR FROM CALIFORNIA

    Chairman Boxer. Good afternoon. I want to express my deep 
gratitude to Senator Feingold for agreeing to hold this joint 
subcommittee hearing with me today, and to our ranking members, 
Senator Wicker and Senator Isakson. And, of course, I want to 
thank our chairman, John Kerry, for allowing me to chair a new 
subcommittee, which will focus on international women's issues.
    I want to say one more word about Senator Feingold, and 
that is that he is a great human rights leader, so this 
opportunity to team up with him on this passion of his called 
``what happens in Africa'' is very special, and I'm really 
pleased.
    I want to, before I make just about 3 minutes or less of 
remarks, introduce somebody very special, Mariska Hargitay. 
Mariska is an actress. You probably know who she is, founder of 
the Joyful Heart Foundation, whose mission is to heal, educate, 
and empower victims of sexual assault, domestic violence, and 
child abuse. After ``Law & Order'' did an episode about child 
rape and child soldiers in Africa, she became extremely engaged 
on this issue. And so, Mariska, would you stand up? We want to 
say thank you very much for being here. Thank you.
    [Applause.]
    Chairman Boxer. I also want to express a very strong 
welcome to our distinguished first panel. I think the strong 
representation we have here today from the administration 
speaks to the gravity of this heartbreaking issue and their 
commitment to take a look at it and do something about it.
    I think we will also find that this issue is very complex, 
and I know that efforts have been made to address sexual 
violence in conflict zones today, but it is entirely 
unacceptable that we continue to hear reports of thousands of 
women and children being brutally raped. Some are merely 
infants. If raping an infant is not a crime against humanity, I 
don't know what is.
    Today, we're going to spotlight Sudan and the Democratic 
Republic of Congo in order to examine the brutal sexual 
violence that women around the globe are subjected to during 
conflict. As you will hear from our distinguished panelists, 
violating a woman in this manner often goes far beyond 
mutilating her body. It is an effort to destroy families, 
communities, and entire societies.
    I keep coming back to a passage from a report issued by 
Refugees International because I think it captures best what is 
going on in Darfur, Sudan. Rape, it says, is ``an integral part 
of the pattern of violence that the Government of Sudan is 
inflicting upon the targeted ethnic groups in Darfur. The 
raping of Darfuri women is not sporadic or random, but is 
inexorably linked to the systematic destruction of their 
communities.''
    In the Democratic Republic of Congo, the magnitude of the 
problem defies comprehension. Hundreds of thousands of women 
and children have been raped during the course of the conflict 
that has spanned 12 years. And while the country has made 
strides toward stability, including holding democratic 
elections, the rapes are continuing at a grotesque rate.
    According to Human Rights Watch, ``the number of women and 
girls raped since January has significantly increased in areas 
of military operations by armed groups and soldiers of the 
Congolese army.''
    I was particularly touched by a quote issued by 71 
Congolese women's organizations about how the sexual violence 
is impacting their society and their lives. This is a quote 
from them: ``We are vulnerable in our fields, in the streets, 
and even in our own homes. Even our daughters as young as 3 
years old are vulnerable when they are playing with their 
friends or on their way to school. The nuclear family, the base 
of our society, no longer exists. There is a crisis of 
authority and a culture of impunity.''
    Colleagues, I know you share what I'm about to say. This 
must stop. And, colleagues, we must come together across all 
the lines that normally divide us. And we know there are many, 
but we can end this madness if we work together. I truly 
believe it.
    And so I will turn back to Senator Feingold to call on the 
ranking members for any comments they have. And I thank both 
panels for being here today.
    Chairman Feingold. Thank you, Senator Boxer, of course, for 
your tremendous work on the committee and your drive to make 
this happen, and I'm very pleased to be having this hearing 
with you as well and appreciate everything you've done to make 
it happen.
    Senator Isakson.

           OPENING STATEMENT OF HON. JOHNNY ISAKSON,
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Well, thank you, Chairman Feingold and 
Chairman Boxer, for calling this session today. I also want to 
thank our witnesses. I am not going to waste their valuable 
time by making a long statement, except to say that I have a 
sincere and deep interest in this issue and that in 10 days, 
Senator Corker and I will be in Darfur. We have already 
arranged to go into Khartoum and then later into Darfur 
specifically to explore this particular issue, among other 
things. So I am glad to have our witnesses here today, both 
panels. I look forward to hearing from you, and I thank 
Chairman Boxer and Chairman Feingold very much for calling this 
hearing today.
    Chairman Feingold. Senator Corker, would you like to make a 
statement? I know Senator Wicker is maybe coming.
    Senator Corker. Even though I'm not ranking member, I have 
tremendous interest in this issue, and I thank you for having 
the hearing.
    Chairman Feingold. All right. Thank you very much. And now 
we'll begin with the witnesses.
    Mr. Carter.
    Mr. Carter. Mr. Chairman, what we've decided to do is for 
the brevity and to get to the questions and the interchange 
that the Ambassador at Large will speak for all of us, in terms 
of her opening statement.
    Chairman Feingold. Fair enough.

  STATEMENT OF HON. MELANNE VERVEER, AMBASSADOR AT LARGE FOR 
  GLOBAL WOMEN'S ISSUES, ACCOMPANIED BY HON. ESTHER BRIMMER, 
  ASSISTANT SECRETARY OF STATE FOR INTERNATIONAL ORGANIZATION 
  AFFAIRS, AND PHIL CARTER, ACTING ASSISTANT SECRETARY OF THE 
 BUREAU OF AFRICAN AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Verveer. Thank you, Chairman Feingold, Chairman 
Boxer, Senator Isakson, Senator Corker. We thank you greatly 
for this opportunity to come before you today on this important 
issue. Let me preface my remarks by saying that violence 
against women as a tool of armed groups is in no way limited to 
the Democratic Republic of Congo and Sudan or just to Africa. 
We've seen this in Bosnia, Burma, Sri Lanka, and elsewhere. The 
underlying problems--gender inequality and the dehumanization 
of women--are often the same, and our assessment of needs and 
recommendations is similar across regions.
    Violence against women in the DRC and Sudan is an urgent 
humanitarian crisis, unquestionably so. However--and I 
emphasize this point--to regard it solely as a humanitarian 
crisis would be a mistake. These brutal attacks are part of an 
armed conflict strategy carried out through rape and sexualized 
torture.
    As we have heard, the crisis in DRC is reaching its 12th 
year. The scale and enormity of the violence directed at women 
can't adequately be described. Some 1,100 rapes are being 
reported each month, with an average of 36 women and girls 
raped each day.
    In addition to these rapes and gang rapes, of which there 
have been hundreds of thousands over the duration of the 
conflict, the perpetrators frequently mutilate the women in the 
course of the attacks. The apparent purpose is to leave a 
lasting and inerasable signal to others that the woman has been 
violated. In the DRC and in many other cultures, this 
translates into a lifelong badge of shame. Moreover, the lethal 
spreading of HIV/AIDS is increasing the toll of death and 
debilitation long after the initial attack. All of these 
consequences are more than the tragic effects of rape. They are 
also the strategic incentives for the perpetrators.
    Rape is employed as a weapon because it is effective. It 
destroys the fabric of societies from within and does so more 
efficiently than do guns or bombs. Humanitarian organizations 
on the ground report that attacks on women destroy the nucleus 
of the family, and with the unraveling families, the 
communities also disintegrate.
    There's little place in these villages to shore up the 
collapse of these integral institutions. There are NGOs in 
place, to be sure--few, but effective--as well as heroic 
individuals like Dr. Denis Mukwege, director of the Panzi 
General Referral Hospital in the DRC's South Kivu province, who 
struggles around the clock to repair the victims' mutilated 
bodies. To speak with him or others who are desperately trying 
to cope with the reality on the ground, as I have, is to have a 
window on the magnitude of the horror.
    Our Ambassador to the United Nations, Susan Rice, will be 
traveling shortly to Africa with the U.N. Security Council. In 
a few days, she and her colleagues will visit a hospital in 
eastern DRC similar to that of Dr. Mukwege's. It is providing 
care to the victims of these atrocities. That the Security 
Council is paying serious attention to this issue is important, 
and we must see that much more is done.
    Currently, there are no adequate ways to hold the 
perpetrators of these crimes accountable for their actions. 
Prosecution is essential. First and foremost, the atmosphere of 
impunity must end. These crimes must be recognized not as 
isolated and aberrant incidents of rape, but as part of a 
strategy of brutalization and as crimes against humanity.
    A recent report by the U.N. Human Rights Integrated Office 
in the DRC concluded that ``law enforcement personnel and 
magistrates continue to treat rape and sexual violence in 
general with a marked lack of seriousness. Men accused of rape 
are often granted bail or given relatively light sentences. Few 
cases are reported to the police and fewer still in 
prosecution.'' Of the 14,000 rape cases registered in 
provincial health centers in the DRC between 2005 and 2007, 
only 287 were ever taken to trial.
    More must be done to identify and punish perpetrators. 
Police must receive better training. There must be more focus 
on initiatives to strengthen the rule of law and provide 
victims with access to justice while offering them protection 
throughout the judicial process.
    The United States has recognized, both in Darfur and the 
DRC, that ending the conflicts is the most important, direct, 
and certain path to ending the violence. Peace negotiations and 
the transition from post-conflict environments should remain 
our highest priority.
    The United States has also sought to engage both the U.N. 
General Assembly and the Security Council in constructive 
measures that recognize the political aspects of this crisis 
and that are designed to commit the U.N. to specific actions 
and eventually end the use of sexual violence as an instrument 
of armed conflict, wherever it occurs.
    Last year, during the U.S. presidency of the Security 
Council, the United States introduced Security Council 
Resolution 1820. It built upon Resolution 1325, which had been 
adopted in 2000; Resolution 1325 requires parties in conflict 
to respect women's rights and to support their participation in 
peace negotiations and in post-conflict reconstruction. Women 
must be included at the negotiating table so that their 
relevant experiences can be brought to bear and their needs in 
post-conflict civil reconstruction incorporated from the start.
    Resolution 1325 has been widely and justifiably praised, 
but Member States, including the United States, as well as 
NGOs, have rightly noted that tangible progress related to the 
goals that it outlined have so far been few.
    Security Council Resolution 1820 reinforces many of the 
aspirations of 1325 and also establishes a clear link between 
maintaining international peace and security and preventing and 
responding to sexual violence used to deliberately target 
civilians. It also affirms the Council's intention to take 
sexual violence in situations of armed conflict into account 
when establishing or renewing state-specific sanctions.
    Security Council resolutions now include in peacekeeping 
mandates, where necessary, specific instructions for U.N. 
peacekeepers to prevent gender and sexually based violence and 
to take steps to protect against it. For example, the mandate 
of UNAMID, the joint African Union/U.N. Hybrid Operation in 
Darfur, includes specific reference to both 1325 and 1820, and 
requests the Secretary General to report on their 
implementation.
    We hope and expect that this increased attention, as well 
as the reporting requirements, will help to expose the offenses 
and diminish the chances that they will be committed with 
impunity. The United States continues to actively work with the 
U.N. Secretariat and fellow U.N. members to prevent sexual 
misconduct by U.N. peacekeeping personnel--military, police, 
and civilians. The peacekeeping missions should have, as their 
highest priority, protecting women and children--the most 
vulnerable--particularly in the places that they move and 
congregate.
    The United States is also providing much-needed assistance 
to victims in the areas of conflict. For example, since 2000, 
the Department of State has funded a special program for 
prevention of, and response to, violence against women in 
refugee populations. The program has provided over $27 million 
for such projects in cooperation with international 
organizations and NGOs worldwide.
    USAID and bureaus and offices within the State Department 
also fund programs that we have described more fully in the 
testimony. These programs not only address survivors' immediate 
needs with psychological counseling and medical services, but 
also provide more comprehensive support, such as literacy 
training, and services aimed at reintegrating them into their 
communities.
    Our testimony also contains additional recommendations to 
address this crisis, from more effective implementation of the 
U.N. resolutions described, to improving peacekeeping 
operations, to legal assistance.
    The Obama administration recognizes the urgency of this 
crisis and the use of rape as a tool in armed conflict as an 
abhorrent violation of human rights and an ongoing security 
crisis for the region. We pledge to work with you and your 
colleagues to promote the peace process, to communicate the 
urgency and gravity of the situation to all nations and parties 
involved, and to ensure that victims are protected, that 
perpetrators are prosecuted, and that women are free from 
violence.
    Thank you.
    [The joint prepared statement of Ambassador Verveer, 
Assistant Secretary Brimmer, and Principal Deputy Assistant 
Secretary Carter follows:]

   Joint Prepared Statement of Ambassador Melanne Verveer, Assistant 
  Secretary Esther Brimmer, and Principal Deputy Assistant Secretary 
          Phillip Carter, Department of State, Washington, DC

    I'd like to commend the Subcommittees on Human Rights, Democracy 
and Global Women's Issues and on African Affairs for devoting time to 
this urgent issue, and to the search for a more effective response to 
this ongoing crisis. African Affairs Assistant Secretary Johnnie Carson 
regrets that he cannot join us today, but, thanks to the Senate's quick 
confirmation, he was able to attend South African President Zuma's 
inauguration and currently is in Kenya. His deputy, Phil Carter, is 
here. We thank you for the opportunity to offer our testimony.
    Let me preface my remarks by saying that gender-based violence 
(GBV) as a tool of war is in no way limited to the Democratic Republic 
of Congo (DRC) and Sudan, or just to Africa. We've seen this in Bosnia, 
Burma, Sri Lanka, Nepal, and elsewhere. The underlying problems--gender 
inequality and the dehumanization of women--are often the same, and our 
assessment of needs and recommendations are similar across regions.
    There is, however, an important difference in scope and intensity. 
The crisis in DRC is reaching its 12th year. The scale and enormity of 
the violence directed at women can scarcely be adequately described. 
Some 1,100 rapes are being reported each month, with an average of 36 
women and children raped every day. Armed perpetrators--elements of the 
Armed Forces of the Democratic Republic of Congo (FARDC), the Congolese 
National Police, and illegal, nonstate armed groups--are reportedly 
responsible for 81 percent of reported cases in conflict zones and 24 
percent in nonconflict areas. Women are being attacked solely because 
they are women, with sexualized torture of unprecedented savagery on 
both the physical and psychological levels.
    In addition to these rapes and gang rapes that are happening at the 
rate of upward of a thousand a month--hundreds of thousands over the 
duration of the conflict--the perpetrators frequently mutilate the 
women in the course of the attack. The apparent intent is to leave a 
lasting and inerasable signal to others that the woman has been 
violated. In the DRC and in many other cultures, this translates into a 
lifelong public badge of shame.
    The victims of these crimes are stripped of every shred of their 
humanity. To the perpetrators, they are nothing more than vessels for 
carrying out a war strategy--a war these women do not perpetrate and in 
which they play no voluntary military role.
    Humanitarian organizations on the ground report that attacks on 
women destroy the nucleus of the family. Husbands blame their wives, 
even when they're forced to witness the rapes. Shattered women cease to 
perform the caregiving roles that serve as the family glue. And with 
the unraveling families, the communities also disintegrate.
    There are nongovernmental organizations in place--few, but 
effective--as well as heroic individuals, such as Dr. Denis Mukwege, 
director of the Panzi General Referral Hospital in the DRC's South Kivu 
province, that can try to repair the perforated bladders and shredded 
vaginas of the women that can reach them. There are small but essential 
counseling programs, such as those provided by the Center for Victims 
of Torture, that can try to reintegrate the women into their 
communities and address the psychological dimension of healing. Even in 
those cases where damage can be mitigated, however, infectious 
diseases--HIV and other sexually transmitted infections--increase the 
toll of death and debilitation long after the initial attack, and 
ripple throughout the villages and regions.
    Our Ambassador to the United Nations, Susan Rice, traveling with 
the U.N. Security Council, will in a few days visit a hospital in 
eastern DRC similar to that of Dr. Mukwege, which has recovery 
facilities for victims of these atrocities. That the Security Council 
is paying serious attention to this issue is critical, but we must do 
much more.
    Currently, there are no adequate ways to hold the perpetrators of 
these crimes accountable for their actions. The United Nations mission 
to the DRC, MONUC, as its top priority, is mandated to protect 
civilians in the DRC. However, MONUC is in need of additional troops 
and assets to fulfill its extensive mandate. The United States strongly 
supported the Security Council's November authorization of 3,000 
additional MONUC forces, the first of which should arrive in the DRC in 
late May or early June. And although women are the group most adversely 
affected by the ongoing war, they are not represented at the 
negotiating table.
    Prosecution is essential. First and foremost, the atmosphere of 
impunity must end. These crimes must be recognized not as isolated and 
aberrant incidents of
rape, but as part of a coordinated strategy of brutalization and as 
crimes against humanity.
                     political and economic context
    In both Darfur and the DRC, the United States recognizes that 
ending the conflicts is the most direct and certain path to ending the 
violence. Peace negotiations and transition from post-conflict 
environments should remain our highest priority.
Darfur
    The President and Secretary appointed U.S. Special Envoy to Sudan, 
Scott Gration, on March 17, and he is robustly addressing issues in 
Sudan. Restoration of humanitarian capacity in the wake of the 
Government of Sudan's March 4 expulsion of 13 international aid 
organizations and closure of three national agencies is of extreme 
importance at this time. Gration's efforts are ongoing, and we are 
watching the situation closely. USAID's Acting Assistant Administrator 
for Democracy, Conflict, and Humanitarian Assistance actively 
participated in the special envoy's engagement this month in Sudan, to 
help give specific content to the administration's policy and 
commitment to remove constraints on humanitarian and peacebuilding 
efforts in Sudan. Meanwhile, the United Nations humanitarian agencies 
have assumed much of the responsibility for filling short-term gaps in 
key areas, such as the provision of food and water.
    We continue to remain focused on our long-term priorities in Sudan, 
including implementation of the Comprehensive Peace Agreement (CPA) and 
resolution of the conflict in Darfur. Sudan's national elections in 
February 2010 will be an important benchmark in CPA implementation and 
we are providing essential support to make them credible. Elections and 
the democratic transformation they contribute to are essential to 
Sudan's future. On Darfur, the United States has called on all parties 
to the conflict in Darfur to join the Doha peace talks immediately and 
to cease all provocations and violent actions in Darfur. We are 
striving for an interim cease-fire that will allow the armed movements 
and the Government of Sudan to achieve a comprehensive solution that 
includes security, individual compensation, wealth-sharing, respect for 
land rights and political participation by all the people of Darfur. We 
continue to support the work of United Nations-African Union Joint 
Chief Mediator Bassol, and further welcome the Libya-mediated and 
Qatari-sponsored bilateral talks in Doha between Sudan and Chad as a 
positive step forward.
    On March 4, 2009, the International Criminal Court issued an arrest 
warrant for Sudan President Bashir for war crimes and crimes against 
humanity. Though we are not members of the ICC, we nonetheless 
refrained from vetoing U.N. Security Council Resolution 1591 (UNSCR 
1591) referring the situation in Sudan to the ICC in order to support 
accountability there. We are strongly committed to the pursuit of peace 
in Sudan and believe those who have committed atrocities should be 
brought to justice.
DRC
    In 2006, President Kabila won the first democratic election in 40 
years; nevertheless, the problems faced by the Congolese state and 
population remain rife: endemic corruption; widespread abuse of human 
rights; economic mismanagement and extreme poverty. Weak state 
institutions coupled with the presence of domestic and foreign-armed 
militias have prevented the extension of state authority throughout the 
country, but recent military cooperation with Rwanda and Uganda against 
foreign-armed groups in eastern DRC and peace agreements with domestic 
militias are positive developments that could usher in real change.
    Eastern DRC has been the scene of unrelenting conflict and violence 
for many years. We have long supported and encouraged bilateral 
cooperation between the DRC and Rwanda on issues of mutual interest, 
including regional security. The two governments' decision to plan and 
launch (in January) a joint operation against an illegal armed group in 
eastern DRC, the Democratic Forces for the Liberation of Rwanda (FDLR), 
was illustrative of such improved coordination. In fact, it's worth 
noting that the countries gave the operation the name ``Umoja Wetu,'' 
which is Swahili for ``Our Unity.''
    Rwandan forces pulled out of DRC in February. Although the joint 
operation succeeded in weakening the capabilities of the FDLR to a 
certain extent, it remains active and continues to terrorize the local 
civilian population. The FDLR is able to do this because the Rwandans' 
departure resulted in a security vacuum that the Congolese military 
cannot fill. The FARDC is bloated, ill-trained, ill-equipped, under-
resourced and frequently unpaid for months on end. The United States, 
MONUC, and other international partners have undertaken major security 
sector reform efforts in concert with the DRC government to address 
these issues. On May 12, in Brussels, representatives of several key 
donor nations and organizations met for a day-long discussion of how to 
better coordinate security sector assistance--including ensuring that 
all such assistance includes a focus on FARDC and other security 
forces' adherence to human rights norms.
    The GDRC and Government of Rwanda continue to take steps to 
normalize relations, a process they started last year by meeting 
regularly in each other's capitals. Rwanda has just named its 
Ambassador to the DRC; the DRC is likely to follow suit with its 
nominee for Rwanda shortly.
    Additionally, the Government of the DRC has now demonstrated its 
willingness to address, through recent joint military operations with 
the Governments of Uganda and Southern Sudan, the threat posed by the 
Lord's Resistance Army (LRA). The LRA is a Ugandan rebel group that is 
now based in northeastern DRC that uses rape and the sexual enslavement 
of women and girls as just one of its tools of terror against civilian 
populations in the DRC, Central African Republic and Southern Sudan. 
Although these operations have not yet met their stated objective to 
capture senior LRA leadership, operations against LRA elements have 
degraded LRA capabilities, destroyed LRA camps, and seized LRA 
equipment, supplies, food and weapons. Operations have also captured 
LRA combatants, freed abductees, and increased military cooperation 
among participating governments, especially between Uganda and the DRC. 
However, despite these advances, attacks by the LRA against civilian 
populations in DRC and Southern Sudan have continued, with more than 
900 killed and over 160,000 displaced. As military efforts to contain 
the threat advance, regional militaries must continue to make the 
protections of civilians a priority.
    Eighty percent of the population of the DRC lives below the poverty 
line. World market prices of (and demand for) the key mineral resources 
that form the basis of the DRC's formal economy have fallen sharply in 
recent months, cutting GDP growth projections by half and undermining 
previous economic gains. Prior to the recent approval of IMF assistance 
totaling $200 million, the DRC Government was operating with only a few 
days' cash reserves and faced significant balance of payments and 
fiscal gaps. The World Bank has subsequently provided $100 million and 
the African Development Bank, $97 million. Without this critical 
emergency assistance, civil servants, teachers, police and the military 
risked not being paid--and in fact soldiers' pay is still 2 months 
delinquent--while already inadequate basic services could have been 
curtailed. Higher inflation and a depreciating local currency have 
resulted in the continued escalation of food prices, placing further 
hardships on the most vulnerable members of the population.
    More should also be done to address the unregulated mining and 
trade of Congolese natural resources, which for too long have funded 
violence and facilitated human rights abuses in the eastern DRC. We are 
consulting with the DRC, other regional governments and the 
international community on how to regulate this trade so that it 
benefits and fosters development for the greatest number of people 
possible.
                     u.s. programs and initiatives
Overall
    Since 2000, the Department of State has funded a special program 
for ``Prevention and Response to GBV'' for refugee populations. The 
program has provided over $27.8 million for sexual violence prevention 
and response projects, in cooperation with international organizations 
and NGOs worldwide.
    In fiscal year 2008, the Department's Bureau of Population, 
Refugees and Migration (PRM) supported several stand-alone programs 
that targeted the prevention of, and response to, gender-based 
violence, totaling $6,341,281. In order to address GBV effectively, 
program components that include GBV are also integrated within larger 
multisectoral assistance programs. As a rough assessment, in FY 2008 
PRM provided an estimated $3.2 million to support such integrated 
programming. For example, a health program for Burmese refugees in 
Thailand also included a community GBV coordinator, and a radio program 
for refugees from Darfur included segments and features on GBV.
Darfur
    In Darfur, although the U.N. High Commissioner for Refugees (UNHCR) 
is the U.N. cluster lead for international refugee protection 
activities in West Darfur, the Government of National Unity (GNU) has 
refused to recognize any mandate for UNHCR beyond that of the provision 
of assistance to refugees. Despite host government resistance, UNHCR 
specifically looks at GBV issues and intervenes through various 
outreach activities: psychosocial support; trauma counseling; clinical 
management of rape; access to justice; and women's empowerment. 
Although many of the beneficiaries lost access to this UNHCR support 
following the March 4 NGO expulsion, the GNU had already shut down most 
NGO programs that have protection or GBV components before those 
expulsions. UNHCR is looking for new partners to continue this type of 
programming.
    The U.S. Agency for International Development (USAID) has provided 
resources to UNHCR to support stronger human rights monitoring in 
Darfur, and also to the U.N. Development Program to integrate awareness 
of sexual violence into the rule of law. USAID is also the principal 
donor in Darfur funding humanitarian programs, including, but not 
limited to, the provision of food, water, sanitation, shelter, and 
health services (including maternal and reproductive health) for people 
living in internally displaced person (IDP) camps and other underserved 
areas. They supply programs that provide women with the skills and 
resources to pursue income-generating activities, thus reducing their 
dependence on the economic activities that leave them more vulnerable 
to rape, such as firewood collection.
    The Bureau of Democracy, Human Rights, and Labor (DRL) has provided 
over $2 million to support 10 women's centers in Darfur internally 
displaced persons camps. These centers have provided GBV survivors with 
psychosocial counseling and referrals for medical services and have 
provided thousands of women with a safe space in which to receive such 
diverse training on such issues as literacy and advocacy skills.
DRC
    USAID has allocated more than $10 million since 2002 that has 
helped more than 100,000 survivors in the region. Programs provide care 
and treatment services, including access to medical care, fistula 
repair, counseling and family mediation, and social and economic 
reintegration support. Community awareness activities educate and 
mobilize local communities, including traditional leaders and women's 
groups, to promote women's rights, the acceptance of rape survivors, 
and protection of the whole community. USAID's Office of Foreign 
Disaster Assistance (OFDA) also supports protection and emergency 
health programs in North Kivu and Orientale provinces, including 
medical services for IDPs and GBV survivors. OFDA-funded GBV programs 
provide integrated psychosocial, medical, and community outreach and 
education services.
    On December 16, 2008, USAID signed a $5 million 3-year cooperative 
agreement with the international NGO Cooperazione Internationale 
(COOPI). The agreement builds on the past successes of COOPI GBV 
programming in the eastern provinces of Orientale (Ituri District) and 
Maniema. The programs address physical, psychological, and economic 
needs of survivors, with a particular focus on minors and women 
pregnant as a result of rape. They also aim to strengthen the community 
response to GBV to prevent future acts of violence.
    Within the Department of State, PRM supports the efforts of UNHCR 
and the International Committee of the Red Cross. Their programs 
include initiatives to boost health center capacity to provide 
psychosocial, as well as physical, rehabilitation support to victims, 
and efforts to sensitize communities to prevent and respond to GBV. One 
example is the Center for Victims of Torture (CVT), which hires and 
trains national staff to serve as mental health providers as well as 
providing training staff at local and international NGOs, U.N. 
agencies, and other institutions. Other NGO partner programs assist 
victims with reestablishing their livelihoods through skills training 
and help with market access. In its role as head of the IDP protection 
cluster, UNHCR plays an active role in monitoring and conducting needs 
assessments in conflict-affected areas.
    PRM also provides support to UNHCR and partner NGOs in preventing 
and responding to gender-based violence in DRC refugee camps and 
settlements in neighboring countries. For example, they support the 
American Refugee Committee in Rwanda and the International Medical 
Corps in Uganda.
    Also within the Department of State, DRL has programs in the DRC to 
promote human rights, provide legal services to survivors, and build 
the capacity of local NGOs, the justice sector, law enforcement 
personnel, and the media.
    Through its Africa Bureau, the Department of State funded a program 
in cooperation with the Defense International Institute for Legal 
Studies (DIILS) and MONUC to build sex crimes investigation capacity 
within the DRC's military justice system. Embassy Kinshasa's 
``Democracy and Human Rights Fund'' also provides small grants on an 
annual basis to local organizations that provide economic and legal 
support to survivors.
                          multilateral efforts
U.N. General Assembly Resolution 62/134; Security Council Resolutions 
        1325 and 1820
    Abundant information exists about violence against women in 
conflict and post-conflict situations, including the widespread and 
systematic use of rape. Yet international efforts to address such 
violence are often hindered by lack of political will and by assertions 
that the information is insufficient to warrant action. To address this 
problem, the United States has sponsored resolutions in both the U.N. 
General Assembly (UNGA) and the U.N. Security Council (SC) that call 
upon States to take specific actions toward ending the use of sexual 
violence in armed conflict. Effective implementation of these 
resolutions is crucial.
    UNGA Resolution 62/134 (December 2007) calls special attention to 
the issue of rape in conflict situations and to rape and other sexual 
violence committed to achieve political or military objectives. The 
resolution affirms the need for States to ensure that perpetrators of 
such acts do not operate with impunity and suggests concrete ways that 
States and other actors can assist victims. It contains a number of 
provisions that are particularly relevant to cases in which rape is 
used or condoned by those in authority. And it calls for the Secretary 
General to issue a report that is intended, among other things, to help 
identify situations in which rape is being used to advance political or 
military objectives, in order to spur the international community to 
act to stop this practice.
    During the U.S. presidency of the Security Council, the United 
States introduced SC Resolution 1820 (June 2008), a resolution that 
built upon SC Resolution 1325 (2000) on Women, Peace, and Security and 
drew attention to the egregious use of rape and sexual violence as a 
weapon of war. SC Resolution 1325 recognizes that women are not only 
victims in conflict situations, but must play a central role in the 
post-conflict reconstruction process if societies are to thrive. That 
resolution is widely praised, but Member States and civil society 
organizations have rightly noted that followup actions leading to 
tangible results have been conspicuously lacking.
    SC Resolution 1820 recognized that preventing and responding to 
sexual violence deliberately targeting civilians could significantly 
contribute to the maintenance of international peace and security. It 
affirmed the Council's intention to take sexual violence in situations 
of armed conflict into account when establishing or renewing state-
specific sanctions, and requested the U.N. Secretary General to report 
to the Council on situations of armed conflict in which sexual violence 
has been systematically employed against civilians. We hope that this 
reporting requirement, and the forthcoming first report in June 2009, 
will bring these instances to light and encourage steps to halt the 
sexual violence.
Children and armed conflict
    The United States is also leading efforts at the U.N. to address 
rape and sexual violence committed against children in the context of 
armed conflict. Specifically, we are working to expand the list of 
``triggers'' for listing state and nonstate actors in the annexes of 
the Secretary General's annual report on Children and Armed Conflict to 
include rape and sexual violence committed against children in the 
context of armed conflict. At present, the only existing ``trigger'' is 
unlawful recruitment and use of child soldiers.
    When a country is listed in the annexes, monitoring and reporting 
of unlawful recruitment and use in the conflict situation begins. 
Action plans to address unlawful recruitment and use are also 
developed. If we are able to add the trigger of rape and sexual 
violence committed against children, we will be better equipped to 
assess the scope of the problem in a given country and to develop 
action plans to combat it.
    Based in part on U.S. efforts, the Security Council approved, on 
April 29, 2009, a Presidential Statement that expressed deep concern 
with the high incidence and appalling brutality of rape and sexual 
violence committed against children in the context of armed conflict. 
The statement recognized the importance of including in the annexes to 
the Secretary General's reports on Children and Armed Conflict state 
and nonstate actors that commit acts of rape and other sexual violence 
against children. The statement further expressed the intent to take 
action on the expansion of the trigger within 3 months. The United 
States actively supported this important statement of intent, which we 
hope will lead to the adoption of this additional trigger. We are 
working to make this happen.
Peacekeeping
    Security Council resolutions now include in peacekeeping mandates, 
where necessary, specific instructions for U.N. peacekeepers to prevent 
gender and sexually based violence and to take steps to protect against 
it. The Department of Peacekeeping Operations (DPKO) is developing and 
improving training modules (both predeployment and on arrival) and 
field manuals on this subject, and the Secretary General's regular 
reports on each mission include information on sexual violence, where 
that is an issue.
    The United States continues to actively work with the U.N. 
Secretariat and fellow members of the U.N. to prevent sexual misconduct 
by U.N. peacekeeping personnel--military, police, and civilians.
Darfur
    The African Union/United Nations Hybrid Operation in Darfur 
(UNAMID) report issued by the Secretary General in April 2009, reported 
that the vulnerability of women in IDP camps to sexual and gender-based 
violence, including domestic violence, is a continuing problem. In an 
attempt to address the ongoing violence, UNAMID's mandate asks the 
Secretary General to ensure that UNAMID personnel implement Security 
Council resolutions 1325 and 1820 and to report on their implementation 
in the periodic SYG reports. UNAMID conducts community policing 
initiatives, employs women police officers to educate women about rape 
and sexual violence, encourages the reporting of rape, urges women to 
join camp security committees, and conducts escorts and patrols when 
women are outside the camps collecting firewood.
    The Secretary General has also urged Sudan's Government of National 
Unity to adopt a comprehensive strategy to address sexual violence, 
including strengthening the capacity and coverage of family and child 
police units, and continuing to train and build the capacity of police 
and judicial officials and social workers on issues related to sexual 
violence.
DRC
    Upon renewing the mandate for MONUC in December 2008, the Security 
Council identified the protection of civilians as MONUC's top priority. 
In addition, due to the scale and severity of sexual violence committed 
especially by armed elements in the DRC, the Security Council requested 
MONUC to strengthen its efforts to prevent and respond to sexual 
violence, including through training for the Congolese army, and to 
regularly report on actions taken in this regard.
    MONUC has focused on developing innovative strategies to improve 
civilian protection and recently developed the concept of joint 
protection teams (JPTs) to enhance and improve the implementation of 
the mission's mandate. During the past 3 months, 10 multidisciplinary 
joint protection teams were deployed to the main conflict-affected 
areas in North Kivu. MONUC has also created what it calls ``MONUC-
protected corridors,'' where civilians can be evacuated preemptively in 
anticipation of an attack. MONUC continues to search for more 
effective, innovative approaches to complement and enhance the military 
effort to protect civilians.
    Under the auspices of the U.N. Action against Sexual Violence in 
Conflict, and on the basis of extensive consultations with MONUC and 
partner agencies, a comprehensive strategy on combating sexual violence 
in the DRC has been developed to provide a platform and framework for 
action and to strengthen prevention and protection and the response to 
sexual violence. The strategy is aimed at supporting the efforts of the 
U.N. system and the Government of the DRC to combat sexual violence and 
ensure complementarities with ongoing processes and initiatives, 
including the reform of the security sector and the security and 
stabilization support strategy.
    While both the current mandate and rules of engagement do provide 
for use of force to protect civilians, most observers and analysts 
agree that MONUC's numbers on the ground are simply too few to 
effectively implement a comprehensive prevention and protection 
strategy.
    recommendations for more effective actions against gender-based 
                                violence
Needs
    The most basic, urgent, and fundamental need is to move from words 
to action. DRC President Joseph Kabila has said he has ``zero tolerance 
for sexual abuse,'' but such statements need to be backed up by 
concrete action on rape prevention, protection of women, victim 
services, and the prosecution of perpetrators.
    We have a potential tool in SC Resolution 1820, but without 
adequate funding and political will, its good intentions remain 
unrealized. MONUC has the potential to be more effective, but a 
realization of the 3,000-troop plus-up foreseen in last November's SC 
Resolution 1843 and December's mandate renewal SC Resolution 1856 is 
essential.
    Specific and focused responses require specific and focused 
information about the true extent and geography of the crisis. To that 
end, it is imperative to have a broad network of trained data 
collectors in place.
    The culture of impunity must end. As even the most horrific rapes 
become trivialized and accepted as routine, rates of rape committed by 
civilians are also increasing. A recent U.N. Human Rights Integrated 
Office in the DRC (UNHRO) report concluded that ``law enforcement 
personnel and magistrates continue to treat rape and sexual violence in 
general with a marked lack of seriousness. Consequently, men accused of 
rape are often granted bail or given relatively light sentences and 
out-of-court settlements of sexual violence cases are widespread.'' Few 
cases are reported to the police and fewer still result in prosecution. 
Of the more than 14,000 rape cases registered in provincial health 
centers in the DRC between 2005 and 2007, only 287 were taken to trial.
    The trend toward increasing lawlessness and impunity will not end 
until respect for the rule of law and for humane conduct is 
established. Until then, more must be done to identify and punish 
perpetrators. Police must receive better training; there must be more 
focus on initiatives to strengthen the rule of law and provide victims 
with access to justice while offering them protection throughout the 
judicial process.
    Protection of women needs to be mainstreamed from the start into 
our efforts to rebuild civil society in Darfur and the DRC. In Darfur, 
efforts to involve civil society in the peace process have always made 
the participation of women a priority. We cannot allow the 
participation of women to become an afterthought or a separate 
category, but rather we must make programs for women's empowerment, 
girls' education, shelters, and care for victims of violence 
mainstreamed into general humanitarian and capacity-building work in 
this region. These issues should play an important role in our response 
to any conflict in any country, not just in the DRC and Sudan. These 
problems are not just women's issues or African issues, but a 
humanitarian and burgeoning security crisis, and need to be addressed 
as such.
Recommendations:
    Building on the needs identified above, our specific 
recommendations are to:

  <bullet> Establish a U.N. fund for gender advisors to help implement 
        SC Resolution 1820. Develop a U.S. national action plan for SC 
        Resolution 1325 that includes input from, and roles for, 
        agencies such as the Department of State, Department of 
        Defense, Health and Human Services, as well as civil society. 
        Build public awareness of SC Resolution 1325 and 1820 and bring 
        international pressure and suasion to bear on countries that 
        violate their provisions.
  <bullet> Empower MONUC's formed police units, working in close 
        coordination with EUSEC (the EU Security Cooperation entity, 
        which has the lead on police reform in the DRC) to provide 
        training in gender and human rights issues to the Congolese 
        National Police. Clarify the peacekeepers' rules of engagement, 
        and, particularly, the circumstances under which they are able 
        to take perpetrators into custody.
  <bullet> Enhance prison facilities. Currently, in the DRC, even if 
        rapists can be arrested and convicted, there is often nowhere 
        to incarcerate them without adding to the chronic, dangerous 
        and physically detrimental overcrowding throughout the DRC 
        prison system.
  <bullet> Establish guidelines for social responsibility in 
        consultation with organizations active in DRC and for 
        humanitarian operations in Sudan. Require that all private 
        military contracting firms hired to conduct activities have 
        adequate numbers of women in supervisory roles, have been 
        trained in proper and confidential reporting methods, and 
        promptly and appropriately respond to reports of violence.
  <bullet> Foster public awareness campaigns and efforts to shift 
        national opinion about the seriousness of rape. DRC First Lady 
        Olive Kabila and NGOs led by Congolese women have begun to have 
        some success in this area.
  <bullet> Enhance community reintegration services for victims, 
        including schooling, vocational training, employment services 
        and child care.
  <bullet> In cooperation with the Department of Defense, launch an 
        effort to link participation in sexual violence to career 
        consequences for officers in the FARDC. Establishing a human 
        rights office within DOD could be helpful for coordinating 
        programs, policies, and data collection to achieve this goal.
  <bullet> Provide additional protection patrols within IDP camps in 
        Darfur and the DRC. Within the context of enhanced data 
        collection, identify specific locations and patterns of daily 
        activity--for example, water and firewood collection--that 
        create the most vulnerability to attack, and fortify patrols 
        and protection in those geographic areas and at those times.
  <bullet> Provide personnel to gather documentation and testimony for 
        the prosecution of rapes. Supply legal experts to help 
        establish clear and consistent guidelines for identifying and 
        punishing perpetrators. The United States has already 
        undertaken efforts along these lines by supporting civilian 
        justice sector reform that parallels our military justice 
        reform work. Through a USAID-funded program, the American Bar 
        Association is helping Congolese rape survivors navigate the 
        justice system so that they are not discouraged by the 
        bureaucracy of a system that should be working for them.
  <bullet> Encourage the African Union to carry out the recommendations 
        presented in their International Commission of Inquiry report 
        of 2006 into sexual violence and abuse in Darfur, including 
        those that focus on holding African Union (AU) troops 
        accountable for actions of sexual exploitation and abuse, as 
        well as more general prevention of impunity and protection 
        efforts.
  <bullet> Include women in negotiations to end the conflicts in Sudan 
        and the DRC. Women must be represented at the negotiating table 
        so that their specific needs in post-conflict civil 
        reconstruction are incorporated, from the start, directly into 
        the fundamental documents and blueprints of reconciliation.

    We at the State Department are eager to work with you in developing 
more serious and sustainable actions, coordinated across the U.S. 
Government, to combat the violence. The Obama administration assesses 
that this humanitarian crisis urgently requires attention, and we 
pledge to accelerate our efforts and our engagement.

    Chairman Feingold. Thank you, Ambassador Verveer, very 
much. We now begin with a 7-minute round for the panel. I'll 
start it off. Mr. Carter, as you know, one of the major drivers 
of the instability in eastern Congo is the dismal state of the 
security sector itself, which does not protect or provide 
adequate justice for the civilian population and, moreover, 
many in the Congolese army, as you also know, have been 
implicated in rape and other forms of gender-based violence 
over the years.
    The U.S. Government has been involved with other donors 
over recent years in efforts to reform Congo's security sector, 
and the President requested additional funds in the 
supplemental, as well as a substantial increase in foreign 
military financing for Congo in his FY10 budget request. With 
all this increased support going to the Congolese army, how are 
we integrating, analyzing, and addressing gender issues, as 
well as seeking to enhance the accountability within the 
Congolese military?
    Mr. Carter. Thank you, Mr. Chairman. The issue, as you 
rightly put, is--it's a structural one we face with the 
Congolese army. What we've also come to realize is that the 
United States alone cannot make an effective reform effort. It 
has to be done with an international coalition.
    On May 12, the United States participated with other 
international donors in Brussels on a means by which we could 
better coordinate our efforts for what we would consider 
security sector reform. But we've recast it as security sector 
transformation, but it has to look beyond not just elements 
within the army, but also the police and the judicial system 
itself, that working on one component isn't sufficient, for 
example, if you don't have a judicial system that can deal with 
the questions of impunity in a clear-cut and open way.
    With regard to the military itself, we have an ongoing 
commitment to develop a rapid reaction force and model 
battalion based on the principles that we use with, for 
example, the ACOTA program for peacekeeping, which folds in 
significant training on the issues of human rights, dealing 
with gender sensitivity issues. That would be an issue that 
we'd be looking at, but once again, it has to be a coordinated 
effort with ourselves and other international donors.
    Chairman Feingold. You mentioned ACOTA. Are there specific 
components of any of our training programs that deal with the 
gender issues that are more than just a box-checking exercise? 
What does this really entail?
    Mr. Carter. Thank you, Chairman. The question there is 
what's inside the ACOTA program, essentially, what we're 
looking at with regards, for example, for peacekeeping 
training. It is an extensive series of classroom exercises, 
workshops, as well as role-playing exercises that the 
peacekeepers go through that focus on human rights issues 
generally, but also focus on the issue of gender sensitivity, 
how to address the question of gender-based violence. Since 
1997, we have trained about 75,000 peacekeepers, African 
peacekeepers, and according to our records, not one of those 
who have been trained--these peacekeepers who have been trained 
have been implicated in any effort of gender-based violence 
themselves. So what we see is that the training that we offer 
the peacekeepers within ACOTA is actually working.
    Chairman Feingold. Assistant Secretary Brimmer and Mr. 
Carter, there's understandably a lot of frustration that the 
U.N. Peacekeeping Force in Congo, MONUC, has not done enough to 
protect civilians. I was pleased when the Security Council 
authorized an additional 3,000 troops for MONUC, but it's my 
understanding now that 6 months later, those troops have still 
not arrived in Congo; is that so? And if so, what's the holdup?
    Ms. Brimmer. Senator, thank you very much for your 
question, if I may. Indeed, the last time that we renewed the 
mandate for MONUC, we did add important provisions, including 
the addition of the 3,000 forces that you mentioned. Indeed, 
they have not yet arrived. They are expected to arrive in early 
June. Because they're from several different countries, 
assembling them has taken additional time, but we've been 
assured that they'll be there within weeks, by the beginning of 
the next month.
    Chairman Feingold. And what practical protection mechanisms 
or resources would actually enhance MONUC's ability to protect? 
I understand they need greater intelligence support and 
helicopters to respond more rapidly to reported violence. But, 
for example, would the so-called Foreign Police Units like we 
have in Darfur, would those also be useful?
    Ms. Brimmer. Senator, thank you. Indeed, there are still 
additional assets that they would need. In particular, the 
information would be an important element of that. Foreign 
Police Units do have the advantage that they receive--they 
actually have trained together, deploy as a unit, and are able 
to receive the additional training which we've discussed 
separately, so that may be an important element.
    However, the provision of Foreign Police Units takes longer 
to put together. Not all countries are able to provide Foreign 
Police Units, but they can come with additional and often 
higher skills than individual police elements.
    Chairman Feingold. Ambassador Verveer, what steps can the 
United States take to ensure that survivors of sexual and 
gender-based violence have access to justice and high-level 
government officials and military personnel who are alleged to 
commit such crimes are prosecuted? And also, what about rebel 
leaders? How can we hold them to account if similar allegations 
exist?
    Ambassador Verveer. Well, obviously, Senator, we have to do 
this on so many levels, and the top level is the level of 
political will and the kinds of diplomatic efforts that we make 
within the United Nations and, of course, in our own bilateral 
relationships and with the groups and other nations with whom 
we are working in these regions. So I think this has to be a 
foremost consideration, and, too frequently, it is maybe the 
last box, if it's checked at all, instead of an integrated top 
priority. I think that has really been at the heart of our 
basic problem.
    Second, with respect to bringing the kinds of assistance 
the women need in coping with the terrible, terrible traumas 
that they have endured: we need to bring in everything from 
medical assistance to psychological assistance, but also, 
beyond that, to help record what has been happening to them, to 
use that in a way that will be effective, ultimately, to get to 
the perpetrators of the crimes against them and to help build 
the kind of infrastructure, civil society infrastructure that 
will enable the rule of law, ultimately, to become a reality, 
as opposed to the impunity that we have now.
    But it's a lot that has to happen at one time on several 
levels. I think first and foremost, the power is at the level 
of political power, and that's what really is critical in terms 
of the ultimate outcomes.
    Chairman Feingold. Thank you, Ambassador.
    Senator Boxer.
    Chairman Boxer. Thank you. I guess I will ask this of you, 
Ambassador Verveer. In an article, the Associated Press tells 
us about an 11-month-old baby from Congo who was raped by a 22-
year-old neighbor. We learn about a 4-year-old who was 
kidnapped by soldiers and gang raped when her mother sent her 
across the road to borrow something from a neighbor. She was 
infected with HIV. And we learn about a 12-year-old girl who 
was savagely raped by five soldiers and after raping her, they 
left her destroyed, with a foreign object inside her.
    The article then goes on to say that a Dr. Christof Kimona 
is one of only two surgeons who perform the reconstructive 
operations in eastern Congo that may be able to mend the 
physical damage done to these women. Some 1,100 rapes are being 
reported each month, with an average of 36 women and children 
raped every day. How is it possible that there are only two 
fistula surgeons in all of eastern Congo, given the scope of 
the crisis, and how can the United States help provide more 
health care, specialists, and surgeons to treat women in the 
Congo and other countries where women are suffering from 
fistula and other trauma?
    Ambassador Verveer. Thank you, Senator, for that question. 
It's obviously a very severe problem, and one that requires 
greater resources. The United States has heretofore provided 
some resources in terms of assistance to medical institutions 
for fistula repair and for other kinds of health services, but 
it's obviously nowhere near what is required.
    I think we need a concerted effort with our allies and 
multilateral institutions, to see what we can do to at least 
turn this immediate suffering around, as opposed to the longer 
term consequences which will take, obviously, longer to 
address.
    But you have hit on something that is absolutely pressing. 
I know that you know Dr. Mukwege as well, and I have sat with 
him and heard how really horrible the situation has become. And 
we know it's not better, so we clearly have an obligation to 
try to do more in terms of our own abilities to do that and 
beyond in terms of other donors.
    Chairman Boxer. We need to get doctors there, OK, and we 
need to take the lead. You know, we have other countries that 
aren't friends of ours that send doctors all over the world. We 
have the finest physicians. I know so many, and they would just 
do anything to help humanity like this. So it seems to me--and 
I'm so excited that our colleagues, Senator Corker and Senator 
Isakson, are going over there--that maybe it's something you 
could explore on how we could help get doctors there.
    Because when I first talked to Senator Feingold about this, 
and he's been working on this for so long, he looked at me and 
said, ``This is all part of a war, and that is why we've got to 
end the war.''
    But still, everyday there are rapes and rapes and rapes. So 
in the meantime, it seems to me that we need a short-term 
strategy and a longer term strategy, and part of the short-term 
strategy is to relieve the suffering. And, of course, we want 
to stop those rapes now, tomorrow, yesterday, but at least 
let's get some physicians in there. I hope you will take that 
back to the President, take it back to Secretary Clinton. And I 
would ask this of anyone on the panel.
    Ambassador Verveer. Senator, if I might, I will personally 
commit to try to convene the important players in all of this, 
both on the inside and outside, so we can begin to make better 
progress.
    Chairman Boxer. That would be wonderful. In 1996, the U.N. 
General Assembly adopted Resolution 1612, in which they 
established the Special Representative of the Secretary General 
for Children and Armed Conflict to promote and protect the 
rights of children affected by armed conflict. I'm interested 
in exploring a similar position to address women who are caught 
in conflict.
    Now, this is interesting, colleagues, because the Special 
Representative for Children works in coordination with the 
Security Council Working Group on Children, and they published 
country-specific reports on children caught in armed conflict.
    And the reports serve as triggers for action, so they're 
just not reports that sit on the shelves. They discover 
something and trigger action by the Security Council, and it 
puts public pressure on countries in conflict to halt 
violations against children.
    So I'll give you an example. In the Central African 
Republic, the Special Representative for Children used her 
stature to engage in discussions with the Popular Army for the 
Restoration of Democracy, the APRD. She was able to secure 
their commitment to release all children associated with their 
forces. This is progress. And what she said is--and this is 
quoting her--``when I go out into the field, there are armed 
groups who want to get off the list of shame that the U.N. 
Security Council Resolution 1612 sets up for those who recruit 
and use child soldiers.''
    So would the United States support the establishment of a 
high-profile position within the U.N. to address these issues, 
such as a special representative of the Secretary General to 
address rape and other sexual violence against women? I would 
ask anyone on the panel.
    Ambassador Verveer. Obviously, we would support the outcome 
of what you just described that worked so well for the children 
in comparable situations. One of the issues right now, Senator, 
is that the United Nations is undergoing a process to reform 
the institution to better respond to the whole range of women's 
issues in general at the United Nations and to bolster the 
voice, the structure, the resources, the whole range of 
responses. And we would have
to see, because obviously, we want both. We want the reform to
take place in a way that makes a difference, and we want the 
outcome you just described. So certainly, we will be part of 
those discussions.
    Chairman Boxer. OK. Well, my subcommittee oversees our work 
at the United Nations. Ambassador Brimmer, if you would like--
--
    Ms. Brimmer. Senator, thank you very much for that 
question. As Ambassador Verveer has mentioned, we're very 
interested in strengthening the mechanisms to deal with women's 
issues at the United Nations, and we want to look at what's the 
best way to do that--to continue to have a high-profile 
attention here, and to see what we can do to increase attention 
here.
    As you noted that the special representative for children 
in armed conflict actually provides us a mechanism also to 
address the very issues we're looking at today, one of the 
things the United States is trying to do is to expand the list 
of triggers that actually highlight issues for that particular 
special representative, because that's an important vehicle, 
and we're trying to introduce these issues in all of the 
vehicles that exist in the U.N. system.
    Chairman Boxer. OK. I have one more question, but my time 
is up, and I'd rather just complete the circle on this. And my 
question, which I'll ask you to address in writing, deals with 
how are we helping to train the U.N. forces, because we know 
we've had problems with what they do as well. So I'm going to 
ask you to answer that in writing.
    But I guess what I want to say to you--and this is my last 
point--is that we need a sense of urgency. You're new, you're 
all new, but you're not new to these issues. And I say grab 
hold of this, because the thing is, there are things we could 
do tomorrow that aren't that complicated. It's not that 
complicated to replicate what the U.N. is doing for children.
    We cannot wait. We cannot read another one of these 
stories. We cannot look at another one of these pictures. And I 
know that the current administration and the last one were very 
dedicated to doing something, but we know what works. And I 
think a couple of things we've discussed back and forth here--
including getting more doctors out there, getting a special 
person who's responsible for speaking out on these issues--are 
easy things.
    And if I can do anything to help in my role here--and I 
think I speak for everyone here--please let us know. Because we 
don't have time for the U.N. to get its act together on 
everything, because they may never get their act together on 
everything.
    But they need to get their act together on this, because it 
is a shame on the human race. It's as simple as that. And take 
that message back. You can tell them that you've got a couple 
of Senators here that feel very strongly about this. And I 
thank you very much for the time.
    Chairman Feingold. Thank you, Senator Boxer. We're pleased 
to see Senator Kaufman here. And Senator Wicker, ranking member 
of Senator Boxer's subcommittee, has joined us. He's asked 
unanimous consent that his statement be placed in the record, 
and for the sake of time, we thank him.
    [The prepared statement of Senator Wicker follows:]

     Prepared Statement of Hon. Roger F. Wicker, U.S. Senator From 
                              Mississippi

    Thank you, Mr. Chairman, for this opportunity to highlight the 
continued incidences of the systematic use of rape and sexual violence 
against women as an instrument of war. This is a very important topic. 
I would like to extend my regards and gratitude to Chairwoman Boxer and 
Senator Isakson for their willingness to make this a joint hearing with 
the Subcommittee on African Affairs.
    Throughout history, armies have used rape and sexual violence as an 
instrument of war. This abhorrent practice continues to this day. Let 
me be clear: This practice is immoral, unspeakable, inexcusable, and 
needs to be eradicated. There is no possible military or political 
justification for its use.
    The two cases that these committees are going to review here today, 
that of the Democratic Republic of Congo and Sudan, are particularly 
egregious examples, if for no other reason than the frequency with 
which systematic rape is practiced. If I may, I would like to say a few 
words about each of these cases.
    The First and Second Congo Wars brought casualties on a scale that 
had not been seen in years. Together, they caused civilian casualties 
of upwards of 5.6 million, a death toll that has not been seen in any 
military engagement since the Second World War. Still more troubling 
were the numerous reports that various factions in the war--both those 
fighting for the government and the various rebel factions--engaged in 
the systematic use of atrocities, including rape and sexual violence as 
an instrument of war. This was carried out as a strategy to 
systematically dominate, control, and possibly even destroy whole 
populations. There continue to be reports that fighting and rape in the 
eastern provinces continues to this day, particularly in the provinces 
of North and South Kivu. Aside from the horror that rape engenders in 
and of itself, it has also substantially contributed to the incidence 
of HIV/AIDS. All of this needs to stop.
    I would also like to address briefly the situation in Sudan. Sudan 
has fought various civil wars for all but 10 years since its 
independence in 1956. While prospects for Sudan have never been good, 
its most recent civil war, the Darfuri conflict, is particularly 
sordid. There is every reason to believe the abundance of reports that 
the government-backed Janjaweed have systematically resorted to rape 
and sexual violence to subdue the ethnically non-Arab population of 
Darfur. Further, there is reason to believe that the Government of 
Sudan has responded to the International Criminal Court's recent 
issuance of an arrest warrant for Sudanese President Omar al-Bashir by 
accelerating the ongoing atrocities. The Sudanese decision to retaliate 
by expelling the humanitarian aid agencies providing emergency 
assistance has only reduced our ability to provide relief to victims of 
rape and sexual violence, and other Darfuri communities in need. I hope 
the witnesses today can discuss some practical strategies to address 
and alleviate this crisis.
    It is my hope that this hearing will help draw increased public and 
international attention to the use of rape and sexual violence as an 
instrument of war. I hope that this will cause further action, both 
public and private, to be taken for the provision of emergency 
humanitarian relief to women, children, and communities that have been 
victimized. I also hope that this hearing will galvanize other 
policymakers and organizations, both at home and abroad, to decry and 
take action against this practice. I warmly greet all of the witnesses, 
and look forward to hearing their testimony.
    Thank you, Mr. Chairman.

    Chairman Feingold. Now we turn to Senator Isakson for his 
round.
    Senator Isakson. Thank you, Mr. Chairman. Ambassador 
Verveer, in your testimony, you said that international efforts 
to address ``such violence,'' meaning rape, were often hindered 
by lack of political will due to assertions that available 
information is insufficient to warrant action. And to that end, 
you say the United States has sponsored resolutions in the 
U.N., to which you referred, that call upon states to take 
specific action toward ending sexual violence in the Sudan. 
What specific action have we called on the Khartoum Government 
to implement?
    Ambassador Verveer. Perhaps my colleague would better 
address that.
    Mr. Carter. In the context of our discussions, with the 
situation in the Sudan, the emphasis has been in terms of 
resolving and trying to bring an end to the actual conflict in 
and of itself within Darfur, Senator. And so the concentration 
of our efforts with the appointment of Scott Gration as the 
special envoy has been focusing on first addressing the 
humanitarian situation following the expulsion of 13 
nongovernmental organizations, trying to reinsert or 
restructure the humanitarian infrastructure that was damaged as 
a result of that expulsion, focusing on those issues to get the 
humanitarian relief to Darfur, which has a bearing in terms of 
some of the services to women and children in that region.
    And, in addition to that, he's also been very active 
working with the international community to reinvigorate the 
Doha peace process, to bring steps toward a political 
settlement in Darfur so that these fundamental issues of 
infrastructure development, reconstruction, and the question of 
impunity that has been exhibited over the past several years as 
a result of the conflict can be addressed.
    But at this stage, the effort with the Khartoum Government 
has been to stabilize the situation in Darfur, get a peace 
process, and address the humanitarian crisis that exists there 
now.
    Senator Isakson. Well, on the subject of the humanitarian 
crisis and with reference to the Ambassador's statement about 
specific actions, has the U.N. made specific requirements of 
the Sudanese Government with regard to the protection of these 
NGOs and the delivery of humanitarian services? Have we 
specifically asked them to do so, and have they denied or 
rejected doing so? Or is there a U.N. accountability mechanism 
through which we're trying to assure delivery of humanitarian 
services and protection of NGOs?
    Ms. Brimmer. Well, in terms of--Senator, thank you for your 
question. I will address part of it from the U.N. point of 
view. Some of my colleagues may address it more particularly 
from our--the issues from--African issues.
    I would say that in terms of dealing with the humanitarian 
situation in Sudan, we've been particularly concerned with 
trying to recover from the expulsion of the NGOs at the 
beginning of May, which was a serious setback, as we all know, 
we've seen the effects of that.
    And so we've been working particularly with the U.N. 
agencies, which have been able to get back in, to try to 
continue to provide some form of assistance, because we're 
having to deal with Khartoum's egregious treatment of those 
people who are really dedicated to try to bring humanitarian 
assistance.
    Thank you.
    Senator Isakson. On that--yes, sir, go ahead.
    Mr. Carter. Well, specifically, if you're asking what the 
United States Government has done directly with the Government 
of Khartoum on this issue, I would say that we have raised your 
specific point, Senator, with the government, particularly as 
the special envoy has looked to determine a means by which to 
redress the problems following the expulsions of the 13 NGOs. 
Part and parcel of that is an agreement and an understanding 
from the Government of Sudan that they must support these 
international NGOs' operations, not harass them, and not 
exhibit the kind of behavior that we've seen before.
    Now, whether they honor the letter of those agreements is 
the question at hand, which requires continuing monitoring and 
surveillance on our part.
    Senator Isakson. Well, I asked the question because Senator 
Corker and I are going there in about 10 days, and one of the 
requirements of us is to spend 1 day with the Khartoum 
Government before entering Darfur to see what is really going 
on.
    But we are going to be sitting there across the table, and 
I do not know what level of discussion we will arrive to. I 
would certainly like, and I think Senator Corker would like as 
well, to have as definitive a direction as we can regarding 
what we can tell the Sudanese Government that we expect them 
and regarding which types of questions would hold them 
accountable to the expectations of both these U.N. resolutions 
to which the Ambassador referred.
    So any information like that that you can get to us would 
be helpful. We would like for our trip to be meaningful, if for 
no other reason than to raise our understanding of the issue 
and this committee's understanding of the issue.
    Mr. Carter. Senator, thank you. That is excellent. We will 
be happy to provide you with the appropriate information as 
well as points that would help reinforce the efforts that we're 
making there--as well to once again underscore with the 
Government of Sudan that the issue of the humanitarian 
situation in Darfur, the treatment of these NGOs and support of 
the United Nations operations there, are absolutely critical 
for the engagement with the international community in a broad 
way. We will provide that to you very, very soon, sir.
    Senator Isakson. Well, I appreciate that. And if you need 
us to meet with you, just let us know. Senator Corker and I 
both will come.
    My last point is this. I was very pleased, as was Chairman 
Feingold, with the appointment of Gen. Scott Gration as the 
special envoy to the Sudan. It sounds like logistics and 
strategy are pretty important, in terms of protecting these 
NGOs to get the humanitarian aid to Darfur. So I think it is 
particularly helpful that he's a two-star general who has been 
in charge of logistics for the Air Force and the Department of 
Defense.
    Do you know if there have been any discussions with General 
Gration, or is he still in the process of assessing the 
situation on the ground in terms of securing those NGOs?
    Mr. Carter. He has been--this has been the centerpiece of 
some of his activity in his first trip. He's made two trips 
there to the region. Yes, he's had these discussions directly 
with the authorities. He's worked with the United Nations 
operations in the field. He's had discussions with the 
neighborhood, so to speak, the governments of the surrounding 
areas as well as our development partners. He has also had 
discussions with the NGOs themselves, so he is seized with this 
issue.
    Senator Isakson. Thank you, Mr. Chairman.
    Chairman Feingold. Senator Wicker.
    Senator Wicker. Thank you, Mr. Chairman. I'd be happy to 
defer.
    Senator Kaufman. Thank you very much. I just have a very 
short--one short question. I really appreciate it. You know, 
these horrors, these stories are just so horrific, but, you 
know, it's like an echo to me of what went on in Bosnia when 
you read the stories about what happened during the genocide 
there.
    And it seems to me that more and more, what you described 
has kind of become the trademark of those involved in genocide. 
It isn't just killing people, but it's trying to make a 
permanent obliteration of what's gone on. And too often, these 
issues get kind of lumped with Africa, and I understand.
    But is there anywhere--especially Ambassador Verveer--is 
there anyplace in the world where we've been able to kind of 
control this kind of activity or mitigate it or do what Senator 
Boxer and others have said, where we've been successful in 
trying to stop this thing during a period of genocide, which it 
seems to me we're going to have to be living with this for the 
indefinite future, or am I wrong about that?
    Ambassador Verveer. I don't know if you're wrong about it. 
I hope you're wrong about it. But I think where we have been 
able to work to build civil society in ways that can operate to 
have the kind of social infrastructure that will keep a lot of 
the worst from happening, we are in a much better situation.
    And that is why it's so important, when you've got these 
failed situations with no institutions working and with no 
recourse, whether in terms of the political institutions or the 
civil society undergirdings, that's when we have the serious 
problems. But if we would build that and see these as long-term 
investments, we would be in a far different place from where we 
are in too many of these places.
    And I think we know that investing in women in particular 
has that kind of positive impacts. So I would hope that we 
wouldn't look at this as a marginal issue at the early stages 
and consequently wind up where we are today, where we've got 
these situations that are unspeakable. We have to ask: What 
could we have been doing a lot earlier to ameliorate some of 
this?
    So I think it speaks to the longer term smartness, if you 
will, about how we conduct our foreign policy, the kind of 
investments we make in development, and our diplomatic 
investments, but, in the long term, it pays off. Otherwise, 
we're going to find ourselves in more and more of these 
situations.
    And as I've heard many Senators talk about the fact that 
when we get into a situation where we wonder what the prospects 
are for the United States in terms of the ill-will toward us, a 
lot of it comes out of messy situations on the ground, when we 
don't have a vibrant civil society, or institutions that 
function. And I think we need to do a lot more to invest in 
that, because it is a long-term critical investment.
    Ms. Brimmer. Senator, if I may?
    Chairman Feingold. Yes; you may.
    Ms. Brimmer. Thank you for the question. If I may, I would 
just like to highlight a particular example, the case of 
Liberia, a country which suffered for, unfortunately, years of 
violence against civilians, yet there was positive engagement, 
both by Liberians and by the international community, including 
a peacekeeping operation. And there now we have an elected 
government headed by a woman. Our Ambassador there is a woman. 
The one special representative to the Secretary General there 
is a woman. And this is also a case where the issues 
confronting women were a particular part of the engagement by 
the international community.
    Earlier, the chairman had asked me about Foreign Police 
Units. Liberia actually was a place where the special unit, 
all-female unit from India, was deployed. That has actually 
inspired Liberian women themselves to pursue careers in law 
enforcement. So there are some cases where long-term and 
committed engagement has really made a difference.
    Senator Kaufman. Chairman Boxer, you know, this would be a 
good hearing, how prevention, how diplomacy and economic 
development helps, and the rule of law affects all these issues 
that we deal with, and how important those are. And I want to 
thank Senator Wicker for allowing me to ask my question. I 
appreciate it.
    Chairman Feingold. Senator Wicker.
    Senator Wicker. Thank you very much. I understand that in 
opening statements, the role of U.N. peacekeepers has been 
touched on. I'd like to explore that topic a little more. And 
perhaps I'll be repeating myself, but let me just observe that 
it is indeed hard to believe in 2009, there's a necessity for 
having hearings such as this.
    And I think we can all speak in one voice that rape as a 
weapon of policy is completely--has always been completely 
unacceptable, but certainly in this day and age, we should have 
a plan and a policy and an action plan to make sure that we're 
actually making some progress. Let me specifically mention that 
the U.N. mission to the Congo was established in 1999. It 
deployed some 10,800 peacekeepers from 50 countries.
    And in 2004, Secretary General Kofi Annan was forced to 
admit that there had been cases of this U.N. peacekeeping force 
sexually violating the refugees, who were supposed to be under 
the protection of the force. Indeed, there had been prior 
allegations of U.N. peacekeepers sexually exploiting their 
charges, but this was the first instance in which widespread 
evidence was available of peacekeeper misconduct.
    One common allegation is that these U.N. peacekeepers would 
rape a refugee and then later, supply that refugee with food, 
so as to make the act appear to be an act of prostitution, 
rather than rape. A number of the allegations were that the 
rapes were perpetrated against children.
    And in fact, Amnesty International told the Christian 
Science Monitor, ``The issue with the U.N. is that peacekeeping 
operations unfortunately seem to be doing the same thing that 
other militaries do. Even the guardians have to be guarded.''
    Now, this is an older allegation, admittedly. But I just 
wonder, is our government satisfied that the United Nations has 
adequately addressed this question, that they've gone back and, 
as a matter of United Nations governance, made sure that this 
has been addressed, and that we've received ground truth 
concerning what actually happened, and that there has been a 
plan adopted to make sure that at least U.N. peacekeepers, the 
folks doing the guarding, are not the perpetrators of this 
ancient kind of abuse and torture?
    Ms. Brimmer. Senator, thank you for that question. Indeed, 
any such issue is one too many, and the situations you 
described are indeed troubling. However, I should note there's 
been an important sea change in the approach to these issues at 
the United Nations, and that Member States, with the United 
States in the lead, have made important changes in how the 
United Nations addresses these issues, and in particular, in 
the case of MONUC, the operation in Congo. The figures you 
cited----
    Senator Wicker. MONUC is the French acronym for these 
peacekeepers in the Congo?
    Ms. Brimmer. They are the peacekeepers in the Congo. The 
situation you described in 2004 was indeed serious, and this 
has taken the attention seriously of the Security Council. In 
the most recent renewal of the Security Council mandate for 
that operation in December, there was an explicit emphasis on 
sexual violence, on trying to address the situation. And we 
need to differentiate between the peacekeepers' actions and the 
actions by others in Congo.
    In terms of the peacekeepers, their mission now, and the 
primary mission now is civilian protection. And there have been 
important efforts to work on the training of the peacekeepers, 
extensive training before they go in-country and once they're 
in-country. The resolution----
    Senator Wicker. If I could interrupt, is it the official 
position of the United Nations now that the acts did indeed 
occur, and that regrettably, they were perpetrated in part by 
persons there under the auspices of the United Nations?
    Ms. Brimmer. In terms of the incidents of 2004, I would 
have to go back and look. As far as addressing it specifically 
myself, I would want to go back and look specifically at the 
incidents you raise in 2004 and get back to you regarding those 
particular allegations. I was going to comment on the more 
recent activities.
    In particular, we've noted that currently now in the 
peacekeeping operation, there are about 18,400 peacekeepers 
currently in Congo. Of those, we've noticed a decline in the 
reported incidents. I should say that we also are trying to 
encourage the reporting in the first place, because we want to 
have adequate reporting. In 2007, there were 48 cases, and in 
2008, there were 38 cases so far. Any case is too many, but I 
would say that now there's a more organized effort to try to 
have adequate reporting and to deal with the cases that come 
up, and I should say that the mandate for the operation in 
Congo also requires the Secretary General of the United Nations 
to report explicitly on sexual violence issues when reviewing 
the peacekeeping mandate.
    In terms of looking ahead, the mandate will be renewed 
again, if appropriate, in December. It comes up in December 
2009. Again, we'll be looking very seriously at these issues 
and how the peacekeeping operation addresses these issues at 
the time of the mandate renewal.
    Senator Wicker. Thank you.
    Chairman Feingold. Thank you, Senator. Let me just add that 
obviously, this is a serious concern with regard to any 
misconduct by U.N. troops. And when I was in eastern Congo, I 
did speak to the Pakistani troops about an incident involving 
them, but I do want to say that it is only because of MONUC, 
only because of the U.N. peacekeepers--Pakistanis, the Indians, 
the Moroccans, and others, and our own former Ambassador to the 
Congo, who was head of the MONUC at the time, Ambassador Bill 
Swing--that I was able to go and meet these women and have a 
private meeting and learn of the strategy.
    So this has to be faced. Any misconduct has to be fixed, 
but let's not have any confusion coming out of this hearing, 
that the issue that founded this has to do with rape and other 
conduct being used essentially as a form of genocide or war, 
and that is not something that, in my view, the U.N. 
peacekeepers can be fairly lumped in with, as serious as it is.
    I do not want to undercut how important it is that we have 
something like MONUC in order to provide us the ability to 
simply get in there and try to do the kinds of things Senator 
Boxer's particularly talking about. So thank you for raising 
that issue.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman, and thank you for 
your testimony. As anybody would be, I'm incredibly troubled at 
every level at what is happening. I guess I want to understand, 
if the issue seems so huge, where do you start to have impact, 
and knowing that probably during this hearing--not probably, 
but knowing that during this hearing it is happening right now, 
as we're sitting on this panel, and somebody else is being 
affected for life.
    My understanding is the biggest impact we could have is to 
end the conflicts; is that correct? That is the most major 
impact. So obviously, as we step down--and we know this 
conflict has been going on for some time, and certainly, I 
don't think enough has been done at any level to try to end it. 
But so as we step down, then I guess the cooperation 
internationally through the U.N. is the next level, is that 
correct, of impact?
    So I see you nodding. I don't want to waste time with that 
answer, since it seems to be unanimous. But the U.N. seems to 
be divided always. There's some Member State or country that 
keeps us from taking effective action. If you didn't have the 
U.N., you would create one, but because of these divisions, it 
seems that we're very ineffective at that level.
    Is there anything about this issue that divides the U.N. or 
their member countries that look at this, that look at our 
trying to take action against this, that create resistance 
within the U.N., that calls it not to take the actions or be as 
effective as could be? Is there any division inside of the U.N. 
as it relates to this issue?
    Ms. Brimmer. Senator, thank you. Thank you for that 
question about the approaches at the United Nations. I do not 
see such divisions. What I note is that the U.N. has been 
trying very much to work on both aspects of this question, both 
making sure that peacekeepers in the field who are absolutely 
vital to trying to help achieve long-term peace, that they 
receive adequate training in the field and their adequate 
reporting mechanisms. That's one aspect. But then the real 
perpetrators are not the peacekeepers. And the question there 
is----
    Senator Corker. But as far as working, the member 
countries, there's no division. There are no countries in this 
world who are resistant to us addressing this issue?
    Ms. Brimmer. I would say I see strong support for 
addressing this issue in many parts of the U.N.
    Senator Corker. Are there any parts of the U.N. that resist 
it? That is the question.
    Ms. Brimmer. I do not see at this point areas which are 
causing significant resistance, I think, but there are always 
more things we can do to always improve attention to this 
issue.
    Senator Corker. So stepping down from there, it seems to me 
then the thing that we can do to those--with those who have 
been affected is to have effective programs to deal with those 
people that have already been affected; is that correct?
    Ms. Brimmer. Well----
    Senator Corker. And, you know, we have this massive PEPFAR 
program that seems to be having positive effect. I know last 
year, we were able to get an amendment in to deal with male 
norms. In many countries, even acknowledging that AIDS is an 
issue, HIV is an issue, is hard to do. Is there anything 
programmatically that we might think about as it relates to 
PEPFAR and the way we've approached the issue there that might 
be applicable in these countries--the Congo, Sudan, and other 
places--that might be effective? Is there anything there that--
--
    Mr. Carter. Senator, thank you for that question. The issue 
here is what can we do bilaterally with the kind of programs 
that we have in place to address the impact, not necessarily in 
terms of prevention, but in response to some of the challenges 
that this issue places on local populations.
    With USAID, for example, in the Congo, over the last few 
years, we've spent about $10 million looking at the kind of 
medical treatment and dealing with about 100,000 survivors in 
the Congo with AID resources, in terms of the health 
infrastructure, in terms of providing health services at the 
local level.
    We have ongoing programs with various groups in the Congo 
with USAID resources to mitigate the impact of rape and to 
address some of the medical conditions that are there. More 
needs to be done in that sector for sure.
    But if you're looking at kind of an institutional structure 
like PEPFAR to address this issue, I have to say that would be 
a major challenge, given that the circumstances that we see, 
for example, in Darfur versus the scope of the problem that we 
see in eastern Congo or other parts would make it difficult to 
create an institutional response that fits each specific 
country.
    I think what we need to have is an integrated approach with 
unity of government approach to the question, but as well, one 
that is an international approach with our donor partners. 
There's not one country that can move on this issue alone.
    Senator Corker. I know we've had the NGO issue in Khartoum, 
but is there a direct resistance to any country trying to work 
within Sudan to try to deal with this issue by the Government 
of Khartoum? Is there direct resistance to that?
    Mr. Carter. Generally, with regard to the NGOs themselves, 
I mean, the government itself has been resistant and has put up 
obstacles to almost the entire humanitarian network that is 
operating in Darfur, both in the context of health services and 
food delivery, the United Nations program. So, if you're 
looking at where has there been significant resistance, I would 
say it is in Khartoum itself.
    Senator Corker. To this specific issue or just all NGOs?
    Mr. Carter. I think it's--I would say global. If you want 
to fold this under that, I would say that as well.
    Senator Corker. I just--we have contacted organizations 
that are dealing with women that have been violated in this 
way, and we read stories about what happens after the fact, and 
many of them living by themselves, off away from their 
families.
    It just--and I know we'll know a lot more when we return in 
a couple of weeks--but it just is beyond fathomable to me that, 
as Senator Boxer mentioned, that we have two physicians, that 
we don't have people funded to deal with the psychological 
issues, that we don't have people in place to deal with the 
aftermath of this tragedy.
    And it is just beyond belief to me that something that has 
to have universal offense to every living human being, we have 
not mobilized more resources to, at the very least, deal with 
the victims after the fact. The other issues I know are 
complex. I realize that there are many victims beyond what 
we're talking about, as it relates to the entire conflict, and 
I know it's going to take years for us to solve that, and I am 
just baffled that we have not mobilized greater resources. I 
would love to have any comments. I know my time is up.
    Ambassador Verveer. Senator, I think you're exactly right 
about that, and, as Senator Boxer also mentioned, there is a 
lack of physicians to deal with this problem. You know, there 
are any number of assistance programs. They are not adequate, 
obviously, to the task. Much of the assistance we're doing; is 
it enough? Certainly not, in terms of what is required, but 
what we are doing goes to the heart of what you're describing 
that needs to be done.
    But there's just so much more that needs to be done than is 
adequately being met, and I think that's an issue here on the
table. The resources to really get at some of this in a much 
broader, deeper, extensive way than we are currently doing, we 
as the United States, the multilateral organizations, the other 
partners that we have around the globe, countries that are 
participating in humanitarian assistance. We need to do more, 
and there's no disagreement on that.
    Senator Corker. Thank you for your testimony.
    Chairman Feingold. Thank you for your testimony.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman. I apologize for 
missing what I know was very compelling testimony, and you may 
have answered this question already. But if you were going to--
I know you said that ending the conflict in Darfur and in the 
Congo would be the most important thing. But short of that, 
what's the one single change effort that can make the most 
difference? You talked about resources. Is it just resources?
    Ambassador Verveer. I think, Senator, it's about protecting 
those who are in the path of these horrors that are being 
perpetrated. We just have to do a better job because these 
horrors are occurring. When women go to market, they're 
occurring. Where they congregate, they're occurring, wherever 
there are regularized activities they have to perform. And 
oftentimes they are in the path of attacks that result in the 
kinds of the things we've been discussing.
    So I think the protection issue is an absolutely critical 
one. There are so many other pieces to this, and we really need 
the broad, integrated approach; clearly. But, in terms of 
saving lives, that is critical, because you can't save lives 
unless the vulnerable can be protected from those who are 
attacking them.
    Senator Shaheen. Thank you. It seems to me that perhaps we 
do have a window of opportunity here, given the number of women 
now are in positions of power in the United States, whether 
it's Secretary Clinton or Senator Boxer who are pointedly 
calling attention to these tragedies, that hopefully, we will 
take this opportunity to address it. So thank you.
    Ambassador Verveer. Senator, if I might, on that point, 
related to women in these conflict zones: there are so many 
women who are clearly victims, and their plight has been on our 
table today, but there are so many community leaders, peace 
leaders, and activists who are well-trained, who know what's 
going on, and who are committed to a resolution.
    And I think one of the things this discussion has to be 
about to get at some of the things that, for example, Senator 
Corker, you've been mentioning, is to ensure that these women 
are part of the decisionmaking processes, that they're in the 
peace negotiations, that they're part of the rebuilding.
    The outcomes, whether it's their human rights or whether 
it's their future security, are going to be dependent on 
whether or not they participate in this. We've seen this in 
other peace processes. If they are not at the table, it is 
unlikely that the outcomes, as much as we want the peace, will 
be as good for them, because long after the guns are put down, 
the violence against women will continue.
    So they have to be part of the solution, and that's why 
this whole issue of Resolution 1325 is so critical, to get more 
engagement and recognition on the part of the decisionmakers to 
have the political will, if you will, to really ensure that 
women are going to be at the table.
    Senator Shaheen. Well, thank you very much for, again, 
reiterating that point. And I would hope that all of us--those 
of you who are headed to this part of the world would raise 
that issue whenever we have the opportunity, with both the 
leaders in the countries affected with our own military 
leaders, and with the decisionmaking apparatus in this country.
    Ambassador Verveer. Thank you.
    Chairman Feingold. Thank you, Senator Shaheen. That 
concludes our first panel, and I'll shortly be turning the 
gavel over to Senator Boxer for purposes of the second panel. 
We will, as I understand it shortly, be having three votes in a 
row, so if some Senators are not here for a while, that is not 
out of a lack of interest. It's because we have to go and do 
our job and vote. But I will be back as soon as I possibly can. 
Senator Boxer, I turn it over to you.
    Chairman Boxer [presiding]. First, we would like to say 
thank you very, very much. We'll be following up on all these 
matters. We'll ask the second panel, as quickly as they can, to 
take their seats, because my plan is to start us off now. We'll 
first hear from Eve Ensler, and we'll go from there. When we 
have to take a break, we will have to take about a \1/2\-hour 
break.
    I'm sorry to be so insistent with the gavel, but because--
the vote hasn't started yet, we'd like to get as many panelists 
in with their 5 minutes. Now, I'm going to cut you off at 5 
minutes. OK? You've got the little clocks there. So we will put 
your entire statement in the record.
    And we're going to hear from Eve Ensler. Ms. Ensler has 
devoted her life to stopping violence, envisioning, as her Web 
site states, a planet in which women and girls will be free to 
thrive, rather than merely survive. She's the author of the 
critically acclaimed play, ``The Vagina Monologues,'' which 
inspired her to create V-Day, a global movement to stop 
violence against women and girls. She's raised $60 million, 
helping countless women across the globe.
    As you will hear, Ms. Ensler's particularly passionate 
about stopping sexual violence against women in the Democratic 
Republic of Congo. So why don't you start, Eve, and then we'll 
go one by one, and I'll introduce each of you before you speak. 
Go right ahead.

            STATEMENT OF EVE ENSLER, FOUNDER, V-DAY,
                          NEW YORK, NY

    Ms. Ensler. Good afternoon. I'm here on behalf of countless
V-Day activists worldwide and in solidarity with my sisters and 
brothers in the Congo who demand an end to rape and war 
injustice. I thank you very much for the opportunity to testify 
today and for your commitment to ending violence against women 
and girls.
    I'm here because you, the U.S. Government, are the most 
powerful government. You have great influence in the Great 
Lakes region. I would like to believe it can be your legacy to 
inspire and provoke the world community to put an end to the 
worst femicide on the planet.
    My play, ``The Vagina Monologues,'' opened my eyes to the 
world inside this world. Everywhere I traveled with it, we've 
had scores of women lined up to tell me of their rapes, incest, 
beatings, mutilations. It was because of this that we started 
V-Day 11 years ago, a worldwide movement to end violence 
against women. And it has spread in 11 years to 130 countries.
    I've visited and revisited the rape mines of the world, 
from defined war zones like Bosnia, Haiti, and Afghanistan to 
the domestic battlegrounds in colleges and communities 
throughout North America, Europe, and the world. My inbox and 
heart have been jammed with stories every hour of every day for 
the last decade.
    I'm here to tell you that nothing I've heard or seen 
compares with what is going on in the Democratic Republic of 
Congo, where corporate greed, fueled by capitalist consumption 
and the rape of women, have merged into a single nightmare, 
where femicide, the systematic and planned destruction of the 
female population, is being used as a tactic of war to clear 
villages, village mines, and destroy the fabric of Congolese 
society.
    Women's bodies are the battleground of an economic war. In 
12 years, 6 million are dead; 1.4 million displaced. Hundreds 
and thousands of women have been raped and tortured. Babies as 
young as 6 months old, women as old as 80, their insides torn 
apart.
    What I have witnessed in the DRC, frankly, has shattered me 
and changed me forever. I will never be the same. I hope none 
of us will ever be the same. I think of Beatrice, who was shot 
in the vagina, who now has tubes instead of organs; Honorata, 
who was raped by gangs as she was tied upside down on a wheel; 
Sowadi, who was raped and raped, and forced to eat dead babies.
    Noella, who is my heart, an 8-year-old girl who was raped 
for 2 weeks, as groups of grown men raped her over and over. 
Now she has a hole inside her, a fistula from all the things 
that were shoved into her. Now she urinates and defecates on 
herself and lives a live of humiliation. So young, she didn't 
even know what a penis was.
    There is something sinister afoot. I was there in Bosnia in 
1994, when it was discovered there were rape camps where white 
women in Europe were being raped. Within 2 years, I witnessed 
adequate intervention. Yet in the DRC, femicide has continued 
for 12 years. Why? Is it that coltan, the mineral that keeps 
our cell phones and computers in play, is more important than 
Congolese girls?
    Is it flat-out racism, the world's utter indifference and 
disregard for black people and black women, in particular? Or 
is it simply that the U.N. and most governments are run by men, 
who have never known what it feels like to have a bayonet 
shoved up their vagina?
    What is happening in the DRC is the most brutal, rampant 
violence toward women in the world. If it continues to go 
unchecked, if there continues to be complete impunity, it sets 
a precedent that expands the boundaries of what is now 
permissible to do to women's bodies in the name of exploitation 
and greed everywhere.
    Frankly, it's cheap warfare. Women in the Congo--and I have 
spent a great deal of time with them. I've been there three 
times in the last 18 months--are simply the strongest, most 
gorgeous, resilient women in the world. They need protection.
    I ask you to fund a training program for Congolese women 
police officers. Do something for this sector so they can 
develop the right to defend themselves in a legal way. Address 
our role in plundering minerals, and demand that companies 
trace the roots of these minerals, make sure we are making and 
selling rape-free products. Put pressure on Rwanda, Uganda, 
Burundi, and all the countries in the Great Lakes region to sit 
down with all the militias involved in this conflict and find 
political solutions. I'm here to tell you that military 
solutions are no longer an option. All they do is bring about 
more raping.
    Most of all, I urge you to support the women. The women in 
the Congo are the future. They are at the center of the horror, 
and they have to be at the center of the solutions and peace 
negotiations. Supply funds for women's medical, psychological 
care, and economic empowerment. Women are the future of the 
DRC, and they are her greatest resource.
    I'm sad to say that we are not the first to testify. Dr. 
Mukwege, who is my good friend and colleague, was here a year 
and a half ago, and he was here with me for February, touring 
America for a month. When he returned, as we've heard today, 
there have been 1,100 women who have been raped each month 
since January, since this new incursion--the successful 
incursion was started.
    Dr. Mukwege returned. His first patient was a 9-year-old 
girl who was missing her anus and her vagina. That was what he 
returned to. And every single day since he has returned, he's 
operated 10 hours a day on girls.
    We have to do more, and I urge you, the U.S. Government, we 
can make a huge difference if there is a will. There needs to 
be a will. Let the Congo be the place where we end femicide. 
Let it be the template. Let it be the place where we outline 
what the future will look like, where we stop eviscerating 
women's bodies, whether it be floggings in Pakistan or horrible 
rape laws in Afghanistan, or the ongoing rapes in Darfur and 
Haiti and in Zimbabwe.
    Let the Congo be the place where women are finally 
cherished and life affirmed, where the humiliation and 
subjugation ended, where women take their rightful agency over 
their bodies, their land, and their country.
    Thank you very much.
    [The prepared statement of Ms. Ensler follows:]

     Prepared Statement of Eve Ensler, Founder, V-Day, New York, NY

    Good afternoon, I am here on behalf of countless V-Day activists 
worldwide, and in solidarity with my many Congolese sisters and 
brothers who demand justice and an end to rape. I thank you for the 
opportunity to testify.
    I am here because you--the United States Government--are the most 
powerful government in the world. You have great influence in the Great 
Lakes region of Africa. It can be your legacy to inspire and provoke 
the world community to put an end to the worst femicide on the planet.
    As some of you may know, my play ``The Vagina Monologues'' led me 
into the world of violence against women and girls. Everywhere I 
traveled with it scores of women lined up to tell me of their rapes, 
incest, beatings, mutilations. One out of three women on this planet 
will be raped or beaten in her lifetime.
    It was because of this that over 11 years ago we launched V-Day, a 
worldwide movement to end violence against women and girls. The 
movement has spread like wildfire to 130 countries, raising $70 
million. I have visited and revisited the rape mines of the world, from 
defined war zones like Bosnia, Afghanistan, Haiti to the domestic 
battlegrounds in colleges and communities throughout North America, 
Europe and the world. My in-box and heart have been jammed with stories 
every hour of every day for over a decade.
    I am here today to tell you that nothing I have heard or seen 
compares with what is going on in the Democratic Republic of Congo.
    When I returned from my first trip there nearly 2 years ago, I was 
shattered. I had crossed over to another zone in my psyche. I am not 
sure I will ever get back.
    Upon my return, still in a state of initial madness, I was unphased 
by all those who said the world was not interested in the Congo, all 
those survivors and activists I had met in Bukavu and Goma who had been 
working for years with their counterparts in the Congolese diaspora 
throughout the world. Those like Dr. Mukwege, a Congolese OB/GYN and 
founder of the Panzi Hospital in Bukavu who has been sewing up women's 
and little girls' vaginas for 12 years as fast as the militias are 
ripping them apart. I was unphased by the cynicism and doubt as any new 
zealot. The world simply hadn't gotten the necessary information. No 
world government, no leader, no body of the U.N. could turn its back, 
could sit and do nothing when they heard what I had heard, seen what I 
had seen. In 12 years, 6 million dead Congolese; 1.4 million displaced. 
Hundreds and thousands of women and girls raped and tortured. Babies as 
young as 6 months, women as old as 80, their insides torn asunder. No 
one could rightly ignore femicide--the systematic and planned 
destruction and annihilation of a female population as a tactic of war 
to clear villages, pillage mines of their coltan gold and tin, and wear 
away the fabric of Congolese society. No one could turn their back on 
Beatrice, a lean, pretty woman who was found in the forest after a 
soldier shot a gun in her vagina. She now has tubes instead of organs, 
or Lumo who was raped by over 50 men in the course of one day and has 
had nine operations and still has fistula, or Honorata who was taken by 
militia and tied to a wheel upside down then was raped and raped and 
over by so many soldiers she lost count--they called her ``the queen,'' 
or Sowadi--who watched the soldiers choke and smash the skulls of her 
children, then was forced to watch her best friend's child cut from her 
pregnant belly, and after, they were forced to eat the dead cooked baby 
or die. It goes on and on. Women who were being raped as they watched 
their husbands being slaughtered, women watching their daughters being 
raped, sons being forced to rape their sisters and mothers, husbands 
watching their wives be raped. Sons being raped. All this happening for 
12 years, all this happening right now as I speak.
    I believed that just telling their stories, speaking these words, 
would be enough to propel those with power into action. I have traveled 
everywhere these last 2 years speaking out to the Security Council, the 
Secretary General, Parliaments, world leaders. With many others I have 
pleaded for more peacekeepers asking over and over when the so-called 
3,000 troops, who are supposedly on their way to DRC, will ever show 
up? Asking when the powers that be might flex their diplomatic muscle 
in the best interest of the Congolese people by advocating for a 
political solution to the largest conflict since WWII.
    I have felt a murderous lethargy in the halls of power. I have 
heard members of the European Parliament say they had no idea it was 
even happening. I have been in situation after situation where the 
serving of protocol trumps the saving of human lives. I have heard 
empty promises and straight-out lies. I have waited as those that have 
the power to change this situation work through bureaucracy and 
hierarchies so that months and months pass and nothing is ever done. 
And then when it is all too late, ill-conceived plans made in back 
rooms are rushed into play that bring more violence and rapes but get 
labeled success by the world community. Witness the recent joint 
military operations against the FDLR (the remnants of the Hutu 
genocidaires) by the Congolese and Rwandan troops in January, now be 
touted in the West as a success. A success for whom? We know the action 
was a failure, as rather than neutralizing the FDLR, it scattered them, 
emboldening them to rape and pillage with reckless abandon.
    The women we work with in Goma at the Heal Africa Hospital are 
reporting 500 raped women have arrived each month since January. The 
U.N. Secretary General's recent report says 36 women are raped a day in 
eastern Congo. Now, all of South Kivu is clenched, sleepless as they 
wait for the next nightmarish incursion. Even the MONUC officials 
themselves do not hold back when talking about their lack of faith in 
the situation on the ground--during a recent security briefing about 
South Kivu one colonel said publicly that the joint operation of MONUC 
and the Congolese army will be a huge disaster that will most probably 
end in terrible tragedy because strategy, logistical support, and 
funding for soldiers was lacking, not to mention that the vast, dense 
forest proves to be a difficult place to win. Even Alan Doss, Special 
Representative of the General Secretary of the United Nations in DRC, 
admitted on Radio Okapi that he needs more men if the mission is ever 
to succeed.
    What these policies or strategies indicate, (if we can call them 
that, as strategies usually imply a vision of outcome and consequences) 
and what the last 10 years of policies indicate, is the profound 
indifference and shocking disregard for the lives of the Congolese 
people, in particular women and girls on the ground.
    There is something sinister afoot.
    I was there in Bosnia during the war in 1994. When it was 
discovered that there were rape camps and that thousands of women were 
being raped as a strategy of war. I watched the rapid response of the 
Western world community. After all, these were white women in Europe 
being raped. Within 2 years there was adequate intervention. It has 
been 12 years in the DRC. Hundreds of thousands of women and girls 
raped and tortured. I can only believe now that we are dealing not just 
with the terrible legacy of genocidal colonialism in the DRC, the core 
impact of it now lodged in the DNA of the worst perpetrators, but more 
disturbingly the Congo has become not the ``heart of darkness,'' but 
the ``heart of racism''--the place where the world's disregard, its 
indifference toward black people and particularly black women has 
completely manifested.
    Is it because the powers that be care more about power and 
resources and money? Is it that coltan, the mineral that keeps our cell 
phones and computers in play, is more important than the bodies and 
souls of little Congolese girls? International mining companies have 
significant economic investment in the DRC and I fear they privilege 
economic interest over the bodies of women. We in the West with our 
cell phones and PlayStation and computers filled with minerals 
extracted on the bodies of women. We in the West leaving the women in 
the forests to be raped and tortured. Is it the British and U.S. guilt 
over terrible inaction in Rwanda (which allowed genocide), which now 
allows them to turn a blind eye to Rwanda's role in the femicide and 
murder of the Congolese?
    Is it simply that the U.N. and most governments are run and 
controlled by men who have never known what it feels like to have a 
bayonet shoved up their vagina or who have never lost a bladder and 
rectum and then had to wait for months for a pouch for their urine and 
feces so they could be freed from sitting in a wretched smell, exiled 
from everyone and everywhere? Is it that they won't allow themselves to 
imagine what this feels like? Or is it that patriarchy has so 
normalized violence against women that none of this shocks or disturbs 
them? Is it that they know that for patriarchy to continue, for them to 
keep their power, this violence must continue as well?
    What is happening in the DRC is the worst violence toward women in 
the world. If it continues to go unchecked, unstopped, if there 
continues to be complete impunity it sets a precedent, a standard, it 
expands the boundaries of what now becomes permissible to do to women's 
bodies in the name of exploitation and greed everywhere. Already it is 
spreading. Just this week I received an e-mail that documented that 
Congolese soldiers are kidnapping and selling young Congolese girls 
between 12 and 16 years of age to Angolan soldiers. This impunity sends 
a signal to the world that the bodies of women and children will be the 
new battleground on which cheap wars will be fought. It says the 
international community is willing to sacrifice African women and girls 
to get the resources it needs. And we know as resources become more 
precious, more and more women, first the poor and marginalized, then 
the rest will be sacrificed.
    Women in the Congo are some of the most resilient women in the 
world. They need protection. I ask you--fund a training program for 
Congolese women police officers. Address our role in plundering 
minerals and demand that companies trace the routes of these minerals. 
Make sure they are making and selling rape-free products. Put pressure 
on Rwanda, Congo, Uganda, and other countries in the Great Lakes region 
to sit down with all the militias involved in this conflict to find a 
political solution. Military solutions are no longer an option and will 
only bring about more rape. Most of all support the women. Because 
women are at the center of this horror, they must be at the center of 
the solutions and peace negotiations. Supply funds for women's medical 
and psychological care, for educational and economic empowerment. Women 
are the future of the DRC. They are her greatest resource.
    Yet, in eastern Congo, 1,100 women are being raped each month. More 
Noella's are being raped as I speak. Where is the United States? I 
implore you--lead the world. Take action. Make this your mission.
    Let the Congo be where we ended femicide, the trend that is madly 
eviscerating this planet--from the floggings in Pakistan; the new rape 
laws in Afghanistan; the ongoing rapes in Haiti, Darfur, Zimbabwe; the 
daily battering, incest, harassing, trafficking, enslaving, genital 
cutting and honor killing. Let the Congo be the place where women were 
finally cherished and life affirmed; where the humiliation and 
subjugation ended; where women took their rightful agency over their 
bodies and land. Where the United States led the world in standing 
against rape and femicide; where the United States stood for women.

    Chairman Boxer. Thank you, Eve, for your passion.
    [Applause.]
    Chairman Boxer. Thank you. Next we will hear from Niemat 
Ahmadi. Ms. Ahmadi fled northern Darfur in 2005, after two 
assassination attempts on her life by the Sudanese Government. 
Before fleeing Darfur, Ms. Ahmadi spent much of her time 
advocating for the rights and protection of women. Welcome.

STATEMENT OF NEIMAT AHMADI, DARFURI LIASON OFFICER, SAVE DARFUR 
                   COALITION, WASHINGTON, DC

    Ms. Ahmadi. I would like to express my sincere appreciation 
to Senator Boxer and Senator Feingold for bringing the issue of 
sexual and gender-based violence to the attention of the United 
States Government and all of those who are concerned about 
women issues in Darfur, Congo, and elsewhere in the world.
    I'm here today because what is taking place in Darfur, I've 
witnessed and seen, and I have lived it, and my heart is 
broken. That is why I use my voice to speak on their behalf. As 
I speak to you today, the situation in Darfur is really grave, 
and the suffering of our people has been too long.
    As a Darfuri woman who was forced to flee the current 
genocide in Darfur, I feel sometimes I have left my people 
behind. I'm almost overwhelmed and often ashamed. Because 
that's why I use my voice on their behalf. Myself and many 
other women have been beaten, harassed, and tortured, and 
forced to leave our beloved homeland, leaving behind our 
families and friends, and many other women continue to endure 
unimaginable pain.
    Sadly, in the recent history and in the current crisis in 
Darfur, war is too often fought on women's bodies. In Darfur, 
where the slaughter continues for about 6 years and more, women 
are the most common targets. Women and children make up the 
overwhelming majority of those who live in internal displaced 
camps, which is estimated about 80 percent.
    Every week, hundreds of innocent people in Darfur, 
especially children, women, and elderly, are losing their 
lives, or are forcibly displaced from the villages. Countless 
women and girls continue to face brutal rape, humiliation, 
beating, starvation, diseases on a daily basis.
    I will never forget the stories of so many women. Miriam, 
who is from my village, came to--her mom carried her on her 
back after she was raped by seven men, and she had made a 
decision either to leave her because of the stigma or to bring 
her to get treatment, and then she can be able to save her 
life. Whereas as soon as she arrived, she was bleeding and she 
went in a coma.
    She made that decision. She was thinking of bringing her 
daughter because her dad was killed on the same day, and she 
was bringing her to help her, to treat her, and get her more 
education, so that she can be able to support herself. No one 
can support her in our community because they consider her as 
spoiled.
    I will never forget eight young girls in the hospital. 
They're just children and they have children as a result of 
rape, and they refused to breastfeeding them. And we tried to 
help them to accept that. They said, ``No. When they are raping 
us, telling us you slaves. Now you will be getting--and you are 
a child. That's why this child, if we help them and raise them, 
they will come again and fight against our people.''
    The rape that's used in Darfur is not something that 
happened as a product of attacks or uncontrolled troops. It is 
systematic. It is well planned and orchestrated, and a 
calculation to destroy our community. Women are raped, and when 
they are attacked in their villages, when they flee their homes 
seeking a safe refuge, and while they are living in the 
internal displaced camps. Even when guns have stopped, rape 
does not stop at all.
    Sadly, despite the magnitude of the crisis in Darfur and 
the magnitude of the suffering of those women, the issue of 
sexual violence and gender-based violence, they have--little 
has been done to address the issue of sexual violence, 
especially rape. There is no proper studies conducted to find 
the impact of the sexual violence on women and girls. There is 
not enough trauma counseling or psychosocial support or 
treatment for these victims. There is not any knowledge about 
women's HIV status in Darfur.
    There is no support. Even the U.N. Security Council and the 
U.N. campaign to stop rape, they announced that more than 100 
women are raped on a monthly basis, but nothing is done. So 
then the women continue to--any attempt to put an end to the 
suffering of our people. The United Nation and African Union 
mission is failing to protect our people in Darfur.
    Chairman Boxer. I'm sorry. You're going to have to finish, 
because our next witness flew in from the Congo, and I want to 
get her in before we go to vote. So if you could conclude, I'd 
appreciate it.
    Ms. Ahmadi. Thank you so much. I just call upon you to join 
me to call on the United States Government to take serious 
steps to stop the violence against women, for the Darfuri women 
to be safe.
    Only janjaweed, if they are disarmed and the government--a 
distance from the place where civilians and women are living in 
the internal displaced camps, and protection and engendering 
the UNAMID troops, the resources should be in place, designing 
special projects and education for Darfuri women and 
empowerment of women. And it will be appreciated if you would 
include my testimony in your record.
    [The prepared statement of Ms. Ahmadi follows:]

  Prepared Statement of Niemat Ahmadi, Darfuri Liaison Officer, Save 
                    Darfur Coalition, Washington, DC

    I would like express my sincere appreciation to Senator Barbara 
Boxer and Senator Russell Feingold for their remarkable effort to bring 
the issue of sexual violence and gender-based violence against women to 
the attention of the United States Government and to all those 
concerned about the tragic situation of women in Darfur, Congo, and 
elsewhere in the world.
    Today, the situation in Darfur is grave and the suffering of our 
people has gone on far too long. As a Darfuri woman who was forced to 
flee the current genocide in Darfur, I feel sometimes that I have left 
my people behind. I am often overwhelmed and ashamed. But on a daily 
basis, through my work and my ability to speak out publicly in the 
United States, I carry with me the plight of my mother, aunts, sisters, 
and countless other women in Darfur who face brutality and violence as 
part of their daily life. Beyond my own story, I know many others with 
similar experiences--we have been threatened and harassed to the point 
that we must leave our beloved homeland, our families, and our friends. 
Still millions more have been forced to leave their homes to exist in 
unspeakable conditions in internally displaced persons camps as they 
continue to endure unimaginable pain.
    Sadly, in recent history and in the current crisis in Darfur, war 
is too often fought with women's bodies. In Darfur, where slaughter 
continues and insecurity has reigned supreme for over 6 years, women 
are the most common targets. Women and children make up the 
overwhelming majority of the camp population, estimated at 80 percent. 
Every week hundreds of innocent people in Darfur--especially children, 
women, and the elderly--lose their lives or are forcibly displaced from 
their villages. Countless women and girls continue to face brutal rape, 
humiliation, beating, starvation and disease on a daily basis. The 
United Nations ``Stop Rape Now'' campaign, a partnership of 12 U.N. 
agencies, reports that hundreds of women continue to be raped in Darfur 
every day.
    In Darfur, rape is being used as weapon of war. It is a systematic 
tactic to destroy the very fabric of our community. Rape and sexual 
violence in Darfur is not the product of chaos or uncontrollable troops 
during the attacks. It is not an after-effect of war. It is well 
planned and orchestrated in a calculation to break apart families, tear 
down leadership structures, and leave long-term social, emotional, and 
physical scars on an entire community. Women are raped when their 
villages are attacked, when they flee their homes seeking safe refuge, 
and while they are living in camps for the internally displaced. 
Abduction and sexual slavery is a tactic used by the Sudanese 
Government and its allied Janjaweed militia. This terrorizing of women, 
families, and communities is not a nightmare--it is the reality of 
daily life in Darfur.
    Ladies and gentlemen, I will say again that today, the situation 
for my people is dire. Girls as young as 8 years old are raped and have 
died as a result. Countless others have been ostracized because of the 
stigma, abandoned by their husbands and families because they are 
considered to be spoiled. Many of the children born as the result of 
rape are left without care to die.
    Despite the alarming rate at which rape and other forms of sexual 
violence are used in the genocide in Darfur--and elsewhere--little has 
been done to address this deadly phenomenon. Until today, there has 
been no study carried out to determine the actual impact of the sexual 
violence on women and girls, which is indeed beyond our imagination. 
There is a lack of trauma counseling and psychosocial support for women 
survivors. And there is a lack of projects designed to provide fuel 
alternatives that could keep women safe in the camps. Instead, women go 
in search of firewood and means of sustenance and risk facing this 
cruel act of violence.
    The recent expulsion of NGOs has put women at risk more than ever 
before. Some of these NGOs were doing very important work specifically 
in addressing women's health needs and some other protection projects. 
Even though the programs were not enough before, now it is crucial to 
work to keep them alive at all.
    The Government of Sudan continued to obstruct any effort to put an 
end to the tragic situation that has been going on for years. The 
African Union-United Nations Hybrid Operation in Darfur, or UNAMID, is 
failing to meaningfully impact security on the ground due to a lack of 
resources and slow troop deployment. All international instruments 
concerned with violence against women such as Resolution 1325 and 
Resolution 1820 have not been implemented.
    Accordingly, I asked you to join me in calling upon the United 
States Government to take the leading role in protecting the women of 
Darfur and bringing a lasting solution to the conflict in Darfur.
    The following steps are crucial to ending the pandemic violence 
against women in Darfur:

  <bullet> First, women can only be safe if Janjaweed are disarmed and 
        Sudanese Government forces are distant from the areas 
        inhabitant by IDPs and innocent civilians.
  <bullet> Direct protection of women must become the first priority in 
        response to the conflict in Darfur.
  <bullet> The United States must work to engender the makeup of the 
        UNAMID force by providing the resources, training, and 
        recruitment of more female police within the camps. We must 
        strengthen the command structure to better protect women.
  <bullet> U.S. Department of State must create effective mechanisms 
        and tools for addressing violence against women in conflict 
        zones.
  <bullet> The U.S. mission to the United Nations must ensure full 
        implementation of UNSCR 1820, including a monitoring mechanism 
        and enforcement.
  <bullet> There must be advancement in the human rights agenda through 
        special attention to women's human rights.
  <bullet> Studies must be conducted to assess the impact of violence 
        on women in Darfur.
  <bullet> Support must continue for accountability for crimes 
        committed against women and support must be provided for women 
        to seek justice.
  <bullet> Projects must be designed to cover the gaps in the 
        protection of women, such as fuel alternatives programs and 
        other conflict sensitive programs to reduce the vulnerability 
        of women to the sexual violence.
  <bullet> Emergency interventions must be designed to deal with trauma 
        counseling, psychosocial support and empowerment for the 
        survivors of sexual violence.
  <bullet> Special support must be provided for girls' education, 
        capacity-building and promotion of women's leadership capacity 
        in Darfur.
  <bullet> Special funds must be allocated to support projects that 
        support women in Darfur.

    There is much work to be done to protect the women and girls of 
Darfur. I thank you for inviting me here today and look forward to 
working together to stop violence against women in Darfur, Congo, and 
everywhere in the world.

    Chairman Boxer. Oh, absolutely, we will. But we just--we 
want to hear from Chouchou Namegabe Nabintu. Chouchou currently 
runs a radio program in the Democratic Republic of Congo, which 
she uses to combat violence against women, especially in rural 
areas. She's the founder of the South Kivu Women's Media 
Association.
    In 2007, she brought the plight of Congolese women to the 
international stage, pleading the case of Kivu's women at the 
International Court of Justice. She also recently won the Vital 
Voices Global Leadership Award for her work in fighting 
injustice against women. So we're going to hear from her, and 
then we're going to go vote, and then we'll be back in about 25 
minutes after that. So please go right ahead, Chouchou. 
Welcome.

STATEMENT OF CHOUCHOU NAMEGABE NABINTU, PRESIDENT AND FOUNDER, 
 SOUTH KIVU WOMEN'S MEDIA ASSOCIATION, DEMOCRATIC REPUBLIC OF 
                             CONGO

    Ms. Nabintu. Thank you for having this important hearing. I 
am grateful for the invitation to be here. The women of the 
eastern Democratic Republic of Congo have waited a long time 
for American policymakers to take an interest in this 
situation. I thank Vital Voices Global Partnership for their 
commitment to empowering women around the world and for the 
support of the women of the Congo.
    Rape and sexual violence is used as a weapon and tactic of 
war to destroy the community. The South Kivu Women's Media 
Association is the voice of thousands of voiceless women. We 
use radio to give them the space to express what has happened 
to them, begin their healing, and to seek justice.
    We have interviewed over 400 women in South Kivu, and their 
stories are terrifying. In fact, the word rape fails to truly 
describe what is happening, because it is not only rape that 
occurs, but atrocities also accompany the rapes. That is what 
makes the situation in the eastern Congo so different and 
horrible. Of all the testimonies we recorded, there are two 
that stay in my mind that I will share with you.
    I met a woman who had five children and was raped. They 
took her into the forest with her five children and kept them 
there for several days. As each day passed, the rebels killed 
one of her children and forced her to eat her child's flesh. 
She begged to be killed, but they refused and said, ``No, we 
can't give you a good death.''
    Last month, after the joint operation between the Congolese 
army and the Rwandese army to break down the FDLR, in their 
running away, they raped more women. And our journalists were 
told that after they raped the women, they put fuel in their 
vaginas and set them on fire, and then extinguished the fire. 
This was done not to kill them, but to let them suffer.
    There were many other horrible atrocities, but why? Why 
such atrocities? Why do they fight their war on women's bodies? 
It is because there is a plan to put fear into the community 
through the woman, because she is the heart of the community. 
When she is pushed down, the whole community follows.
    We also ask why the silence of the developed countries? 
When a gorilla is killed in the mountains, there is an outcry, 
and people mobilize great resources to protect the animals. Yet 
more than 500,000 women have been raped, and there is silence. 
After all of this, you will make memorials and say, ``Never 
Again.'' But we don't want commemorations; we want you to act 
now.
    There are six actions that I request of you to help this 
situation. The first need of the women is security and peace. 
Rape is not peace. Rape is just like a gun, to show the force 
of the rebel groups. We ask for your involvement to station the 
U.N. peacekeepers to protect women in the rural areas.
    In the Congo, we believe that there will be security when 
the FDLR returns to Rwanda, the one element that used the 
presence of the FDLR. That's why I ask the American Government 
to get involved politically by pressuring the Rwandan 
Government to accept their return back and to begin their--the 
FDLR, so that they stop fighting their war in our country and 
on women's bodies.
    We need strong justice to end impunity on rape and sexual 
violence. We ask the United States to join us in pressuring the 
Congolese Government to stop giving amnesty to rebels who use 
rape as their war strategy. The American and Congolese 
Governments should request the International Criminal Court, 
the best ones, for the Congolese and Rwandan rebel leaders. We 
also ask you to pressure the International Criminal Court to 
include rape and sexual violence in the charges filed against 
these war criminals.
    Finally, we ask for assistance to pursue the legal reforms 
needed in the Congo to end impunity for rape and sexual 
violence in war. We need zero tolerance on rape and sexual 
violence at all levels of the justice system. We ask that the 
American Government and United States multinational 
corporations contribute financially to the recovery and healing 
of the women and the communities, because your economy benefits 
from the minerals of the Congo.
    The women and families need medical and psychological 
services to heal from the trauma to their bodies and minds. 
There are also children born of rape who live as orphans 
because the community has rejected them and sees them as 
ticking bombs who will grow up to become like the rebels. These 
women and children are left with nothing.
    Another part of this recovery is to help Congo to 
strengthen the formal economy in the eastern provinces and end 
the profitability of blood minerals. We ask that you work with 
the United States multinational corporations to develop ways to 
ensure that Congolese minerals imported to the United States 
are conflict-free, and that the security infrastructure and 
capacity of the eastern provinces is built up through this 
investment. Economic recovery is part of the total recovery of 
the women and their communities.
    Last, I would like for the United States to have an 
increased presence in the eastern Congo. Toward that end, I 
invite the American Government and private sector to send a 
delegation to the east to see the reality on the ground and 
explore ways to improve security and to promote the formal 
economy. Having a presence in the east would also allow the 
U.S. Government to have a better sense of what is happening in 
the area and would help the United States to be a better 
advocate for women and families.
    I would like to conclude by expressing our hope for the 
future. There are many people and organizations in the eastern 
Congo working tirelessly for peace, justice, and healing. This 
good work can be more effective and help even more people, if 
we have the support we are requesting.
    The women of the Congo want to work with you, and we need 
your support to stand with dignity. We want to empower 
Congolese women. Stand with us, and help us to heal our nation. 
Thank you for your attention.
    [Applause.]
    [The prepared statement of Ms. Nabintu follows:]

 Prepared Statement of Chouchou Namegabe Nabintu, Founder, South Kivu 
      Women's Media Association, Democratic Republic of the Congo

    Thank you for having this important hearing. The women of the 
eastern Democratic Republic of Congo (DRC) have waited a long time for 
American policymakers to take an interest in this situation. I am 
grateful for the invitation to be here.
    Rape and sexual violence is used as a weapon and tactic of war to 
destroy the community. The rapes are targeted and intentional, and are 
meant to remove the people from their mineral-rich land through fear, 
shame, violence, and the intentional spread of HIV throughout entire 
families and villages.
    The South Kivu Women's Media Association is the voice of thousands 
of voiceless women. We use radio to give them the space to express what 
has happened to them, begin their healing, and to seek justice. We have 
interviewed over 400 women in South Kivu, and their stories are 
terrifying. In fact, the word rape fails to truly describe what is 
happening, because it is not only rape that occurs, but atrocities also 
accompany the rapes. That is what makes the situation in the eastern 
Congo so different and horrible. Of all the testimonies we recorded 
there are two that stay in my mind that I will share with you.
    I met a woman who had five children. They took her into the forest 
with her five children, and kept them there for several days. As each 
day passed the rebels killed one of her children and forced her to eat 
her child's flesh. She begged to be killed but they refused and said 
``No, we can't give you a good death.''
    Last month, after the joint operation between the Congolese army 
and the Rwandese army to break down the (Forces Democratiques de 
Liberation du Rwanda, or Democratic Forces for the Liberation of 
Rwanda) FDLR, in their running away the FDLR raped more women. Our 
journalists were told that after they raped the women, they put fuel in 
their vaginas and set them on fire, and then extinguished the fire. 
This was done not to kill them, but to let them suffer. There were many 
other horrible atrocities.
    The women ask WHY? Why such atrocities? Why do they fight their war 
on women's bodies? It is because there is a plan to put fear into the 
community through the woman, because she is the heart of the community. 
When she is pushed down, the whole community follows. We also ask, Why 
the silence of the developed countries? When a gorilla is killed in the 
mountains, there is an outcry, and people mobilize great resources to 
protect the animals. Yet more than 500,000 women have been raped, and 
there is silence. After all of this you will make memorials and say 
``Never Again.'' But we don't need commemorations; we want you to act 
now.
    There are six actions that I request of you to help end this 
situation:

    1. The first need of the women is security and peace. Rape is not 
peace! Rape is used just like a gun, to show the force of the rebel 
groups. We ask for your involvement to station the U.N. peacekeepers 
not only in the cities and towns to protect business, but also in rural 
areas where they can actually protect the women.
    2. In the Congo, we believe that there will be security when the 
FDLR returns to Rwanda. I ask that the American Government get involved 
politically, by pressuring the Rwandan Government to accept their 
return and to begin dialogue with the rebels, so that they stop 
fighting their war in our country, and on women's bodies.
    3. We need strong justice to end impunity on rape and sexual 
violence. We ask the United States to join us in pressuring the 
Congolese Government to stop giving amnesty to rebels who use rape as 
their war strategy. The American and Congolese Governments should 
request International Criminal Court arrest warrants for the Congolese 
and Rwandan rebel leaders. We also ask you to pressure the 
International Criminal Court to include rape and sexual violence in the 
charges filed against these war criminals. Finally, we ask for 
assistance to pursue the legal reforms needed in Congo to end impunity 
for rape and sexual violence in war. We need zero tolerance on rape and 
sexual violence--at all levels of the justice system.
    4. We ask that the American Government and U.S. multinational 
corporations contribute financially to the recovery and healing of the 
women and the communities, because your economy benefits from the 
minerals of the Congo. The women and families need medical and 
psychological services to heal from the trauma to their bodies and 
minds. There are also children born of rape who live as orphans, 
because the community has rejected them and sees them as ``ticking 
bombs'' who will grow up to become like the rebels. These women and 
children are left with nothing.
    5. Another part of this recovery is to help Congo to strengthen the 
formal economy in the eastern provinces, and end the profitability of 
blood minerals. We ask that you work with the U.S multinational 
corporations to develop ways to ensure that Congolese minerals imported 
to the United States are ``conflict-free'' and that the security, 
infrastructure, and capacity and of the eastern provinces is built up 
through this investment. Economic recovery is part of the total 
recovery of the women and their communities.
    6. Last, I would like for the United States to have an increased 
presence in the eastern Congo. Toward that end, I invite the American 
Government and private sector to send a delegation to the east to see 
the reality on the ground and explore ways to improve security and 
promote the formal economy. Having a presence in the east would also 
allow the U.S. Government to have a better sense of what is happening 
in the area and would help the United States to be a better advocate 
for women and families.
    I'd like to conclude by expressing our hope for the future. There 
are many people and organizations in the eastern Congo working 
tirelessly for peace, justice, and healing. This good work can be more 
effective and help even more people, if we have the support we are 
requesting.
    We, the women of the Congo want to work with you, and we need your 
support to stand with dignity. Stand with us and help us to heal our 
nation.
    Thank you for your attention.

    Chairman Boxer. Chouchou, I think you have to know--all of 
you on the panel have to know--and we will come back and hear 
our remaining two speakers--that in the Senate today, the 
silence on this issue has ended, and in the Senate today, 
across party lines, we hear you very clearly. And we're going 
to do some things here that you're suggesting and that Eve has 
suggested and all of our panelists have suggested.
    So we'll come back and we will hear from our last two 
important speakers. And then I hope you can all stay, because 
we will have questions. So thank you so much. This has probably 
been one of the most difficult hearings that I've ever had the 
privilege to chair, and I'm so ashamed of the human race 
sometimes when they get lost. And I didn't do enough in the 
past, and so I pledge to you that I, just me, just this voice, 
is going to be heard. And I know I speak for others on this 
committee and off this committee.
    So we'll take about a 25-minute break, and we'll be back.
    We stand in recess.
    [Recess.]
    Chairman Boxer. The committee will come to order. We have 
obviously had a very important and emotional hearing, and we 
want to thank all of you for your contributions. And I've been 
talking to Senators on the floor about this as we were voting 
for three different votes, and people are very interested, and 
they want to engage, especially the women Senators, and several 
of the men. And so I feel really good that already, you're 
making a difference with your voices.
    So we are now going to hear from Robert Warwick. Mr. 
Warwick is the executive director of U.S. Programs at the 
International Rescue Committee's Baltimore office. His work 
with the IRC has included posts as the country director for 
Sudan and the Democratic Republic of Congo programs, as interim 
country director for Uganda, as well as country director for 
Eritrea and northeast Sudan programs.
    Prior to that, he served as the country director for the 
American Refugee Committee in Rwanda and Mozambique. In 1992, 
Robert founded the Malawi Girls Education Program, which he 
continues to oversee today. So we really welcome you and please 
proceed.

    STATEMENT OF ROBERT WARWICK, EXECUTIVE DIRECTOR OF U.S. 
  PROGRAMS, FORMER COUNTRY DIRECTOR, SOUTHERN SUDAN AND DRC, 
         INTERNATIONAL RESCUE COMMITTEE, BALTIMORE, MD

    Mr. Warwick. Madame Chairman, thank you. Let me begin by 
saying I appreciate the opportunity to testify on the issue of 
gender-based violence in the Congo and Sudan. I represent and 
speak from the perspective of a U.S.-based relief agency that 
has prioritized the problem of violence against women and 
girls.
    In my oral testimony, I would like to briefly address the 
issue of sexual and other grave forms of violence. First, I 
will provide the primary causes and enabling factors for 
gender-based violence. Second, I'll share IRC's experiences in 
combating this problem in a conflict setting in Congo. Third, 
I'll discuss IRC's experiences in a post-conflict setting in 
Southern Sudan. And finally, I'll propose key steps the United 
States must take to address these problems.
    First, the primary causes and enabling factors for gender-
based violence. Violence against women and girls occurs in the 
family and community before, during, and after conflict, where 
it is often hidden and accepted due to social and cultural 
attitudes and beliefs that condone and perpetuate it.
    While the underlying cause of gender-based violence is 
unequal power, other factors perpetuate it. These include 
systems of traditional male authority, cultures of silence, 
conflict, and displacement.
    During conflict, sexual violence is both a tactic of 
warfare and a consequence of conflict and displacement. They 
often go hand in hand. The systematic use of rape in war has 
many purposes, including ethnic cleansing, humiliation, and 
control and domination of select groups. To put it bluntly, it 
is domination through sexual terror.
    This tactic of warfare is effective. It produces unwanted 
children, spreads disease, and leaves an imprint on the 
individual and collective psyche that is difficult to erase. 
Vulnerable women and children make up the majority of the 
world's displaced. Daily necessary tasks, such as firewood and 
water collection or farming, are typically the work of women. 
Sexual assault of women and girls engaged in foraging for wood 
and water has become commonplace.
    The end of conflict does not mean the end of gender-based 
violence. Once having escaped conflict, women may be forced to 
exchange sex for survival and protection of their children. 
Because of insecurity, shame, or simply because services do not 
exist, survivors of sexual violence can often wait for weeks, 
months, and even years to seek services or to tell their story.
    My second point, sexual violence in the conflict setting in 
the Democratic Republic of Congo and the IRC response. Since 
August 2008, an estimated 250,000 people have been displaced 
due to escalating violence in eastern Congo. During this time, 
women continue to care for families and face tremendous risks. 
The IRC has implemented GBV programs in over 20 conflicts 
around the world, and in our experience, Congo is one of the 
cruelest conflict zones in the world for women and girls.
    IRC programs worldwide aim to meet the safety, health, 
psychosocial, and justice needs of women and girls who are 
survivors of, or vulnerable to, gender-based violence. In 
eastern Congo, access to support and life-saving services to 
help women heal and recover from incidents of sexual violence 
are lacking. Many health facilities are ill-equipped. Trained 
health staff are few in number, and stocks of life-saving 
treatments are inadequate.
    In Congo, since 2003, the IRC has assisted more than 40,000 
survivors of sexual violence. This has been achieved in 
partnership with women's organizations and Congolese aid 
organizations. The IRC has identified risks linked to women's 
movement on roads, where armed groups frequently use illegal 
checkpoints to attack civilians. If unable to pay checkpoint 
taxes when returning from fields, women are beaten and often 
raped.
    Survivors of sexual violence seen as tainted and damaged 
face increasing abuse in their homes and with no other means of 
survival, may be forced to exchange sex for food or money.
    My third point, sexual violence in a post-conflict setting 
in Southern Sudan. Although the signing of the Comprehensive 
Peace Agreement in 2005 brought an end to the fighting in 
Southern Sudan, violence has continued. Qualitative research 
conducted by the IRC in Southern Sudan revealed the following.
    Women and girls were targeted throughout and immediately 
following the war, and continue to be affected by violence to 
date. Women typically consider domestic violence to be a normal 
part of a marriage. The only incidents reported to local 
authorities are those resulting in severe injury or death. 
Early and forced marriage is common. One 14-year-old girl 
explained how her husband was chosen for her, saying, ``If you 
refuse the man that is chosen, you should be beaten and taken 
to that man by any means, whether you want it or not.''
    Economic violence, in the form of denial of employment 
opportunities and withholding of money for food and health 
care, is also common within families in Southern Sudan. Social 
stigma and fear of ostracism prevent many women from reporting 
cases, and the requirement to pay often exorbitant court fees 
excludes many women from seeking justice.
    Finally, what the U.S. Government can do to address the 
problem, and I'll limit my recommendations to four, given the 
time constraints. First, resources for gender-based violence 
programs. This has come up several times in our discussion so 
far. We thank the U.S. Government for the resources provided 
thus far to address the issue of violence against women and 
girls. However, given the magnitude of the challenges we face, 
much more will be required.
    Second, effective and efficient programming. The State 
Department and USAID should help ensure that U.S. agencies 
efficiently and effectively coordinate gender-based violence 
programming.
    Third, U.S. leadership in the U.N. The U.S. Government 
should continue to be a strong leader in the landmark U.N. 
Security Resolution 1820. It is vital that the first report on 
1820 address the priority problems of women's participation, 
program coordination, high-level leadership, quality care, and 
unethical information gathering.
    The appointment of a high-profile, authoritative, and 
independent global advocate for women in conflict, such as a 
U.N. Special Representative to the Secretary General for Women, 
Peace, and Security will help ensure that the resolution is 
taken seriously and that there is followthrough.
    Finally, U.S. legislation. In the 110th Congress, Senators 
Biden and Lugar introduced bipartisan draft legislation--the 
International Violence Against Women Act--which would make 
violence against women a key priority in U.S. foreign 
assistance programs. The draft legislation is of vital 
importance for the hundreds of thousands of women and girls 
affected by violence. Those of us working day in and day out on 
this issue support quick passage of a new bill, modeled on the 
earlier bill, which we hope will be introduced soon by the 
Senate Foreign Relations Committee.
    In conclusion, I again commend both subcommittees for 
bringing the attention of the Senate to bear on this critical 
issue. I thank you for the opportunity to present mine and the 
International Rescue Committee's views. Sexual violence and 
extreme consequences do not have to be an inevitable part of 
conflict and displacement.
    The U.S. Government can help make that hope a reality for 
women and girls around the world. We look forward to working 
with both subcommittees and the rest of Congress to ensure 
fulfillment of that hope.
    Thank you.
    [The prepared statement of Mr. Warwick follows:]

   Prepared Statement of Robert Warwick, Director, the International 
                 Rescue Committee (IRC), Baltimore, MD

    Mr Chairman, Madam Chairman, Senator Isakson, Senator Wicker and 
members of the committee, please let me begin by saying that I 
appreciate the opportunity to appear here today, along with my 
colleagues to testify on the issue of gender-based violence in the 
Democratic Republic of Congo and Sudan. My name is Robert Warwick and I 
am the former country director for the International Rescue Committee 
in both the Democratic Republic of Congo and Southern Sudan; and I 
currently run the IRC's office in Baltimore, MD, that helps resettled 
refugees adjust to life in the United States. I bring to this hearing 
today experience working on the issue of violence against women and 
girls, and the insight gained through two decades living and working on 
the African Continent. I represent and speak from the perspective of a 
U.S.-based relief agency that has prioritized the problem of violence 
against women and girls in conflict. We seek to assure that women and 
girls not only survive conflict, but ultimately thrive in times of 
peace.
    Founded in 1933, the IRC is a global leader in emergency relief, 
rehabilitation, protection of human rights, post-conflict development, 
resettlement services and advocacy for those uprooted or affected by 
violent conflict and oppression. The IRC is on the ground in 42 
countries, providing emergency relief, relocating refugees, and 
rebuilding lives in the wake of disaster. Through 24 regional offices 
in cities across the United States, we help refugees resettle in the 
United States and become self-sufficient.
    In my testimony, I would like to address the issue of sexual and 
other grave forms of violence against women and girls that occurs 
during conflict settings as well as afterward in a post-conflict 
setting. First, I will provide you with the primary causes and enabling 
factors for gender-based violence. Second, I will share with you some 
of IRC's programs combating this problem in DRC. Third, I will discuss 
IRC's experiences in a post-conflict setting--Southern Sudan. Finally, 
I will propose key steps the United States must take to address the 
problem. I will also strive to represent some of the voices and 
experiences of the hundreds of national and expatriate humanitarian 
workers devoted to this issue, many of whom are themselves civilian 
victims of war and displacement.
 primary causes of gender based violence in conflict and post-conflict 
                                settings
    We all know that women are particularly exposed to certain forms of 
violence simply because they are women. Violence \1\ is directed 
against women because they have unequal power and status. In most 
cultures, countries, and societies, women are in a disadvantaged 
position compared to men as the following illustrates:
---------------------------------------------------------------------------
    \1\ Gender-based violence can and does impact men and boys however 
this is neither the focus, nor an area of expertise of IRC programs at 
this time.

  <bullet> Women perform two-thirds of the world's work;
  <bullet> Women earn one-tenth of the world's income;
  <bullet> Women are two-thirds of the world's illiterates;
  <bullet> Women own less than one-hundredth of the world's property.

    Whilst the underlying cause of gender-based violence directed at 
women and girls is unequal power, other factors perpetuate it. These 
include systems of traditional authority, cultures of silence, harmful 
cultural beliefs and practices.
    They are at risk if they remain at home, during flight from 
conflict and in refugee or internally displaced settings. Social 
dislocation and upheaval means the formal and informal mechanisms that 
might exist to protect them are often weakened, collapsed or controlled 
by those who perpetrate the violence.
    The perpetration of sexual violence is both a tactic of warfare, 
and an opportunistic consequence of conflict and displacement. They 
often go hand in hand. Either way, women's bodies become the front line 
of an unnecessary and cruel battle.
    As a weapon of war, sexual violence seeks to accomplish a larger 
objective than the specific act of rape itself. The systematic use of 
rape in war has many purposes, including ethnic cleansing, humiliation, 
or control and domination of select groups. Groups may be targeted 
because of their ethnicity, political affiliation, nationality or 
geographical location--and obviously their gender. Up to a half a 
million women were raped during the Rwandan genocide. We've seen this 
tactic or strategy used extensively in eastern Congo, where the 
national military and numerous rebel groups use brutal forms of sexual 
violence--in part to secure their own food and provisions from the 
rural population. It is domination through sexual terror.
    This form of warfare is effective. It can be modified based on the 
whim and depravity of the perpetrators. And while it's the bodies and 
spirits of women and girls that are directly trampled upon, sexual 
violence creates deep wounds and schisms within a target community. It 
destroys the fabric of a community in a way that few weapons can. It 
produces unwanted children, spreads disease, and leaves an imprint on 
the individual and collective psyche that is difficult to erase.
    The strategic use of sexual violence is usually accompanied by 
opportunistic rape. Opportunistic rape is not a weapon of war but a 
consequence of the breakdown of social norms that occurs during 
conflict and is perpetrated, not only by armed groups, but also within 
families and communities. Societal norms that regulate behavior and 
afford some degree of protection to women break down during war, and 
give way to an ``anything and everything goes'' mentality that can, 
over time, rub off on the affected population.
    Women and children make up the majority of the world's refugees and 
internally displaced persons. They are often separated from their 
immediate and extended families. Daily tasks such as firewood and water 
collection or farming are typically the work of women. These are 
necessary for survival in areas of insecurity but increase their 
exposure to sexual violence. Sexual assault of women and girls engaged 
in foraging for wood or water has become commonplace.
    While men and boys are also affected by conflict in many terrible 
ways, women and girls are the main victims of rape, mutilation, 
abduction into sexual slavery, and sexual exploitation during times of 
conflict.
    And unfortunately for women and girls, the threat of violence 
remains long after fighting ends. Violence against women and girls 
occurs in the family and community before, during and after conflict, 
where it is relatively hidden and often accepted due to social and 
cultural attitudes and beliefs that condone and perpetuate it. The 
neglect, physical and sexual abuse, and rape of girl children and women 
by family members and other members of the household, as well as 
spousal and nonspousal abuse, continue to go unreported. Other forms of 
socially accepted and perpetrated violence include harmful traditional 
practices, such as female genital mutilation (FGM), early and forced 
marriage, sex-selective abortion and female infanticide, honor killing, 
denial of education, food, health care, property rights and 
opportunities.
    The perpetrators will often be the members of the community itself. 
Crippled, corrupt, or destroyed justice systems do little to dissuade 
civilians from abusing their relative degree of power and control.
    Once having escaped the conflict, women may be forced to exchange 
sex for survival and protection of their children. During protracted 
humanitarian crises, women also face a growing threat of physical, 
sexual, and economic abuse within their own households.
    A study conducted by the IRC and Columbia University in post-war 
Liberia (August 2007) indicated that violence against women and girls 
is widespread. In the study population: 55 percent of the women 
surveyed had experienced domestic violence; 30 percent of all women 
seeking medical attention have experienced domestic violence; 72 
percent of women reported that their husbands had forced them to have 
sex in the last 18 months; and, 13 percent of minors \2\ in one county 
and 11 percent of minors in another county had been sexually abused in 
the last 18 months.
---------------------------------------------------------------------------
    \2\ Children younger than 18 years of age.
---------------------------------------------------------------------------
    Unfortunately survivors of sexual violence can often wait for 
weeks, months and sometime years to seek services or tell their story. 
This delay is a result of a number of things including, a lack of 
accessible services, fear of stigma, feeling of shame, and actual 
physical insecurity that prevents women from reaching services.
     In times of relative calm, access to services improves and women 
and girls who have suffered for years as a result of an attack--or 
multiple attacks--come forward when it becomes possible and safe to do 
so. Currently, women in eastern Congo have to walk for days to reach 
health services, and frequently are subjected to attacks again during 
their journey to seek help. Access to life-saving services is a 
prevailing problem in rural areas affected by war. In these areas, 
there may be few doctors, clinics, or other resources.
          sexual violence in the democratic republic of congo
    Since August 2008, an estimated 250,000 people have been displaced 
due to escalating violence in eastern Congo. Civilians have fled their 
homes in an effort to escape fighting, and have found themselves in 
internally displaced person (IDP) camps that are still highly 
militarized and often dangerous.
    Congo is one of the cruelest conflict zones in the world for women 
and girls. A surge in the conflict in late October 2008 in North Kivu 
was no exception; women and girls were once again in the crosshairs of 
violence.
    In eastern Congo, women continue to take on the burden of caring 
for families, and face tremendous risks when they search for additional 
food, firewood, and water outside camps and population centers. 
Civilians tell IRC that these daily chores in isolated forests and 
fields make women and girls an easy target for rape by armed actors.
    IRC has also identified risks linked to women's movement on roads, 
where armed groups frequently use illegal checkpoints to tax civilians. 
Women have reported demands for taxes as high as $10 when they return 
from their fields across front lines. In contrast, the crops they spend 
a day collecting sell for around $2; other women seek out day labor in 
the fields of landowners, earning less than $1 per day. If unable to 
pay checkpoint taxes when returning from the fields, they are beaten 
and sometimes raped.
    Destruction of homes and livelihoods, widespread displacement and 
pervasive lawlessness breed violence in eastern Congo. Women 
increasingly face abuse in their homes and, with no other means of 
survival, may be forced to exchange sex for food or money.
    The myriad risks faced by women and girls in the Democratic 
Republic of Congo demand the attention and commitment of the 
international community, as well as a careful and concerted response by 
humanitarian organizations with the right technical expertise.
  irc response to sexual violence in the democratic republic of congo
    IRC programs worldwide aim to meet the safety, health, psychosocial 
and justice needs of women and girls who are survivors of, or 
vulnerable to, gender-based violence. The IRC empowers communities to 
lead efforts that challenge dangerous beliefs, attitudes, and behavior. 
This is done in partnership with communities and institutions to 
safeguard the human rights of women and girls and to empower them to 
enjoy these rights.
    In eastern Congo, the IRC has assisted more than 40,000 survivors 
of sexual violence since 2003. In North Kivu, IRC is responding to the 
current emergency by carrying out activities to mitigate the risks of 
violence, ensuring that survivors have access to appropriate medical 
and psychosocial care, and helping to meet basic health and hygiene 
needs of women and girls.
    Emergency interventions to date have included:

  <bullet> Distribution of firewood for nearly 20,000 families 
        displaced by recent fighting in order to help women and girls 
        avoid risks faced when they leave populated areas in search of 
        fuel wood;
  <bullet> Presence of IRC staff trained in gender based violence (gbv) 
        prevention and response in displaced settings to provide women 
        and girls with information about available services, to ensure 
        proper referral and treatment, and to carry out followup with 
        survivors;
  <bullet> Equipping health facilities with essential drugs, supplies, 
        and necessary training to manage the medical consequences of 
        sexual violence in the Rwanguba health zone, as well as in and 
        around the city of Goma;
  <bullet> Distribution of sanitary supplies to 9,000 women and girls 
        of reproductive age in order to ensure women's basic hygiene 
        needs are met; kits distributed also include a battery-operated 
        light for women and girls to use when moving around crowded 
        living conditions after dark.

    In South Kivu, IRC works with local civil society groups and other 
aid agencies in six territories to promote access to quality services 
for survivors of sexual violence. By providing technical material and 
financial support to local service providers, IRC helps survivors gain 
access to quality medical, psychosocial, family counseling, and legal 
services.
    IRC also partners with more than 20 grassroots women's 
organizations in North and South Kivu to support community-based 
initiatives that work toward the healing and empowerment of women and 
girls affected by sexual violence. IRC works with women's groups and 
local leaders at the community level to address the psychological and 
social consequences of sexual violence, to improve survivors' access to 
services and promote the safety and well-being of women and girls.
                gender-based violence in southern sudan
    Although the signing of the Comprehensive Peace Agreement (CPA) in 
2005 brought an end to the fighting in Southern Sudan, violence remains 
commonplace. Prolonged conflict has exacerbated and created new 
security risks, especially for women and children. These include the 
destruction of community and family structures, a breakdown in conflict 
resolution mechanisms, the presence of arms and vigilantes, prevalent 
trauma, increased alcohol consumption, weak security institutions, poor 
law and order and tensions between those who have fled and those who 
remained during the civil war.
    Inequality between women and men--as well as pervasive physical, 
psychological, and sexual violence, early marriage and few educational 
and livelihood opportunities for girls and women--represent crucial 
obstacles to the process of recovery, reconstruction, and sustainable 
development.
    While there are limited studies on the situation of women and girls 
in Southern Sudan, they have produced evidence of an overwhelming male 
bias in judicial and social systems as well as widespread domestic 
violence, early/forced marriages, wife inheritance, inequity in 
property ownership, unfair child custody, arbitrary incarceration, 
female genital mutilation and sexual harassment and assault.
    Qualitative research conducted by the IRC with Southern Sudanese 
returnees and host community members, local leaders, government 
officials, and ordinary women and men revealed:

    1. Women and girls were targeted throughout and immediately 
following the war for violence, and continue to be affected by violence 
to date.
    2. There is an entrenched normalization and expectation of 
violence. Women typically consider domestic violence to be a normal 
part of a marriage; the only incidents reported to local authorities 
are those resulting in severe injury or death. However, even in these 
instances, the use of violence itself is not questioned. Rather, the 
violent man is characterized as ``losing control.''
    3. Early and forced marriage is common. One 14-year-old girl 
explained how her husband was chosen for her, saying ``if you refuse 
the man that is chosen, you should be beaten and taken to that man, by 
any means, whether you want it or not.'' A 16-year-old boy concurred 
saying that ``the girl should be beaten and forced by all means to the 
man, according to the will of her parents.''
    4. In the provincial town of Rumbek, spears, guns, and other 
weapons are commonly used in domestic disputes.
    5. Women are not generally perceived to have the right to say no to 
sexual relations with their husbands with the exception of special 
cases such as illness or recent childbirth.
    6. ``Economic violence,'' in the form of denial of employment 
opportunities and withholding of money for food and health care, is 
also common within families.
    7. Low levels of awareness of human rights in general, and women's 
rights in particular, persist. Although parents often recognize the 
right of children to education, in practice this right generally 
applies only to boys, with parents expressing preferences for marrying 
daughters to secure bride wealth over sending them to school.\3\
---------------------------------------------------------------------------
    \3\ In 2004, Southern Sudan had the lowest school attendance in the 
world; more than 3 years after the signing of the CPA, the situation 
has barely improved: only Afghanistan has lower primary school 
enrolment rates. Total adult literacy in Southern Sudan is estimated at 
just 15 percent, with significant disparities reported between males 
and females.

    Those affected by gender-based violence often have no recourse 
through statutory and customary justice mechanisms. Customary beliefs 
and attitudes that treat gender-based violence as normal and prevent 
all but the most serious physical assaults from being treated as 
crimes.
    There are insufficient juvenile and family courts, a lack of female 
judges and chiefs, and inadequate juvenile justice and family laws. 
Social stigma and fear of ostracism prevent many women from reporting 
cases, and the requirement to pay often exorbitant court fees excludes 
many people, particularly vulnerable members of society, from seeking 
justice.
    Although a wide range of gender-based violence-related cases are 
brought to customary courts, IRC has documented systematic 
discrimination against women in the handling of claims while monitoring 
these cases in the capital city of Juba and the provincial town of 
Rumbek under its Access to Justice Project. For example, many survivors 
of gender-based violence are brought to courts as defendants accused of 
having been illegally involved in sexual activity, even in cases when 
such activity is nonconsensual.
    Those who might have the opportunity to report violence and abuse 
through the justice system often face further harm if they do pursue 
this recourse. IRC's projects in the state of Northern Bahr el Ghazal, 
for example, have regularly received reports of local courts 
imprisoning women as a punishment for seeking to divorce abusive 
husbands.
           role of southern sudanese women in peace-building
    A preliminary assessment of gender-based violence in regions of 
Southern Sudan commissioned by USAID in 2005 found ``almost no 
programming to date that specifically targets gender-based violence,'' 
and demonstrated the link between the condition of women and the 
prospects for a sustainable peace, concluding that ``to continue to 
ignore gender-based violence is to do so at South Sudan's peril: As 
stated in USAID's Fragile States Strategy, ``data shows a strong 
correlation between state fragility and inequitable treatment of 
women.'' More than 3 years later, except for several small-scale GBV 
prevention programs implemented by IRC and colleague agencies, IRC 
finds these conditions largely unchanged.
    Sudanese women delegates to the April 2005 Oslo Donors Conference 
identified gender-based violence as a key priority area and proposed 
mechanisms to protect women and girls from exposure to violence.
    The Comprehensive Peace Agreement provides for affirmative action 
and support to women so that they can become part of the reconstruction 
process. Women and girls are getting new opportunities in the post 
conflict rebuilding of Southern Sudan; but with those new 
opportunities, come additional layers of challenges. Southern Sudan has 
a long history of discriminatory attitudes and practices toward women. 
Provisions of the CPA mandated that women be placed in key government 
positions. But the women were given little to no training or experience 
in these positions before taking office. This opportunity, for women to 
contribute toward peace-building has instead led to ``frustration'' by 
both men and women. Women have to ``catch up'' to men and are expected 
to do so overnight.
    Women in high-level positions who fail to thrive, are then put 
forward as ``evidence'' or justification that women don't belong in 
these leadership positions within the Government of Southern Sudan. 
Building the capacity of women in leadership and management positions 
is critically needed.
  resources, program and services most needed to assist survivors and 
       protect and empower those at risk of gender-based violence
    1. Protection of women and girls from gender-based violence, 
especially in war-affected areas.
    2. Improved and decentralized health services for survivors of 
sexual and physical assault including: medical treatment; reducing the 
likelihood of contracting HIV and other STIs; voluntary HIV/AIDS 
counseling and testing; primary health care and surgery.
    3. Culturally appropriate counseling, basic emotional and 
psychological support provided through trained and monitored service 
providers and community-based structures.
    4. Assistance to survivors, families, and communities to help 
facilitate the acceptance, social reintegration, and long-term recovery 
of survivors.
    5. Humanitarian assistance, where appropriate, including food 
distribution, shelter, and nonfood items.
    6. Provision of legal information and referrals, as requested, to 
survivors of sexual violence. This includes information about the 
potential risks and benefits associated with legal action so that 
survivors can make informed choices about safe actions which 
appropriately meet their needs.
    7. Economic opportunities and training for women to assist with the 
recovery process as well as to increase their decisionmaking power 
within the home and community and to ensure that alternatives exist to 
commercial sex trade.
    8. Education opportunities for women and girls in safe schools. 
Assistance programs should target efforts to improve educational 
opportunities for women and girls by providing resources to address 
violence against women and girls in school settings through teacher 
training, improved reporting mechanisms, awareness-raising with 
students, and by ensuring the safety of girls on school grounds and 
during commutes to school.
    9. Systematic advocacy with state institutions, donor governments, 
U.N. agencies, NGOs, and others to improve the delivery of specialized 
services and efforts to address and reduce violence against women 
through policy and legal reform. Advocacy should focus on emerging and 
chronic protection concerns, the scope and manifestation of violence 
against women, and gaps in service delivery, and calling for sustained 
commitment to address sexual and other forms of violence against women 
and children.
     what can the u.s. government do to address the problem in the 
            democratic republic of congo and southern sudan?
    The United States has a key role to play in promoting the 
allocation of resources to stop violence against women in war and post-
conflict settings and to ease the suffering of its innocent victims. 
Let me highlight key areas where the U.S. Government can make a 
critical contribution:

    1. Resources for Gender-Based Violence Programs: We thank the U.S. 
Government for the resources provided thus far to address the issue of 
violence against women and girls. For example, funding from USAID in 
DRC has allowed us to support 14 Congolese organizations provide 
service to 40,000 women and girls. Given the scale of the challenge and 
problem, in order to have a meaningful impact in terms of lives and 
increased security, much more will be required. Increased resources 
will translate into improved capacity in being able to hit the ground 
faster and more effectively to set up life-saving services and start 
advocacy efforts at the onset of an emergency.
    2. Best Practices and Accountability: The U.S. Government should 
work with the U.N. system and Member States to insist that sexual 
violence response and prevention programs supported by U.S. funding be 
carried out according to international standards and best practices, 
and with utmost concern for the safety and well-being of beneficiaries 
and their communities.
    3. Efficient and Effective Programming: The State Department and 
the Agency for International Development should help ensure that U.N. 
agencies (including UNFPA, UNICEF, and UNHCR--as well as U.N. Action) 
efficiently and effectively coordinate gender-based violence 
programming that is being carried out by multiple actors in the areas 
of health, psychosocial support, community outreach and prevention.
    4. Do No Harm: The State Department and the Agency for 
International Development should help ensure that U.N. agencies 
continue to work in collaboration with aid agencies in order to 
facilitate safe, ethical, and targeted analysis of the problem of 
violence against women and girls. However, this effort should not slow 
down or distract from the urgent priority of improving the coordinated 
response and making quality medical and psychosocial services widely 
available and accessible to women and girls.
    5. Protection: The U.S. Government should work with the U.N. system 
to help U.N. peacekeepers in Congo fulfill its mandate by taking 
tangible steps to improve protection of civilians in eastern Congo, 
especially in areas occupied by the FDLR.
    6. Safety and Security and the Rule of Law: The State Department 
should work with the state actors to reestablish command and control 
over government soldiers who operate outside the bounds of national and 
international humanitarian law.
    7. U.S. Leadership in the U.N.: The U.S. Government should continue 
to be a strong leader in the landmark U.N. Security Council Resolution 
1820, to ensure effective implementation. It is vital that the first 
report on Resolution 1820 address the priority problems of: women's 
participation; program coordination; high-level leadership; quality 
care; and unethical information gathering. Civil society groups must be 
involved in the design, implementation, and evaluation of strategies to 
address gender-based violence. Accessible services and quality care is 
a crucial factor for survivors of sexual violence and must be 
recognized as a priority. Information-gathering at the field level must 
take into account ethical and safety concerns of survivors and their 
caregivers. The absence of systematic surveys or irrefutable data of 
sexual violence prevalence should not be presumed to indicate an 
absence of violence. The appointment of a high-profile, authoritative, 
and independent global advocate for women in conflict, such as a U.N. 
Special Representative to the Secretary General for Women, Peace, and 
Security will help ensure that the resolution is taken seriously and 
that there is followthrough.
    8. U.S. Legislation: Violence against women in conflict is now 
commonly understood by the international community as a violation of 
basic human rights. The understanding of a state's responsibility to 
protect women from violence has evolved considerably. In the 110th 
Congress, Senators Biden and Lugar introduced bipartisan draft 
legislation--the International Violence Against Women Act (IVAWA,
S. 2279)--which would make violence against women a key priority in 
U.S. foreign assistance programs. The draft legislation is of vital 
importance for the hundreds of thousands of women and girls affected by 
violence. In recognition of how violence against women is exacerbated 
by conflict and continues long thereafter, the bill was designed to 
address the issue in war-torn, post-conflict and development settings. 
Those of us working day in and day out on this issue support quick 
passage of a new bill, modeled on the earlier bill; which we hope will 
be introduced soon by the Senate Foreign Relations Committee.
                               conclusion
    In conclusion, I again commend both subcommittees for bringing the 
attention of the Senate to bear on this critical issue, and I thank you 
for the opportunity to present mine and the International Rescue 
Committee's views. Sexual violence and its extreme consequences do not 
have to be an inevitable component of conflict and displacement.
    The women and girls in conflict zones are waiting for the chance to 
heal and live free from the threat of violence. The U.S. Government can 
help make that hope a reality for women and girls around the world. We 
look forward to working with both subcommittees and the rest of 
Congress to ensure fulfillment of that hope. I would be happy to answer 
your questions.

    Chairman Boxer. Thank you very much. And our last panelist 
is Mr. John Prendergast. He's the cofounder of the Enough 
Project, an initiative to end genocide and crimes against 
humanity. As the Director of African Affairs of the National 
Security Council during the Clinton administration, he was 
involved in a number of peace processes in Africa.
    John has also worked for Members of Congress, for the 
United Nations, for human rights organizations and think tanks. 
He is the author of eight books on Africa, and he helped create 
the Raise Hope for Congo campaign to end violence against women 
and girls in the Congo.
    So with that said, we certainly have someone who has been 
working on this issue for a very long time, and we are so 
pleased you are here, John.
    Please proceed.

 STATEMENT OF JOHN PRENDERGAST, COFOUNDER, THE ENOUGH PROJECT, 
                         WASHINGTON, DC

    Mr. Prendergast. Thank you so much, Senator Boxer and 
Senator Feingold, for the considerable light you're shining on 
this issue today and what you've done before this. I think this 
hearing is going to reverberate beyond these walls this day for 
a long time because of my fellow panelists. And I hope that 
what you were saying earlier about being down on the floor and 
talking to other Senators will be able to continue.
    The essential problem I want to deal with is this. The 
United States and the broader international community are 
focused almost exclusively on treating symptoms rather than 
dealing with the causes of these two wars, as they're 
responding to what are the two deadliest wars in the entire 
world.
    We spend now billions of dollars a year on humanitarian aid 
and military observers--this is our taxpayers' money--without 
dealing substantially or seriously with the causes of these 
conflicts. It is irresponsible in my view to continue to spend 
taxpayers' money in this fashion without a clear plan to solve 
the problems which we didn't hear this morning or this 
afternoon from the earlier panel, rather than just managing 
them year after year.
    Yes, there are marginal improvements that we could make in 
the lives of women and girls in both countries in the short 
run, and I think, again, the earlier panel talked about that. 
Yes, we can reorient the peacekeeping missions in both Congo 
and Sudan to focus more specifically on civilian protection.
    We could, in fact, authorize more funds for caring for the 
survivors of terrible sexual violence like the work that my 
fellow panelists have been talking about. We could, and we 
should, make a greater commitment to accountability for the 
orchestrators and the perpetrators of rape as a tool of war. 
These are all terribly important things to do, but it is urgent 
that we go beyond treating symptoms and focus on solution, 
focus on ending the wars once and for all.
    Now, the core causes of these two conflicts are different 
and, thus, they require different solutions. There's no cookie-
cutter for conflict resolution in Africa or anywhere in the 
world. Let's look at Congo first. For the last century, this 
country has been picked apart by corporate and state predators, 
stripping the country of its valuable natural resource bases.
    Even others have already said until we deal with these 
conflict minerals, as we call them, in Congo, there will be 
blood. It is very much, I think, like the blood diamonds of 
Sierra Leone. Until our demand for those diamonds was altered, 
until we stopped buying blood diamonds, Sierra Leone burned. 
When consumer and congressional pressure combined to alter 
buying practices, to alter the corporate practices, Sierra 
Leone had a chance for peace, and it grabbed it.
    Sierra Leone is a dramatic success story. Congo could be, 
too, if our demand for its conflict minerals is addressed. 
There, in Congo, the three T's, we call them, in gold--
tantalum, tungsten, and tin--are fought over by Congo's armed 
groups. These conflict minerals help power our entire 
electronics industry, and when we deal with that conflict-
producing demand finally--we have not done that in 100 years of 
stripping that country of its resources--when we finally start 
dealing with that conflict-producing demand back here, in North 
America and Asia and Europe, Congo will finally have a chance 
for peace.
    Now, Senator Feingold, along with his colleagues, Senator 
Durbin and Senator Brownback, has introduced the Congo Conflict 
Minerals Act just a couple weeks ago, of 2009. This is an 
excellent start and deserves the cosponsorship of everyone on 
this committee going forward and throughout the Senate.
    Furthermore, Congo's--in addition to the Conflict Minerals 
issue, Congo's eastern neighbors particularly have added a 
great deal of fuel, gasoline, to the fire raging in eastern 
Congo.
    And we think that the Obama administration--I think our 
panelists are unified on this--the Obama administration must 
expand its role in addressing this regional dimension, both in 
confronting Rwanda and Uganda for their roles in conflict 
mineral extraction, as well as in the trade, as well as in 
supporting--and this is crucial, and Senator Feingold has been 
a leading voice on this. We have to get action now--supporting 
more effective counterinsurgency efforts at neutralizing two of 
the deadliest and most ruthless militias on the face of the 
earth, and that is the LRA, the Large Resistance Army, and the 
FDLR, who originate from Rwanda and Uganda, but have absolutely 
devastated large swaths of eastern Congo.
    Let's move to Sudan. Although natural resources are not 
insignificant there, the root cause is different. It's the 
continued warfare and the continued concentration of most of 
the power and most of the wealth--and there's a lot of wealth 
now with oil--in the hands of a small group of people in 
Khartoum in the National Congress Party, the ruling party of 
Sudan.
    The best way to erode this absolute authority, short of 
full regime change, which no one is interested in right now, is 
through peace deals that allow for power-sharing gradually with 
Darfuris, with southern Sudanese, with Easterners, with Nubans 
and Nubians and others around the country, who have to have a 
share of that power in order for a peaceful Sudan to occur.
    This requires, I think, a focus by the Obama team we 
haven't quite seen yet, supported by Congress, which will need 
a much greater support and attention for implementing the 
existing north/south/east deal, and building something that 
doesn't exist. To the shock of most of us, Darfur activists, 
something that hasn't existed and doesn't exist now for 6 years 
of this crisis in Darfur, which is a credible peace process 
that would lead to a resolution of a conflict there.
    This ought to be General Gratian's first and most pressing 
priority, not running down every rabbit hole every time there's 
a humanitarian aid problem or somebody gets denied a visa. 
These are critical issues. They have an aid administrator, so 
we can deal with those issues, and have General Gratian deal 
with the conflict in Sudan, and particularly in Darfur, in 
rescuing the north/south deal. That's where we're going to get 
progress.
    The Darfur Anti-Genocide Constituency, which you guys are 
very familiar with, I think, remains alive and well, and I 
think we're increasingly focusing on this agenda of peacemaking 
as the essential solution. And Congress has stepped up in a 
number of important ways. Just a couple of weeks ago, a number 
of Congress persons, for example, were arrested in front of the 
Sudanese Embassy and spent the day in jail.
    Furthermore, activists from all over the United States, 
along with some actors and super actors, along with now 
Congressman Payne and Congresswoman Ros-Lehtinen, have taken up 
an ongoing fast, which they're handing off to each other for 
aid and peace in Sudan, and they want--we all want to invite 
either of you to join that Darfur Fast for Life.
    Most of them are fasting for 3 days, but with your frenetic 
schedules, we've created a 1-day fasting option for Senators. 
And we hope that you will consider this one-time offer in the 
coming weeks, maybe on a day without so many votes and so many 
hearings.
    In summary, this is an extraordinary case I think in which 
the interests of the American taxpayer and the interest of war-
affected Africans actually coincide. When we refocus our policy 
on dealing with the root causes of these wars, we will save 
literally--it's no exaggeration--literally billions of dollars 
and hundreds of thousands of lives.
    That, Senators, I think, is the best way to protect women 
and girls in Congo and Sudan in the long run, by ending the 
world's two deadliest wars.
    Thank you very much.
    [The prepared statement of Mr. Prendergast follows:]

 Prepared Statement John Prendergast, Cofounder of the Enough Project, 
                             Washington, DC

    Let me first thank Chairwoman Boxer, Senator Feingold, Senator 
Kerry, Senator Lugar, and all other members of the committee for 
holding this hearing on a difficult topic and an extraordinary 
challenge for the international community: how to end the scourge of 
sexual violence in the Democratic Republic of the Congo and Sudan. 
These two conflicts are characterized not just by appalling death 
tolls--nearly 8 million and counting since 1983--but also by widespread 
crimes against humanity. Indeed, heinous crimes against women and girls 
occur with numbing regularity in Congo and Sudan, where rape has become 
the tool of choice of many of the armed groups as a means to control, 
subjugate, humiliate, intimidate, and ethnically cleanse.
    So let's be absolutely clear: measures to deal with rape as a 
weapon of war in isolation will fail and fail miserably. If we truly 
want to end this scourge we must move from managing conflict symptoms 
to ending the conflicts themselves.
    Yet rather than trying to end the conflicts in Congo and Sudan, 
most international efforts deal with symptoms. We spend billions of 
dollars a year on humanitarian efforts and peacekeeping, while the root 
causes of the violence remain inadequately addressed. This is 
irresponsible and deadly--costly in lives lost as well as costly to 
American taxpayer.
    How revolutionary would it be to deal with the causes rather than 
the symptoms? Why can't we focus our policy on ending these wars rather 
than simply dealing with their consequences? From our meeting with 
President Obama a few weeks ago at the White House, he clearly 
understands the importance of such a strategic objective. But will his 
administration organize structures, personnel and assets to achieve 
these objectives, or will the pursuit of lasting solutions remain 
largely rhetorical? And will Congress support a sustained interagency 
effort to end these wars, or will the resources needed to ramp up 
diplomatic efforts be siphoned off for other ends?
    We at the Enough Project believe that the game changer, to use the 
President's favorite term, would be a commitment by the Obama 
administration to make the strategic objective of U.S. policy the 
resolution of the wars that cause this scourge of gender-based 
violence.
    A comprehensive strategy for protecting women and girls would 
include the following elements:

  <bullet> Protection: Reorient efforts of peacekeeping forces in Congo 
        and Sudan--MONUC, UNMIS, and UNAMID--to focus on protecting 
        women/girls where they are most vulnerable: Camps for 
        internally displaced persons; firewood collection routes; major 
        water points; check points; etc.
  <bullet> Accountability: Support efforts to prosecute rape as a war 
        crime in both Congo and Sudan. This includes support for police 
        and judicial reform, access to justice programs, and legal 
        training. At the international level, investigations should be 
        intensified into the chain of command that either encourages or 
        allows rape to be utilized as a war strategy.
  <bullet> Treatment: Expend additional resources on supporting the 
        efforts of Congolese, Sudanese, and international organizations 
        that are supporting the survivors of sexual violence.
  <bullet> Peace: Over the long term, the United States and other 
        concerned countries must work to change the calculus of the 
        armed groups committing crimes against women and girls and re-
        invest in diplomacy to help bring these conflicts to an end.

    Because my time is limited, I will focus my remarks on this fourth 
point, the crucial steps that the United States can take to promote 
lasting peace in Congo and Sudan.
                  a. congo--collapsing the war economy
    In my 25 years of working on African conflict resolution, Congo is 
by far the most complex war I have witnessed. But one of the biggest 
drivers of the conflict--and in which most Americans are unknowingly 
but directly involved--has long been clear: competition over the 
extraordinary natural resource base. If we don't address the economic 
roots of violence, we will only be finding temporary respites from the 
logic of continued war and exploitation.
Conflict minerals
    Sexual violence in Congo is often fueled by militias and armies 
warring over ``conflict minerals,'' the ores that produce tin, 
tungsten, and tantalum--what we call the ``3 Ts''--as well as gold. 
Armed groups from Congo, Rwanda, and Uganda finance themselves through 
the illicit conflict mineral trade and fight over control of mines and 
taxation points inside Congo.
    But the story does not end there. Internal and international 
business interests move these conflict minerals from Central Africa 
around the world to countries in East Asia, where they are processed 
into valuable metals, and then onward into a wide range of electronics 
products. Consumers in the United States, Europe, and Asia are the 
ultimate end-users of these conflict minerals, as we inadvertently fuel 
the war through our purchases of these electronics products.
    Based on calculations by researchers at Enough, the 3T's and gold 
together generate as much as $183 million annually for the armed groups 
that torment women and girls in eastern Congo. One of the biggest 
moneymakers in this trade is the FDLR, a Rwandan militia whose high 
command includes persons responsible for the Rwandan genocide in 1994. 
The FDLR and other armed groups force miners to work in desperate, 
dangerous conditions for an average of $1-$5 a day. Without alternative 
sources of income, these miners and their families remain virtually 
enslaved to armed groups and the conflict minerals trade.
A comprehensive approach to conflict minerals
    There is clearly no silver bullet solution to the conflict in 
eastern Congo. However, if the international community and regional 
actors work in conjunction with the private sector to align their 
efforts around the common goal of a revitalized legitimate mineral 
trade in eastern Congo, long-term efforts could have major impact in 
resolving the conflict. There are four main components to a new 
strategy for such efforts:

    1. Shining a light on the supply chain. Push electronics 
companies--the principal end-users of the 3T's and gold--to change the 
way they practice business by working together with their suppliers to 
create a tracing system paired with credible monitoring of the system 
by independent third parties. This would provide a critical step toward 
demanding greater accountability for corporate behavior and 
transparency. With 80 percent of consumer electronics companies trading 
on U.S. stock markets, U.S.-based activists have some of the most 
powerful opportunities for leverage on this part of the supply chain.
    2. Identifying and securing strategic mines. The United Nations 
should collaborate with the Congolese Government identify key mining 
sites under the control of armed groups. Properly integrated Congolese 
security forces, supported by U.N. peacekeepers, should secure these 
sites and transit routes. This approach must be grounded in a more 
comprehensive and coherent effort to advance broad security sector 
reform in Congo, and a well-planned and resourced counterinsurgency 
effort to eliminate the FDLR as a security threat to the region. 
Nonmilitary measures, particularly robust support for defections and 
voluntary disarmament and repatriation to Rwanda of the FDLR's rank-
and-file forces, are vital.
    3. Reforming governance. The international community should work 
hand in hand with the Congolese Government to force the will and 
capacity to exercise control over mining and commerce in eastern Congo. 
With Congo sorely in need of international funds, there is an 
opportunity to press for not just commitments but demonstrable reforms 
to the regulation of mining, commerce, and taxation.
    4. Supporting livelihoods and economic opportunities for miners. 
Impoverished Congolese miners and their families are dependent upon 
their meager incomes and have few viable economic alternatives. Efforts 
to end the trade in conflict minerals absolutely must be accompanied by 
international support for livelihoods and economic opportunities in 
eastern Congo. This should include legal reform, and investments in 
both infrastructure as well as alternative livelihoods such as 
agriculture and manufacturing. The sooner the illicit conflict minerals 
trade is eliminated; the sooner the people of Congo will actually enjoy 
the benefits from their own resources.

    In addition, any effort to address the link between minerals and 
ongoing violence in eastern Congo must be wed to a broader strategy to 
generate the political will in Congo and among its neighbors to find 
diplomatic solutions to the local, national, and regional tensions that 
have proliferated over the past 15 years. Transparency and 
accountability must extend across borders to include other governments 
in the region. Rwanda, Uganda, and Burundi (to a lesser degree) have 
profited enormously from the illicit minerals trade and Congo's 
continued instability--to which they have directly contributed at 
times. By the same token, Congo's neighbors have legitimate security 
concerns and economic interests in eastern Congo, and a more even-
handed approach to these regional actors from the United States and its 
allies is vital to address these security concerns, ending the 
prominent role these states continue to play in the destructive 
conflict minerals trade, and promoting the rule of law in Congo and 
beyond.
Support legislative efforts
    The United States Senate has a crucial role to play in advancing 
these objectives. By introducing the Congo Conflict Minerals Act of 
2009, original cosponsors Senators Brownback, Durbin, and Feingold have 
demonstrated important leadership and welcome dedication to the cause 
of peace in the Democratic Republic of the Congo and should be 
congratulated for their efforts. The Enough Project supports this bill 
and I urge each and every member of this committee to sign on as a 
cosponsor to this legislation. This bill would direct the State 
Department to support multilateral and U.S. Government efforts to break 
the link between the trade in minerals and armed conflict in eastern 
Congo, require companies listed on U.S. stock to disclose the origin of 
their minerals to the U.S. Securities and Exchange Commission, and 
expand U.S. efforts to improve conditions and livelihoods for 
communities in eastern Congo who are dependent upon mining.
                    b. sudan--building a peace surge
    In Sudan, crises in Darfur, the South, and the East continue to 
place civilians in great peril. Women and girls are especially 
vulnerable. Concentrating peacekeeping assets on the protection of 
civilians, particularly women and girls, is an achievable objective 
that would produce a tangible improvement in the security of 
populations in areas where the UNAMID forces are deployed. However, 
ending the violence and cultivating lasting peace throughout all of 
Sudan is critical to ending violence against civilians once and for 
all. Doing so means focusing on the root causes of Sudan's violence, 
addressing the political causes of war, and doggedly pursuing and 
implementing credible peace processes.
     As you are well aware, activists all over the world and from all 
walks of life continue to press their governments to help end the 
deplorable suffering in Sudan. Some may scoff when public figures use 
their fame to help bring attention to a crisis, but I don't think we 
can question the commitment of my friend, Mia Farrow, who just 
completed a 12-day fast for the people of Darfur. And that effort is 
continuing. Others are following Mia's example, and Richard Branson, 
Peter Gabriel, Pam Omidyar, and even your colleague from the House, 
Representative Donald Payne, are either fasting now or have pledged to 
fast in the coming days and weeks.
    These activists and millions of people around the world are pushing 
for one thing in Sudan: peace. And in my more than two decades of 
closely observing the situation in Sudan I have rarely seen as big an 
opportunity as we have right now to fundamentally alter that country's 
downward trajectory. Here it is: A global consensus exists for peace in 
Sudan, even if there is not agreement on the best path to achieve this 
goal. China, the Arab League, the African Union, the European Union, 
and the United States all want peace, but little has been done to build 
the necessary infrastructure to help bring it about.
    What is the missing ingredient? The Enough Project has held 
meetings with a number of key actors in the past several weeks--from 
the French and Norwegian Governments, to the United Nations and African 
Union, to the Sudanese warring parties themselves--and the answer is 
nearly universal. What has long been missing in Sudan is America's 
strategic leadership. The rebels, the ruling party, Sudan's neighbors, 
and other key actors have all been waiting for President Obama and his 
team to engage.
    The Obama administration must lead in constructing a multilateral 
strategy for peace by establishing an inclusive peace process for 
Darfur, revitalizing implementation of the Comprehensive Peace 
Agreement and the dangerously neglected Eastern Sudan Peace Agreement, 
and ending Sudan's proxy war with Chad. Toward that end, General 
Gration should focus on building a multilateral coalition of countries 
with significant leverage. At the same time as the processes are being 
constructed, the United States should work assiduously to create the 
necessary unilateral and multilateral carrots and sticks to press the 
parties in the direction of a peaceful and comprehensive settlement of 
Sudan's multiple, interlocking conflicts. It is vital that the 
administration work closely with other key governments in dealing with 
Sudan; a reliance on bilateral diplomacy will provide Khartoum the 
opportunity to play one party off against the other, as it has 
historically done with great success.
    The key tasks are as follows:

  <bullet> Darfur peace process: The structure should be similar to the 
        Naivasha talks that produced the CPA, and some of the 
        ingredients are already in place. As did Kenyan Gen. Lazaro 
        Sumbeiywo with the Naivasha process, AU/U.N. mediator Djibril 
        Bassole should lead the Darfur process, which can be based in 
        Doha, Qatar (although Qatar's recent diplomatic support for 
        Bashir in the wake of the ICC indictment has impaired its 
        credibility as a facilitator of negotiations). He must be 
        supported by a strong team of diplomats and regional experts 
        and backed by a small group of countries with leverage, high-
        level support, and full-time representation at the talks. We 
        believe that this inner circle should consist at a minimum of 
        the U.S., U.K., France, China, and Egypt. An outer circle group 
        of countries and multilateral organizations (U.N., AU, Arab 
        League) should also be engaged in a formal manner to discourage 
        spoilers, and other key nations such as Russia, Saudi Arabia, 
        Senegal, South Africa would need to be thoroughly consulted.
  <bullet> CPA implementation: The Assessment and Evaluation Commission 
        established by the CPA is clearly insufficient to monitor and 
        press the parties to implement the deal (largely because it 
        lacks sufficiently senior representation and clear reporting 
        guidelines). As a matter of international peace and security, 
        CPA implementation should be at the forefront of the U.N. 
        Security Council's agenda and the Council should back a new ad-
        hoc mechanism to guide implementation. The Obama administration 
        should quickly work with other Security Council members, 
        relevant U.N. agencies, and the regional Intergovernmental 
        Authority on Development, or IGAD, to establish core benchmarks 
        for the parties, a clear timeline, and genuine penalties for 
        failure to meet deadlines. An international meeting on CPA 
        implementation could provide a vehicle for reenergizing efforts 
        around the CPA and provide the launching pad for the creation 
        of the ad-hoc implementation mechanism.
  <bullet> Chad/Sudan peace process: The Sudanese Government continues 
        to seek a military solution for Darfur through regime change in 
        Chad, and Chad continues to back the JEM in response. The Obama 
        administration should work with France and China to support 
        high-level negotiations in Libya aimed at reducing state 
        support for foreign armed groups and eventual normalization of 
        relations.
  <bullet> Eastern Sudan Peace Agreement monitoring: Eastern Sudan 
        remains volatile. The Obama administration should work with its 
        international partners (particularly the U.K. and Norway) and 
        with the Eritrean and Saudi Governments to establish a 
        monitoring group for the agreement that will report on 
        implementation and make recommendations for improvements.
Building the necessary leverage
    A serious peace process with credible mediation putting forward 
fair proposals will secure a deal for Darfur. A competent and higher 
level oversight mechanism with the involvement of countries with 
influence will ensure the implementation of the CPA. Having the right 
balance of meaningful pressures and incentives will ensure that 
prospects for success are much greater.
    In broad strokes, the United States should present the Sudanese 
regime with a choice:
    Behind Door One: If the Sudanese Government permits unimpeded 
humanitarian access, removes the indicted President, and secures peace 
in Darfur and the South, a clear process toward normalization will be 
mapped out. Almost all of the incentives for Sudan come in the form of 
more normal relations with much of the world, the lifting of sanctions, 
a return to more normal patterns of trade and diplomacy, and the other 
benefits that would naturally flow from Sudan achieving stability as a 
result of more equitable power and wealth-sharing.
    Behind Door Two: If President Bashir and his party remain defiant 
by continuing to undermine efforts at peace for the country, a series 
of escalating costs will ensue, including diplomatic isolation, 
targeted economic sanctions, an effective and expanded arms embargo, 
and, if necessary to stop massive loss of civilian life, eventual 
targeted military action.
    If the benefits of Door One and the consequences of Door Two are 
meaningful, the chance for peace in Sudan increases dramatically. The 
missing ingredients in efforts to date for Darfur and CPA 
implementation have been adequate leverage and lack of strategic vision 
for resolving comprehensively the country's conflicts. Without real 
sticks and carrots, the warring parties in Sudan will remain focused on 
military confrontation. The international community needs to help 
change the incentive structure in Sudan from war to peace.
    On the incentive side, phased cooperation with and, ultimately, 
normalization with the United States is the largest carrot the Obama 
administration has to offer. Removal of certain unilateral sanctions 
and penalties could be undertaken in response to verifiable changes on 
the ground in Darfur and the South. Full normalization should only 
occur once the Sudanese Government adheres to its obligations under 
various peace agreements. Any negotiating process must be guided by the 
reality that Khartoum has a long history of grabbing carrots, then 
failing to follow through on commitments.
    On the pressures side, there seems to be an erroneous belief that 
there are no meaningful pressures left to use. In fact, a number of 
points of leverage are available. Until now, however, most sticks have 
been unilateral and have had limited effect on the regime's 
calculations. Substantial and focused multilateral pressures have not 
been tried and should form the basis of the new administration's 
strategy. Clearly, equally robust pressures and incentives should be 
developed and applied impartially to the rebel factions and SPLM to the 
degree to which their actions may warrant these measures.
    I am happy to discuss the available pressures in greater detail in 
the Q and A.
    The United States should now begin stronger and more sustained 
efforts to build a coalition for peace. But this effort will only be 
successful if we treat the situation in Sudan as a strategic priority, 
build the necessary leverage, and invest in the diplomacy critical to 
achieve an equitable and lasting solution.
    Thank you very much for the opportunity to testify and I look 
forward to your questions.

    Chairman Boxer. Well, again, thanks to all of you. You've 
really taken our breath away with your explanation of the 
problem, and what's happening on the ground is just too hard to 
listen to. And that was the reason I felt we had to do this, 
and Senator Feingold agreed. It's hard to look at, but you've 
got to look at it, and you've got to stop it, period.
    So I am a person of action, and so I want to take some 
steps. I have complete faith in Senator Feingold in terms of 
what he's trying to do to end these conflicts. And with an 
administration now that I trust and hope will finally focus on 
this more than it has been focused on before, I will follow his 
lead on this very, very strongly. I also will work with 
Senators Durbin and Feingold and Brownback in terms of the 
minerals and boycotting, and I believe in that.
    What I'm going to do myself, because I've got other 
incredible people in the lead in these other areas, supporting 
them, I want to focus on making things better for women now, so 
I'm going to focus on that.
    And, John, you're totally right. That is an outflow of 
these wars, but until you guys have it figured out, we women, I 
think, are going to start stepping it up to call attention to 
this. Because one of the things I've learned, in all the years 
that I've fought for human rights, when I started to fight for 
human rights way back when I was in the House, I was fearful 
that if you put the light on it, things would get worse. I was 
very scared. I thought, ``Am I doing the right thing?'' You 
know, I'd take cases to the floor of the House and talk about 
them, and thought, ``Well, wait a minute, this could make 
things worse for the people.'' And all the human rights 
activists told me, ``No, it will help us.''
    So I said, ``OK. I'm scared, but I'm going to do it,'' and 
sure enough, we were able to get people out of the Soviet 
Union. We were able to get people out of these places where 
they were being put into prison and mistreated and the rest.
    And, of course, as Eve pointed out, in Bosnia, when the 
attention was focused, there were solutions so here's the 
thing. So we're going to try to get things done. It's not that 
nobody else has done it. A lot of people have done it, and a 
lot of you are right here. But I'm going to be a reinforcement 
with my colleagues. So the things I'm trying to get at is what 
we can do right now.
    Now, the first thing we can do is shine the light, and so 
what we're going to do is now send a followup letter to our 
great new President and to our great Secretary of State and 
say, ``Please make this a priority, and please help us.''
    And following up on Ambassador Verveer's open invitation 
for the first panel to help, I didn't find an action agenda 
there, because I think they're just getting their papers 
straight on the desk. They just took over, right?
    So here's the deal. I want you to help me, all of you, 
since you know I want to focus on making things better on the 
ground tomorrow. What should I put in the letter? Here are the 
things I'm planning on putting in the letter. First, we need to 
get more doctors out there. And, wait, I'm going to call on 
you, Eve, in a minute.
    We want to get more doctors out there. These are the things 
I picked up. We want a special person, as I believe it was 
either Robert or John said, which I mentioned during my 
questioning about the U.N., who focuses on violence against 
women and publishes what's going on, and kind of outs these 
countries for what's going on there to put the shame of public 
opinion on them in the hope that they will start realizing 
they're losing steam, not gaining it. So that's the second 
thing.
    Then listening to Eve and listening to--I believe it was 
Chouchou, but I'm not sure which. I think it was Chouchou who 
talked about the need to get women more involved in the 
security, in the police force, in the U.N. peacekeepers, 
because putting women in the position of power there would be 
very helpful. And then picking up on Robert's point about 
getting more aid to organizations. But I fear that these 
organizations have been kicked out of Darfur, but that's 
another issue.
    So you see what I'm thinking about is what we can do right 
now. And so those are a few things. If I could just go down the 
line and put aside the more complicated points that John 
raised, which I agree with a thousand percent. As I told Russ, 
he's my leader on this. Whatever we need to do, we'll do.
    So if each of you could name one, two, or three things you 
think ought to go in that letter, we'll get that down. But the 
caveat is it has to be something straightforward. Now we can 
get it done. So we'll go down. And if each of you has one or 
four things, go ahead.
    Ms. Ensler. I want to echo something Chouchou said, because 
I think we're in agreement about a couple of things. I think 
one thing is the idea of the delegation, some kind of high-
profile delegation that could come immediately to eastern Congo 
and really meet with women and look at the situation on the 
ground.
    I think second of all, I would like to highly recommend the 
idea that we'd look at training women police officers in the 
bush and in the forest who are legal, who are trained, who 
their salaries are paid, and they can be people who can enforce 
the law.
    Chairman Boxer. Who would they work for?
    Ms. Ensler. They would work for the government. Yes, they 
would be hired by the government, but there would be women 
police forces, so that women could turn to them and they 
could--because there are women police forces in the Congo and 
they're very effective, and if there were a lot of them in 
places where MONUC--and other places--don't travel, which is 
just about everywhere where women are being raped, then I think 
women would be able to protect themselves, and they could be 
able to call on those police forces.
    And then I think the third thing, in terms of doctors, I 
just want to say I think there are more than two doctors in 
eastern Congo. What I think they need--and I can really firm 
this up with Dr. Mukwege and Dr. Lucie in Goma--is I think they 
need for more doctors to be trained in-country so that we build 
a capacity in the Democratic Republic of Congo and more doctors 
are trained there, rather than bringing in people from the 
outside, because we want the people of Congo to rule their own 
destinies and have their own doctors.
    And I think we need funding for that, and we need probably 
doctors to come and train them, but I want to talk to Dr. 
Mukwege in depth about that.
    Chairman Boxer. So you think that what we need is not our 
doctors or other doctors to go in there, but just for our 
doctors perhaps to train?
    Ms. Ensler. Exactly, to do training and build capacity in-
country.
    Chairman Boxer. OK. Yes?
    Ms. Ahmadi. Thank you. I think what I mentioned earlier in 
Darfur, the disarmament--are critically important because they 
are manipulating the cities and the areas around, and the 
government army needs to be away from the areas where there are 
civilians.
    And the second thing, the alternative fuel, alternative 
programs, because women are still seeking firewood and going 
out to fetch water as a coping mechanism, so they need to stay 
to at least keep them in their camps to be safe. And the third, 
supporting the accountability----
    Chairman Boxer. I didn't quite understand. You said they 
need to stay in their camps to be safe?
    Ms. Ahmadi. Yes, to provide them with fuel alternatives. 
They need not only to depend on firewood, so they're going in 
search of firewood.
    Chairman Boxer. Because that's when they get attacked, is 
what you're saying?
    Ms. Ahmadi. Yes. They risk their life to get attacked and 
to be raped repeatedly. So they need to have some project that 
provides them with fuel, and they can be in their camp safely. 
And also psychosocial support and health treatment, adequate 
treatment, is a problem.
    But the most important problem is the expulsion of these 
organizations. They were doing small projects, but it was very 
important and crucial to keep women alive, because the survival 
of rape, like the getting treatment from different 
organizations, now they don't get it. And that is really 
critical.
    Chairman Boxer. We need to get the organizations back in.
    Ms. Ahmadi. All of them. Like I'm hearing people speaking 
about some of these organizations, but that is not a solution, 
because these organizations, there is a no-go area for the U.N. 
agencies.
    Chairman Boxer. Now, the leader of the country has banished 
them; isn't that right?
    Ms. Ahmadi. Yes.
    Chairman Boxer. He said they have to leave.
    Ms. Ahmadi. Yes.
    Chairman Boxer. So when I get to John down the line, I'm 
going to talk about how we can get him to reverse that, or this 
could lead to some conflict, because this is a real problem, 
right? You have no witnesses, nobody there.
    Ms. Ahmadi. Yes, nobody there, and the rainy season is 
coming. Even in the normal situation in Darfur, the rainy 
season is really very difficult, and all the operation is 
stopped. They need to prepare for it for months. But now that 
doesn't exist. That's why I think it's important. And the first 
one is supporting justice, because women will only heal when 
they see their perpetrator held accountable, and also to end 
the culture of immunity. Because it's happening in Darfur, it's 
happening in Congo. While it happened before, we need to see 
those people who perpetrated the----
    Chairman Boxer. You need a justice system?
    Ms. Ahmadi. Yes, and supporting for the ICC. I want the 
administration to support the ICC in different ways, even 
though the United States is not a Member State, but in the case 
of Darfur is prepared by the U.N. Security Council, the United 
States role in the Security Council is of crucial importance.
    Chairman Boxer. Thank you. Chouchou? And, remember, I'm 
writing this letter to the administration, and I'm coming up 
with these ideas. What would be your top ideas to help women in 
the short term now?
    Ms. Nabintu. Yes. The first thing is to work on the real 
cause, and I think that everybody knows that that's the 
economic war which leads to all of this. And it's to make a 
pressure on our neighbors, Rwanda, Uganda, to stop it, because 
you know the FDLR in Congo, they are there. They have exploited 
them, and it's from Rwanda. So Rwanda, it benefits from the 
instability of Congo.
    So to make pressure on Rwanda and Uganda--so to make 
pressure on Rwanda to stop first the economic war and accept 
the turn back of the return to Rwanda of the FDLR, and to 
make--because now, Congolese people are trained on what they 
think--they don't know.
    The second thing is to work on justice. As I said, the 
United States can make--or, yes, can make an arrest warrant--on 
the--did rape and sexual violence--to end impunity. It could 
make, for example, an--arrestment on--on what he did in 2004 in 
South Kivu and what he did in North Kivu, on the--responsible 
of the FDLR. He's not. He's--I think. And on--he's now--he has 
now a warrant arrestment, but he is protected by the 
government. It's to encourage impunity.
    And the third thing is the assistance for victims. The 
victims are in extreme poverty. They've lost everything, and I 
think that they've even lost the lands where they lived. If 
they can have somewhere to live to be to them houses that can 
be considered for them as monument for their--for their 
courage, because when you admire their courage--sometimes I 
think if it was me--I don't know. Because when we make 
interviews with them, you know, they show smiles, although the 
thing that happened to them was horrible. So if they can have 
that----
    Chairman Boxer. You call that restitution. You help the 
person, the victim, is what you're saying?
    Ms. Nabintu. Yes.
    Chairman Boxer. Helping the victims get a life back.
    Ms. Nabintu. Yes.
    Chairman Boxer. Give them a home, give them support?
    Ms. Nabintu. Give them a job so that they can have 
economical power, and so it can help them to forget what 
happened to them.
    Chairman Boxer. Well, that's very important. Robert? I know 
you gave us your list. You just want to go through it quickly 
again? You said more help for the NGOs to give assistance to 
the people.
    Mr. Warwick. Thank you, Senator Boxer. That's in our 
written testimony. If you don't mind, if I could just add a few 
items to what I mentioned earlier.
    Chairman Boxer. Please.
    Mr. Warwick. I think we're in agreement. Some of the other 
comments made by my colleagues, IRC really sees this as a 
problem of an imbalance of power at the root, and we believe 
that we need to take a holistic approach to whatever we do, and 
that means partially to look at the emergency needs, as we've 
discussed already, whether they're health or psychosocial, as 
well as long-term needs.
    I think Niemat said earlier when the guns stop, the 
violence continues. So if the conflict goes away, we can expect 
that the violence against women will continue, and we need to 
try to address that.
    IRC takes a four-pillar approach, and we believe that any 
program that we want to pursue in DRC or in Sudan, whether it's 
south Sudan or Darfur, would include access to justice and rule 
of law. We need to improve, and in some cases, establish 
justice systems in the countries in which we work.
    A big part of what we do is changing attitudes. Social 
norms need to change, so a lot of what we do is awareness-
raising, working with communities, talking not only, of course, 
with women who are our main clients, but also with men. Men 
have to be a part of this process.
    Certainly health and psychosocial support. You mentioned 
doctors, the fistula problem--I mean, there are terrible 
problems we're all facing. Funding for those emergency needs 
are essential. What we find is that until services are 
available, women and girls do not come forward. It's a culture 
of silence that I mentioned earlier. So those services are 
essential and they have to be accessible.
    And finally, economic empowerment, the fourth pillar of our 
approach. And I think that overall, what has been mentioned 
earlier is the issue of partnership and capacity-building. Many 
of us will not be there for very long. International 
organizations were there sometimes 5, 10 years. The 
international community, we really need to focus our attention 
on working with our partners within the countries, whether it's 
DRC or Sudan, building capacity.
    And then finally, I think a lot of--maybe we wouldn't be 
here today if more women weren't in power. I'm thinking about 
the south Sudan situation where, in fact, there are documents--
the Interim Constitution of South Sudan, for instance, is very, 
in many ways, supportive to women in terms of the details of 
the Constitution. The problem is it's not being enforced. It's 
not being enacted.
    So a lot of what we need to do is work with women, not just 
to make sure that they have places of power within the 
government and in the economic sector, but also that they're 
trained, their capacity is built to achieve that.
    Chairman Boxer. Thank you so much. John, would you like to 
wrap this up for us and give us some more of your insights, 
please?
    Mr. Prendergast. Three things, but first, I want to 
parenthetically say there is a Congolese doctor in the house, 
Dr. Roger Luhere, and it would be great if one of your staff 
people could talk to him and----
    Chairman Boxer. Doctor, will you stand up, just so we can 
see if you're here.
    Mr. Prendergast. There you are.
    Chairman Boxer. Thank you so much for being here.
    Mr. Prendergast. And he's worked with Dr. Mukwege and done 
a lot of incredible stuff in the Congo. So my three things, I 
think, in terms of immediate action, would be, first, in the 
realm of accountability, because there has to be a cost, a 
consequence for committing rape, especially orchestrating rape 
as a tool of war.
    Now the Bush administration basically never, of course, was 
very hostile to the International Criminal Court, but supported 
in the end of the day the ICC case in Darfur, and actually 
stood up for it in the United Nations Security Council, and the 
Obama administration has continued that policy, but I don't see 
any movement toward ratifying ICC, but they still support the 
case of the ICC in Darfur.
    What I would say about accountability is to press for the 
administration to work with the chief prosecutor in The Hague 
to expand the ICC's remit to the Kivus to work--to the eastern 
Congo, to work on rape as a tool of war, start the 
investigations in earnest, and let those rebel leaders, those 
militia leaders and government army officials know that we're 
starting to collect evidence about their perpetrating these 
kinds of cases. That will have an immediate dampening effect.
    Second, I want to build on something Niemat was saying 
about protection. And to use--the biggest--aside from the 
humanitarian--the biggest investment we're making as America in 
these conflicts, in responding to these conflicts, are these 
peacekeeping missions. They're huge missions. They're the two 
biggest missions in the world, in Congo and Sudan, and they do 
very little to protect civilian populations.
    So what I would say is that you and Senator Feingold and 
some of the Senators on this, is to start pressing the 
administration to press the United Nations for a plan and give 
them a timeline, a deadline that says within X number of days, 
we want to see a plan for how you can take the existing 
resources that these peacekeeping forces have and better 
protect civilian populations, particularly women and children, 
in the areas where they congregate, in the highest risk areas.
    We already know where the majority of rapes occur in 
Darfur, and Niemat has already told us about that. Why is it 
that this UNAMID, this peacekeeping mission, cannot be 
structured in a way that prioritizes the prevention of those 
rapes? It's very simple. It's a question of policy imperative 
and priority.
    And so if the Congress, who is giving the money for these--
30 percent or whatever it is of the money of these missions--is 
saying, ``Unless you do this, we're pulling the plug,'' they're 
not going to stop the war. These peacekeeping missions are 
there--they're not going to--until there is a resolution of the 
conflict, they're--what they can protect people in the 
meantime. That would have a huge impact.
    The third thing, and the final one I would say, is to 
demand from this administration and anyone that follows it a 
diplomatic strategy to counter rape as a tool of war. And you 
start with strong representations with President Kabila and 
President Kagame and President Museveni, and you send 
representatives from Washington, and you say this issue of 
sexual violence is completely out of control and it's on your 
watch, and we're now going to integrate this issue into our 
relationship. And until you demonstrably show that you are 
making specific adjustments and alterations into how you 
conduct your business with respect to your military forces, 
both within Congo and across the border, then we're not going 
to treat this relationship as business as usual.
    It is a devastating epidemic, and we can't treat these 
people as if it's business as usual, pat them on the back for 
positive economic growth rates that are based on human 
exploitation. This is incredible that we're doing this.
    So I think having a diplomatic strategy for rape and 
integrating these issues, mainstreaming these issues into our 
regular diplomacy instead of sticking them over here as gender 
issues that are to be raised by some gender official, it's a 
central part of--it ought to be a central part of our foreign 
policy, and it ought to come straight from the White House.
    Chairman Boxer. OK. Well, that was beautifully said. Eve, 
did you want to add----
    Ms. Ensler. Yes, I want to echo that, because I think in 
some ways, that's really the most significant thing that can be 
done, is to make rape and sexual terrorism something that we're 
addressing as confidently and with as much power and force as 
anything else that we're addressing.
    And I just want to add one thing to that. One of the things 
that we're seeing in the Congo, the campaign we'd launched 2 
years ago is really coming from the women on the ground, and 
it's really about building a women's movement in the Congo, 
where women are advocating, breaking the silence, telling their 
stories, standing up, and knowing and owning their rights.
    And I think that's something really important in connection 
to what John is saying, in conjoining with that, so that women 
don't again get left out of that process, but that women are 
brought into the process of movement building, which will be 
part of making sexual violence a central issue, which it is. 
Because if there are no women, there is no future to any 
country.
    Chairman Boxer. How true. Yes, Chouchou.
    Ms. Nabintu. What I'd like to add for the--to fight against 
to impunity is it could be a training for Congolese lawyers to 
collect evidence for the court or the ICC, even a training to 
doctors to collect medical evidence to support victims and to 
justice. Because nowadays, they ask victims to show the proof. 
The proof is to show a medical sheet. That's why we started an 
action to make interviews with victims, to collect their 
testimonies, so it could help to the justice.
    Chairman Boxer. Well, I think this links right into the 
trial that's going to go on, and expanding it, I think, is just 
a brilliant idea. Well, you have all given me just what I 
needed to hear.
    Niemat.
    Ms. Ahmadi. I want to add one thing. For the countries like 
Sudan and Congo, there should be a measurement for human rights 
situations, and accountability should be attached to that human 
right abusers, because--and even in terms of improving the 
relation between countries, and also, there should be a 
measurement or--within the U.N. that--to hold these countries 
accountable, because the human rights violation, in relation to 
women human rights, is really--and there is no--that holding 
countries accountable within the U.N., because--the United 
Nations.
    And then also, United States should find a way of pointing 
that out, like these countries, like--this country's--human 
right abusers, so that internationally, they will be like 
blocked, and they would be held accountable.
    They should be--and in addition, also, I just want to 
mention that in case of Darfur, the ICC investigated rape as a 
tool of genocide and as a tool of distraction, and that there 
is a section that created within their International Criminal 
Code that investigating--which is something very promising to 
put an end to this phenomena.
    That is why I think that support for the International 
Criminal Code is really crucial, in terms of ending violence 
against women.
    Chairman Boxer. Yes. I hear you loud and clear. Before I 
close, I'm going to ask that two statements be submitted for 
the record. The first is Human Rights Watch. The second is from 
Physicians for Human Rights. Both feel very strongly about this 
issue. So we'll put those in the record.
    And any other document, if anybody else has it, let me know 
now. All your statements will be placed in the record, as if 
you had given your entire statement.
    I just have to say, John, that the way you stated 
everything here, which is to have a diplomatic effort to end 
rape as a tool of war, I mean, that's obviously the purpose of 
this hearing. I'm not a diplomat. God knows that. I'm not very 
diplomatic. But I'm in the U.S. Senate, and I have an 
opportunity to speak with Secretary Clinton. I know how 
strongly she feels about this. Ambassador Verveer. I know the 
President and the First Lady care about this.
    So we are in a new time, but we just don't have a lot of 
time to waste on this. So we need to tell everybody that this 
is the moment. That's why I wanted you to come here. That's why 
I am so pleased that you did.
    This is just the beginning. We have to focus in our 
country, there's a short attention span. So you need to remind 
people of something 10 times, until you get tired of saying it. 
So we really are going to have to focus, focus, focus, focus. 
And I think that you can help me do that, because if there's 
any good news coming out of these areas as a result of what 
we've done, I sure would like to know. If there are bad things 
happening, I want to know. I know you'll let me know.
    But my staff's unbelievable here, and Ann Norris is heading 
this effort. We have hundreds of issues on our plate here. You 
know that we have problems in our country. We have people 
suffering in our country. We have all of that. But the bottom 
line is for America to be great, we have to open our eyes to 
these humanitarian issues. We have to; to these issues 
associated with conflict.
    We can't say that we can block off what's happening in the 
rest of the world, because a human right is a human right. What 
happens to any of us, happens to all of us. I mean, it's a 
spiritual thing. This is it. So we can't disconnect ourselves. 
What we need to do is reconnect. And I just feel we're going to 
do this.
    It's overwhelming. There's no doubt about it. It's 
overwhelming. There are so many things. That's why I'm going to 
have a rule that I'm going to carve out for myself with others 
that I know really care to pound on this and pound on it and 
pound on it and pound on it, and take these steps, which we'll 
work with you on.
    What I just wanted you to know is that we will be following 
up with you within the next 5, 6 workdays. And we're going to 
write this letter. We're going to come up with these things. 
You're going to check on the doctor situation, what is the best 
way for us to approach it.
    We will send this letter to all of you, because I'm trying 
to encompass everything you've told me that fits into what I'm 
trying to do, which is to stop these things from happening, 
which John made such a good point about giving an effort.
    And I'm going to talk to Johnny Isakson, who's going over 
there, and Bob Corker. The message is, you'd better shape this 
thing up, because you're not going to get any help from us 
unless you really stop rape as a tool of war, and this criminal 
behavior, and the ICC expanding it so that we can get these 
testimonials.
    And I think when people start getting afraid of what could 
happen to them--because people are telling us stories, thanks 
to a lot of Chouchou's work and all your work. They may just 
change their behavior right now, or at least moderate it if 
they know we're all watching.
    So each of us knows what we can do, and let's just get out 
there and do it. This has been an amazing experience for me, 
very draining, very overwhelming, very important. And I just 
thank you from the bottom of my heart for coming here and 
sharing your insights, your passion, and your advice with me.
    Thank you very much, and we stand adjourned.
    [Whereupon, at 5:50 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


                [From the Associated Press, May 5, 2009]

Iran, Syria Defend Palestinian Militancy--Ahmadinejad Meets With Hamas, 
                     Hezbollah in Visit to Damascus

    Damascus, Syria.--The leaders of Iran and Syria reaffirmed their 
support for ``Palestinian resistance'' on Tuesday, a defiant message to 
the U.S. and its Mideast allies who are uneasy over Washington's 
efforts to forge closer ties with the hard-line government in Tehran.
    Iranian President Mahmoud Ahmadinejad also met with the chiefs of 
Hamas and other Damascus-based Palestinian radical groups during his 
visit to Syria. Iran is a strong supporter of Islamic militants in the 
region, including Hamas and Lebanon's Hezbollah.
    Ahmadinejad's visit to Syria comes as the U.S. is trying to improve 
strained ties with the two longtime adversaries. Two U.S. envoys, 
Jeffrey Feltman and Daniel Shapiro, left Washington on Tuesday for 
Syria for their second visit since March to explore ways to ease 
tensions between the United States and Syria, the State Department 
said. The envoys would be in Damascus on Thursday, Syria's ambassador 
to Washington, Imad Mustapha, told The Associated Press
    But Ahmadinejad and his top Arab ally Syrian President Bashar Assad 
made little mention of American outreach as they sat together at a 
press conference following their talks.
    The hard-line Iranian leader said the two countries' alliance was 
achieving ``victories'' in preventing ``the big powers' offensive to 
dominate the region.''
                        resistance will continue
    ``Syria and Iran have been from the very beginning united and in 
agreement to stand on the side of the Palestinian resistance,'' 
Ahmadinejad said. ``They will continue to do so. We see that the 
resistance will continue until all occupied territories are 
liberated.''
    Ahmadinejad later held talks with Hamas' political leader Khaled 
Mashaal and the head of the smaller militant Islamic Jihad. The Iranian 
leader ``affirmed Iran's support for the Palestinian people and their 
resistance,'' said Ziad Nakhaleh, a senior Islamic Jihad official.
    Ahmadinejad and other Iranian officials have been sending mixed 
messages in response to President Barack Obama's calls for dialogue--at 
times taking a moderate tone, only to fall back on a tough line.
    U.S. Defense Secretary Robert Gates, who is visiting the Middle 
East, said Tuesday the U.S. is still waiting to see how the Iranians 
respond to Obama's outreach, but so far the rhetoric from Ahmadinejad 
has been ``not very encouraging.''
    Gates sought to reassure U.S. Arab allies, who are worried that 
their rival Iran will be boosted by a U.S. dialogue. He also said a 
``grand bargain'' between Tehran and Washington was unlikely.
    There has been widespread speculation in the Middle East that the 
Obama administration would try to forge a ``grand bargain'' with Iran, 
in which Washington would press Israel for concessions in the peace 
process with the Palestinians in exchange for Tehran rolling back its 
nuclear program.
    ``The United States will be very open and transparent about these 
contacts, and we will keep our friends informed of what is going on so 
nobody gets surprised,'' Gates said at a news conference in Egypt 
before heading to the Saudi capital.
                     worry about iranian influence
    The U.S. overtures to Iran are raising concerns among its Arab 
allies like Egypt and Saudi Arabia, as well as Israel. They fear Iran 
is trying to spread its influence across the Middle East, with its 
support of Hamas, Hezbollah and other militant groups.
    Arab diplomats who met in Cairo Tuesday with the State Department's 
new special envoy for the Persian Gulf, Dennis Ross, said they voiced 
those concerns.
    ``Some of what he heard was more than just grievances. They warned 
that Washington should be careful not to be so mild to Iran,'' said one 
diplomat who attended one of these encounters. He spoke on condition of 
anonymity because of the sensitivity of the subject.
    Egyptian Foreign Minister Ahmed Aboul-Gheit expressed similar 
concerns on Monday.
    ``Iran's behavior in the region is negative in many aspects and 
does not help in advancing security, stability and peace,'' the state-
run Middle East News Agency quoted Aboul Gheit as telling Ross.
    Israeli Prime Minister Benjamin Netanyahu is due to meet Obama 
later this month at the White House for their first meeting since each 
leader took office earlier this year. Netanyahu is expected to come 
under pressure to publicly accept the principle of a Palestinian state, 
a step he has avoided amid U.S. attempts to revive the peace process.
    Netanyahu is expected in turn to push for a tough U.S. stance on 
Iran. Israel argues that progress in peace with the Palestinians can't 
happen unless Iran is reined in.
    Hamas' top political leader Khaled Mashaal, who is based in Syria, 
was quoted by the New York Times Tuesday as saying that Hamas is 
willing to support a two-state solution. But he also said Hamas would 
not renounce violence against Israel or recognize the Jewish state.
                                 ______
                                 

          Prepared Statement From Physicians for Human Rights

    Physicians for Human Rights (PHR) commends Senator Feingold and 
Senator Boxer for their initiative in holding this hearing. In Sudan, 
the Central African Republic, Chad, the Democratic Republic of Congo 
and elsewhere, tens of thousands of women and girls continue to suffer 
rape, forced pregnancy, mutilation and death at the hands of brutal and 
ruthless militias as well as government-backed forces in ongoing 
conflicts. The Senators' willingness to shine a light on these 
violations of the most basic human rights comes at a crucial moment, as 
advocates for international justice and local human rights and health 
organizations are struggling to protect women, document incidents, 
treat victims, and end impunity for this ``silent'' crime.
    Physicians for Human Rights (PHR), founded in 1986, is a national 
organization that mobilizes health professionals to advance health, 
dignity, and justice and promotes the right to health for all. PHR has 
investigated, reported on, and advocated to stop sexual violence in the 
conflicts in former Yugoslavia, Liberia, Sierra Leone, and Sudan. We 
have trained health professionals from many countries in methods for 
documenting these crimes and supporting survivors. PHR has published 
pioneering reports and articles in leading medical journals on the use 
of rape as a weapon of war, on the importance of holding perpetrators 
accountable, and on the prevalence as well as the medical and 
psychological consequences of sexual violence in armed conflicts.
    In PHR's analysis, rape and other forms of sexual violence are 
perpetrated against target populations to:

  <bullet> Instill terror in the civilian population;
  <bullet> Humiliate and degrade individuals, their families, and their 
        communities;
  <bullet> Further an agenda of cultural and ethnic destruction, 
        exploiting the stigma that falls upon rape victims and their 
        children to weaken marital and communal relations;
  <bullet> Displace populations, and hamper the ability of communities 
        to reconstitute and organize a sustained return;
  <bullet> Destroy group bonds, which has serious, pervasive, and even 
        deadly effects for women in particular.

    PHR is convinced that impunity for perpetrators is tantamount to 
giving a license to rape. Although much progress has been made in 
bringing the perpetrators of sexual violence to justice in 
international courts, enormous hurdles remain. These include 
underreporting by survivors due to fear of public knowledge or 
reprisals, predominance of male interviewers and prosecutors, 
challenges of witness protection, exploitation of victims in the media, 
further traumatizing of victims, exclusive focus on the ``big fish'' 
perpetrators, and the lack of vigorous prosecution of rape cases. 
Additionally, justice and accountability efforts should not obscure the 
importance of preventing such atrocities in the first place.
                        recent research in chad
    As part of its continuing research on the problem of sexual 
violence, Physicians for Human Rights and the Harvard Humanitarian 
Initiative (PHR/HHI) set out in November 2008 to conduct a systematic 
assessment of sexual assault and other human rights violations suffered 
by Darfurian women who had been subjected to sexual violence in the 
course of attacks on their villages in Darfur and forced flight to 
camps on the Chad/Sudan border. The effort was part of a continued 
commitment to assuring that crimes against humanity, including sexual 
assault, be documented and exposed, and their mental, physical and 
social consequences understood so that increased protection, 
prevention, healing and comprehensive justice can be delivered to the 
survivors. The PHR/HHI study was conducted in Chad as security 
conditions precluded such an assessment in Sudan.
    Rape in Darfur has been documented by the United Nations, by human 
rights organizations, and by the International Criminal Court. The 
United Nations International Commission of Inquiry, whose findings led 
to the referral of the Darfur situation to the International Criminal 
Court, found that rape and sexual violence had been used by the 
Sudanese army and Janjaweed as ``a deliberate strategy with the aim of 
terrorizing the population, ensuring control of the movement of the IDP 
population and perpetuating its displacement.'' \1\ Sexual violence has 
also been reported in and around the camps in Chad in recent years.\2\
---------------------------------------------------------------------------
    \1\ ``Report of the International Commission of Inquiry on Darfur 
to the United Nations Secretary General,'' January 25, 2005; at 94. 
Available at http://www.un.org/News/dh/sudan/com_inq_darfur.pdf. 
Accessed April 28, 2009.
    \2\ The field team heard firsthand accounts of such violence during 
their interviews in the Farchana Camp.
---------------------------------------------------------------------------
    Few studies have looked at the effects of such war-related sexual 
violence or documented how resulting trauma is exacerbated by current 
conditions of life. PHR and HHI have worked extensively over the past 
15 years and in preparation for this study to develop methods to 
document this ``silent crime'' and its consequences in a safe and 
respectful manner. PHR/HHI undertook to overcome the obstacles inherent 
in such research and developed a plan to interview survivors of sexual 
assault in refugee camps in Chad and to corroborate accounts of assault 
with evaluations by clinical experts. Limited in their access to all 
refugee camps due to security and logistical constraints, a team of 
four field researchers from PHR and HHI conducted in-depth interviews 
with 88 women in one refugee camp. As the team was concerned about the 
risk for women who report sexual violence in this context, and was 
restricted in the framework of questioning by the guidelines and 
regulations of camp officials, the researchers did not specifically 
seek out women exposed to such violence, but instead asked any women 
interested in being interviewed to discuss their health and lives in 
the camps. In order to assess the reliability of allegations of rape, 
medical evaluations were conducted of a subset of 21 individuals. These 
evaluations were carried out according to international medico-legal 
standards to assess the extent to which physical and psychological 
evidence corroborated testimonial accounts.
    Although the sampling methods do not permit generalizations to 
larger populations, the 88 cases demonstrate the effects of crimes 
against these women in the form of systematic attacks characterized by 
murder, rape, looting, destruction and burning of property, and forced 
displacement in Darfur, but also in Chad where sexual assaults are 
perpetrated with utter impunity. The nightmare therefore continues in 
refugee camps in Chad, through the constant threat of rape (when women 
forage for firewood to cook their food), chronic hunger, and a lack of 
essential needs to support their families. Many of the women expressed 
the feeling that they would be better off anywhere else and even, some 
said, better off dead. We provide recommendations which aim to prevent 
further assaults on women, meet their current needs for support in the 
camp, and provide a foundation for the safe return of women and their 
families to Darfur.
                               background
    The women interviewed in the Farchana camp in eastern Chad are but 
a few of the millions whose lives have been indelibly altered by the 
crisis which erupted in Sudan's Darfur region in 2003. In April of that 
year, the Sudanese Armed Forces and the Janjaweed, the proxy militias 
that they armed and funded, responded to an attack on military and 
police installations in the North Darfur town of El Fasher by 
systematically bombing thousands of villages in Darfur, killing men, 
raping women and looting livestock. The attackers chased villagers out 
into the desert where temperatures regularly top 115 degrees Fahrenheit 
and there is little potable water or food.\3\ The conflict has left 
between 200,000 and 400,000 \4\ dead of violent injuries, starvation or 
disease and has displaced nearly 3 million people; 2.7 million are 
displaced within Darfur itself and another 268,500 refugees in eastern 
Chad. Nearly 3.5 million people are dependent on the international 
community for food aid as a result of this conflict.\5\
---------------------------------------------------------------------------
    \3\ This is the pattern of attack described to PHR investigators in 
visits to the Chad/Sudan border in 2004, 2005 and 2008.
    \4\ Physicians for Human Rights. ``Darfur--Assault on Survival: A 
Call for Security, Justice and Restitution.'' January 2006, at 13. 
Available at http://physiciansforhumanrights.org/library/report-sudan-
2006.html. Accessed April 15, 2009.
    \5\ UNHCR estimates this to be the number of registered and 
nonassisted Sudanese refugees in Chad as of January 2009. There are 
251,713 registered refugees in the camps. From the ``Statistiques 
Mensuelles Des Refugies Soudanais Et Centrafricains Au Tchad'' an 
Internal UNHCR memo. At press time, UNHCR was conducting a verification 
exercise in all camps.
---------------------------------------------------------------------------
                           the farchana camp
    UNHCR established the Farchana camp in January 2004 to house 2,000 
Darfurian refugees \6\ fleeing violence across the border, 55 
kilometers away. In November 2008, the population of Farchana was 
20,650, with 5,643 families.\7\ Movement into and out of the camp is 
fluid, with refugees leaving the camp regularly to collect firewood, 
graze animals or go to the market several miles from the camp and on 
the outskirts of Farchana village. At the time of the PHR/HHI 
investigation, approximately 2,000 Chadian soldiers were present around 
the Farchana camp, and team members saw several dozen armed soldiers 
inside the camp.
---------------------------------------------------------------------------
    \6\ ``Chad: Pre-Registration of Sudanese Set to Begin,'' UNHCR 
Briefing Notes, January, 2004. Available at http://unhcr.org/news/NEWS/
4003d4410.html. Accessed May 6, 2009.
    \7\ This figure was obtained from an operational NGO in the camp.
---------------------------------------------------------------------------
    As of November 2008, there were three doctors to care for the 
20,000 refugees in Farchana camp and the villagers from Farchana who 
come to the camp to seek medical care. Many women must obtain 
permission from their husbands to receive any services at the clinic. 
In spite of provision of a limited supply of firewood by one NGO, many 
women must still make the dangerous and often lengthy journey outside 
the camp to gather fuel for cooking from scarce firewood and brush.
    Refugees suffering depression or trauma are encouraged to talk to 
refugee mental health workers who have received a 3-month training by 
the international staff of the NGO in basic concepts of mental health 
such as sexual violence, trauma, and family dynamics. Many of the women 
interviewed by PHR/HHI investigators had not taken advantage of these 
services.
                                findings
Rapes in Darfur and Chad
    In Darfur and Chad, a total of 20 confirmed rapes occurred among 17 
of the 88 women interviewed, with 1 woman suffering two assaults in 
Chad and two women suffering an assault each in Darfur and Chad. An 
additional 12 instances were considered highly probable by the 
interviewers. This assessment was based on behaviors and verbal 
responses to interview questions that were designed to allow expert 
interviewers to deem a sexual assault likely. Eight of the 88 
respondents had witnessed sexual assaults and 30 respondents stated 
that they were aware of rape incidents occurring in either Darfur (16 
respondents) or Chad (14 respondents). For 19 of the women, the 
interview was the first time she had discussed the sexual assault with 
anyone.
    In each case of rape, Istanbul Protocol medical and psychological 
evaluations provided physical and psychological evidence that was 
highly consistent with women's specific allegations of rape and other 
physical abuse. These clinical evaluations indicate a very high level 
of reliability of allegations of rape among the overall sample of women 
in the PHR/HHI study. There were no cases in which allegations were 
either unsupported or inconsistent with the physical and/or 
psychological evidence observed.
Darfur Violence
    Of the 32 instances of confirmed and highly probable rape, 17 
occurred in Darfur (17 of the 88 respondents). Of these, nine were 
confirmed rapes and the majority of them (7) were gang-rapes. 
Additionally, five women reported that they had witnessed gang-rape in 
Darfur. Three of the nine confirmed rapes resulted in pregnancies. One 
rape was described as being committed in the presence of family 
members. The narratives indicate that rapists frequently beat women 
with guns and/or attacked them with knives before or during the rape. 
One woman described being raped during the attack on her village. She 
was 13 at the time:

          One of the Janjaweed pushed me to the ground. He forced my 
        clothes off, and they raped me one by one vaginally. When they 
        shot my father, they saw I was a little girl. I did not have 
        any energy or force against them. They used me. I started 
        bleeding. It was so painful. I could not stand up * * * I was 
        sick for 7 days. No one helped me * * *''

    After being raped, women reported excessive bleeding, not being 
able to walk, and general body aches.
Destruction Witnessed
    Respondents described similar patterns and characteristics of 
methods and behaviors by perpetrators during the attacks in Darfur. 
Assailants were typically described as fair-skinned and wearing green 
or khaki uniforms with head wraps. Interviewees noted that the 
assailants often spoke Arabic and rode horses or camels. The village 
was usually surrounded by a large number of perpetrators and attacks 
often occurred in the early morning. Concurrent air strikes were 
another common feature.

          There were many--unable to quantify--followed by Sudanese in 
        planes and horses wearing official Sudanese army clothes. They 
        entered into the village and were shooting and people started 
        running. Those that remained were rounded up and made to lie 
        down. They covered them with wood and branches, and set the 
        wood on fire. Sixty-five died that day.

    Many of the women reported family members killed during the attacks 
on their village. Some witnessed the shooting or beating of close 
family members including husbands, fathers, brothers, and cousins.
    Few women said that they reported either the rape they had suffered 
or the attacks on their villages, because, they said, the attacks were 
committed by the government itself. They declared that this fact left 
them without any options for reporting the crimes.
                 physical injury experienced in darfur
    One-third of the respondents suffered direct physical harm as a 
result of the attack on their villages in Darfur. Women reported acute 
symptoms including pain, swelling, bleeding, bruising, lacerations, 
difficulty walking and loss of consciousness; rape victims reported 
vaginal bleeding, discharge and pelvic pain. Chronic complaints 
included headaches, hip pain and chronic pelvic inflammatory disease/
endometritis. Few women had sought and received medical attention from 
a doctor, clinic, hospital or traditional healer and few had been 
evaluated for sexually transmitted diseases or HIV.
Previous Life
    When asked to describe their lives in Darfur, most women said that 
they were farmers who grew a variety of crops, and also owned animals. 
While their descriptions of wealth differed (in the amount of animals 
owned or land owned), most women stated that they had had everything 
they needed in Darfur and that life was good there.
Sexual and Other Physical Violence in and Around Camps in Chad
    Of the 32 instances of confirmed and highly probable rape, 15 
occurred in Chad, with 1 woman assaulted twice there. Of these, 11 were 
confirmed rapes and 4 were highly probable rapes. Of the 11 confirmed 
rapes, 8 were reported to have resulted in a pregnancy. There was one 
confirmed gang-rape. The majority of confirmed rapes (10/11) occurred 
when women left the camps in search of firewood or to pasture their 
livestock. Respondents identified the rapists as Chadian soldiers and 
civilians. While NGOs acknowledge that rape and sexual assault of 
refugee women in camps is occurring, it is likely that the extent of 
the problem is substantially underreported due to stigma and 
repercussions following divulgence of a sexual assault.
    One woman related, ``I went out alone to bring my animals to 
pasture. A man came up to me and threatened me with his gun. Then he 
did everything he liked.''
    The incident occurred approximately 9 months prior and the 
respondent was pregnant.
    One quarter of the respondents reported suffering physical harm 
since living as refugees in Chad. One respondent stated, ``The first 
year I was here, two men beat me when I went to collect wood. They beat 
me on my arm and head with wood. Six of us were there. They beat two of 
us. I told my mother and father, and we reported it to the president of 
the camp, but nothing was ever done.''
Fear, Insecurity, and Impunity in Chad Camps
    The lack of safety and the ongoing fear of sexual violence were a 
concern of virtually half (46 percent) of the women interviewed in the 
Farchana camp. As one lamented, ``This is not my country. We get raped 
when we leave the camp. In my village, we could do what we wanted and 
there was enough food. I want to go back to my village, but it's still 
not safe.''

    Women noted that though they had reported assaults to camp 
authorities, there was no response. Some feared that their families 
would find out if they report the rapes. Women said that they preferred 
to suffer in silence rather than risk repercussions.
Food Insecurity
    A strong majority of the women interviewed, nearly 60 percent, 
reported insufficient food as a problem. Many said they were always 
hungry; that the diet and quantities of food were insufficient and that 
rations were continuing to be cut. Food rations consisted of 2,100 
calories in the form of corn-soy blend, oil, salt and sugar.\8\
---------------------------------------------------------------------------
    \8\ This was told to the investigators by an NGO.
---------------------------------------------------------------------------
Physical and Mental Health
    Researchers asked women to rate their physical and mental health 
status in Darfur and now in Chad on a 1-5 scale with 1 being ``very 
good'' and 5 being ``poor.'' Women reported a marked deterioration in 
their physical health status since leaving Darfur, with an average 
ranking of 3.99 for health in Chad versus 2.06 for Darfur. The study 
indicated a marked deterioration in self-reported mental health, where 
the average score in Chad was 4.90. Few women felt comfortable using 
the mental health services in the camp, saying that they felt ashamed 
and did not want to tell anyone about the violation. Women who 
experienced rape (confirmed or highly probable) were three times more 
likely to report suicidal thoughts than were women who did not report 
sexual violence. ``I am very sad, especially when I am alone. How can I 
feel happy? They raped me. They killed my family. They raped me here.'' 
She reported marked sleep disturbances and frequent nightmares about 
``what happened.'' She also experienced frequent exaggerated startle 
reactions and constant hyper-vigilance: ``I always think someone is 
following me and wants to rape me. It is better to die.''
    For the 21 women who received evaluations based on the Istanbul 
Protocol, there were findings of both physical injury and psychological 
consequences:

  <bullet> Physical Injury.--These women experienced multiple acute and 
        chronic physical symptoms and disabilities. Acute symptoms 
        included pain, swelling, bleeding, bruising, lacerations, 
        difficulty walking, and loss of consciousness. Those who were 
        raped also reported vaginal bleeding, discharge, and pelvic 
        pain. Some went on to develop scars which were consistent with 
        allegations of injury or boney deformities from fractured bones 
        that were documented by visual inspection by the clinical 
        evaluators. Symptoms of chronic pain, hip pain, and chronic 
        pelvic inflammatory disease/endometritis were also documented.
  <bullet> Psychological Consequences.--All of the 21 women experienced 
        one or more of the following conditions, Major Depressive 
        Disorder (MDD), Depressive Disorder Not Otherwise Specified 
        (DD-NOS), Post-Traumatic Stress Disorder (PTSD), or some 
        symptoms of PTSD. Fifteen of the twenty-one (71 percent) women 
        interviewed demonstrated diagnostic criteria for MDD. The 
        overall prevalence of psychological symptoms and diagnoses and 
        comorbid states speak strongly for the need to address women's 
        psychological health. The physical and psychological 
        consequences of such experiences are likely to have a marked, 
        adverse impact on women's overall health and well-being, their 
        family and social interaction, and potentially their capacity 
        to work in the future if their time in Chad continues to be 
        prolonged.

    Women reiterated common feelings of persistent hyper-vigilance and 
a state of being easily startled; routine sleep disturbances; 
generalized feelings of sadness and dysphoria; decreased energy and 
generalized feelings of weakness and anhedonia; and recurrent 
flashbacks of the attacks in Darfur and murdered relatives.
Social Stigma/Physical Repercussions
    Rapes resulting in pregnancies carried significant physical and 
social consequences, particularly for familial and communal 
relationships. Women with confirmed rapes were six times more likely to 
be divorced or separated than those who were not raped, and some women 
described community rejection and physical violence by family members. 
One woman stated, ``After the man raped me, they (my family) would not 
eat with me. They treated me like a dog and I had to eat alone.''
The Camps in Chad
    The PHR/HHI investigators found that after 5 years, the Darfurians 
living in the camps are reaching a ``tipping point'' of physical 
misery, depression, and dissatisfaction in the camps. This is due to a 
variety of reasons including the lack of physical security outside the 
camps, insufficient food rations, a yearning to return home and a lack 
of opportunities for adults to earn money.
    The 12 refugee camps in Chad are ``federalized,'' with different 
NGOs providing services in different camps. As the lead agency, UNHCR 
attempts to set minimum standards in health services and psycho-social 
services. However, due to the physical insecurity and environmental 
extremes, eastern Chad is an extremely difficult place to work. This 
leads to high staff turnover and difficulty finding qualified staff 
which in turn creates tremendous challenges to provision of high-
quality services, including psycho-social support.
Farchana Women Protest for Dignity and Rights
    In June 5, 2008, seven women accused of prostitution for working 
outside the camp were tied up, whipped, and beaten with sticks of 
firewood by camp residents. Following this event, a group of eight 
Darfurian women wrote a one-page document in Arabic appealing for their 
rights and for recognition of the plight of women refugees in Chad.
    PHR published this document as the ``Farchana Manifesto.'' It calls 
for freedom of expression, movement, property ownership, the right to 
education and opportunity for employment, the right to determine age of 
marriage and to be free from violence and exploitation. The document is 
included in this report with more details presented at 
www.Darfurianwomen.org.
                              conclusions
Insecurity and Perpetual Vulnerability for Refugee Women
    Darfurian women fled a war and yet have not found safety in Chad. 
They are compelled by the basic need of survival to leave the camp to 
obtain the fuel to cook food for their families, and in doing so, risk 
being raped and subsequently rejected and ostracized by their husbands 
and families. The war crimes of killings, destruction of livelihoods 
and forced expulsion from Darfur have also left them in a state of 
perpetual vulnerability and need for the most basic elements of human 
survival. The violence that occurred in Darfur persists as a terrible 
memory, but what most concerns the women interviewed in the Farchana 
camp is the oppressive environment of insecurity they must endure on a 
daily basis.
Heavy Psychological Burden: Women Feel Trapped
    The cumulative emotional experience of previous attacks is now 
combined with the impact of current insecurity and ongoing fear of new 
assaults. Women express lack of trust in camp leadership, a sense of 
being trapped in a place that is not safe, and fear of speaking out 
lest they risk retaliation. This heavy psychological burden manifests 
itself in the high levels of depression and anxiety expressed in 
interviews, and it may explain the described deterioration in general 
health and constrained use of other services. The study revealed a 
general innate feeling of hopelessness in living under current camp 
conditions.
Failure to Institute Adequate Protection in Chad Refugee Camp
    The results of this study indicate that the protection regime built 
by international, national, and local authorities still has many gaps 
for women in the camps. The women report that along with Chadian 
civilians, Chadian soldiers are among the assailants; they are allowed 
to come into the camp and evidently are insufficiently trained in their 
protection obligations.
Absence of Accountability Mechanisms
    The absence of accountability mechanisms of any efficacy--such as 
reporting channels, investigations, arrests, or trials--reinforced the 
prevailing sense of marginalization and insecurity expressed by these 
women. Not only were they under constant threat, as they saw the 
situation, but no one seemed to care.
Lack of Legal Recourse
    Darfurian survivors of rape and other sexual violence have little 
to no legal recourse in either Chad or Sudan. Chad has international 
treaty-based legal obligations to protect women from sexual and gender 
based violence including through its ratifications of the International 
Covenant on Civil and Political Rights (ICCPR), the African Charter, 
and the Convention on the Elimination of All Forms of Discrimination 
against Women (CEDAW).
    Under the 1951 Refugee Convention, which Chad has also ratified, 
refugees must be given all legal recourse extended to Chadian 
citizens.\9\ Unfortunately, the lack of meaningful enforcement of the 
rule of law and the absence of a functioning judiciary in Chad hamper 
any recourse that may be extended to refugees under Chadian law.
---------------------------------------------------------------------------
    \9\ United States Committee for Refugees and Immigrants. ``World 
Refugee Survey 2008--Chad.'' June 19, 2008. Available a http//
www.unhcr.org/refworld/docid/485f50c98a.html. Accessed April 5, 2009. 
As noted above, Chad is party to the 1951 Refugee Convention, as well 
as the 1969 Convention Governing the Specific Aspects of Refugee 
Problems in Africa, (``OAU Convention''), September 10 1969. 1001 
U.N.T.S. 45. Available at http://www.unhcr.org/refworld/docid/
3ae6b36018.html. Accessed Apri1 30, 2009. Article 16 of the 1951 
Convention provides in relevant part that ``A refugee shall enjoy in 
the Contracting State in which he has his habitual residence the same 
treatment as a national in matters pertaining to access to the 
courts.''
---------------------------------------------------------------------------
    Chad's Penal Code governs punishment for rape and gross 
indecency.\10\ But Chadian law criminalizing rape and sexual violence 
suffers from serious deficiencies. Human rights advocates report that 
necessary implementing decrees (decrets d'application) for laws 
protecting women from violence have not been promulgated. In addition, 
traditional tribal courts which apply customary law often hold sway in 
rural areas.\11\
---------------------------------------------------------------------------
    \10\ Ordonnance N12-PR-MJ du 2 juin 1967 portant promulgation d'un 
code penal, on file with PHR.
    \11\ International Commission of Jurists (ICJ). ``Chad--Attacks on 
Justice, Eleventh Edition.'' August 27, 2002 at 71. Available at http:/
/www.icj.org/IMG/pdf./chad.pdf. Accessed April 30, 2009.
---------------------------------------------------------------------------
    Serious structural problems with Chad's justice system also result 
in a judiciary that is widely reported to be ineffective and weak.\12\ 
A recent initiative to bring mobile courts to eastern Chad has been 
hampered by insecurity and lack of political will.
---------------------------------------------------------------------------
    \12\ Id. at 1, 8.
---------------------------------------------------------------------------
Failure to Protect
    Among U.N. agencies, the United Nations High Commissioner for 
Refugees (UNHCR) has the lead responsibility for the well-being of 
refugees in Chad largely through its operational and implementing 
partners. Its obligations for international protection include: 
ensuring the safety and well-being of refugees in countries of asylum; 
meeting the special needs of victims of violence and women who are 
single heads of household; ensuring the prompt investigation of 
allegations of sexual abuse and exploitation; enhancing women's 
meaningful participation in decisionmaking processes related to refugee 
protection; empowering women so that there is equitable camp 
governance; ensuring accessible and confidential complaint and redress 
mechanisms for victims of sexual abuse; and ensuring the existence of 
adequate remedial measures for victims of such abuse. Unfortunately, 
this study reveals that refugees in Chad under the administration of 
UNHCR suffer from woefully inadequate protection from rape and other 
forms of sexual and gender-based violence.
    The Chadian Government has, with the assistance of the U.N., begun 
to take a more prominent role in attempting to provide protection to 
women and girls living in refugee camps. It is hoped that a new 
specialized Chadian police force, bolstered by the U.N. Mission in the 
Central African Republic and Chad (MINURCAT), will increase protections 
for refugees in eastern Chad. There is concern, however, that the low 
numbers of the force and the magnitude of the security vacuum mean that 
it is unlikely to have an immediate or significant change in the lives 
of women and girls. As to reports of rape of refugee women by Chadian 
army soldiers, crimes committed by members of the military are supposed 
to be tried in military court; as of February 2009 such courts had not 
been established.\13\ Local authorities and refugee camp leaders also 
appear to be in a state of formal denial, as one local Chadian official 
indicated, ``It is our responsibility to protect these refugees, and I 
can tell you that there is not rape happening here--it's all 
consensual.''
---------------------------------------------------------------------------
    \13\ United States Department of State. ``2008 Country Reports on 
Human Rights Practices--Chad,'' February 25, 2009. Available at http://
www.unhcr.org/refworld/docid/49a8f19ca1.html. Accessed March 23, 2009.
---------------------------------------------------------------------------
                            lessons learned
    From PHR's work in Chad and in other conflict areas over the years 
a number of broadly applicable challenges to accountability have 
emerged. Various factors prevent accountability for perpetration of 
rape as a weapon of war. These include a failure to prevent attacks in 
the first place; the underreporting of the actual problem and its 
relative invisibility in the media; the failure to adequately protect 
women as well as civilians in general in the midst of conflicts, 
difficulties of documenting the crime for evidentiary purposes, and the 
inadequate support for effective prosecution efforts, at both domestic 
and international levels.
Prevention
  <bullet> A paramount challenge is preventing the widespread use of 
        rape as a weapon of war in the first place. Though the Geneva 
        Conventions state that ``women shall be especially protected 
        against any attack on their honor, in particular against rape, 
        enforced prostitution, or any form of indecent assault,'' rape 
        was widely perpetrated in wars throughout the 20th century 
        where civilians increasingly became targets of war. In civil 
        conflicts during the past 20 years, governments have sponsored 
        the use of rape as a weapon of war either by overtly 
        sanctioning or failing to prohibit its use by their armed 
        forces or proxy militias (as is the case in Darfur, where the 
        Sudanese Government knows that the Janjaweed militias are 
        employing rape as a technique), or failing to protect women and 
        children from mass rape by an armed rebel group (i.e., the RUF 
        in Sierra Leone).
Underreporting of the Crime
  <bullet> While the rates of sexual violence found by PHR and others 
        in studies in former Yugoslavia, Liberia, Sierra Leone, Darfur 
        and the DRC are high, these rates are likely lower than the 
        actual prevalence levels. There are a number of reasons why 
        rape and sexual assault are not reported. First is the stigma 
        and shame associated with rape; rape is seen as bringing shame 
        upon a woman's family and her community. In the case of Darfur, 
        a woman who has been raped may be divorced by her husband if 
        she is married, or considered unmarriageable if she is single. 
        In some cases, she may even be forced to leave the community 
        altogether. Second, a woman may not report the crime as there 
        is often little ambient security and she may risk further 
        violence in the process of seeking medical attention or 
        reporting an incident. In some countries, women may be forced 
        to report the crimes to officials before they are able to 
        receive medical treatment. In such circumstances rape victims 
        may be unlikely to take the risks inherent in filing a claim of 
        sexual assault: harassment by authorities; being charged with 
        adultery; and ostracism by her husband, family, or community. 
        These hurdles are formidable especially when the chance of 
        successful prosecution of the perpetrator is slim.
Weakness in Documentation of Rape
  <bullet> In conditions of armed conflict, it is often extremely 
        dangerous, if not impossible, for women to seek and receive 
        treatment for their injuries, let alone provide evidence or 
        information about the attacks. In the case of Darfur, for 
        example, many women and girls were attacked in the course of 
        devastating assaults on their villages in which nearly all of 
        the residents fled into the surrounding desert to escape. They 
        wandered for weeks and even months with no access to medical 
        treatment. By the time these women reached safety, little 
        physical evidence of sexual violence remained, although 
        physical and mental effects persisted.
  <bullet> From 2004 until the present, dozens of humanitarian 
        organizations have been working under extraordinarily difficult 
        circumstances in refugee camps in Chad and in camps for the 
        internally displaced in Darfur. During this time, several 
        groups that published reports documenting widespread rape were 
        harassed by the government; in one case two aid workers who 
        spoke publicly about rape in Darfur were arrested and 
        interrogated. The Government of Sudan accused one NGO of 
        falsifying a rape report, then subjected the rape victim to 
        multiple gynecological exams and published her name, age, 
        occupation, and location of residence in the newspaper.
  <bullet> A woman reporting rape in Sudan must fill out the Form 8 at 
        the police station. Few, if any, police in Sudan are trained to 
        deal with victims of sexual violence, and many women report 
        that the police lack tact and compassion and may themselves be 
        verbally or even physically abusive. Thus, the requirement of 
        the Form 8 serves as a deterrent for women to report rape. In 
        addition, Form 8 is incomplete as a method of documenting rape; 
        it records only the most basic information, not all of it 
        either relevant or appropriate (recent loss of virginity, 
        bleeding or the presence of sperm), and does not require more 
        complete or relevant physical documentation or the collection 
        of the aforementioned evidence.
Weakness of Local Judicial Systems
  <bullet> In many cases, national judicial systems are either 
        incapable of, or unwilling to, prosecute rape on an individual 
        scale, let alone a massive scale. Furthermore, rape laws 
        usually have such a high burden of evidence that prosecution is 
        nearly impossible. In Sudan, for example, a woman must present 
        four male witnesses to the act of penetration, a nearly 
        insurmountable burden of proof. And, as mentioned before, 
        because the crime of rape is defined as ``zinna,'' which is 
        translated as ``adultery,'' a woman who comes forward to report 
        that she has been raped risks in turn being charged with 
        adultery. Finally, because the Form 8 does not require a more 
        complete physical exam or collection of relevant evidence 
        (photographs of bruises, a woman's testimony of the incident), 
        it is relatively ineffective in a court of law where high 
        burdens of eyewitness, physical, and documentary evidence are 
        currently demanded.
Justified Reluctance of Humanitarian Actors to Become Involved in 
        Accountability
  <bullet> There is a legitimate fear amongst humanitarian actors that 
        they may risk access to the populations they are there to 
        serve, or endanger their own personnel if they speak publicly 
        about human rights violations that they are aware of. In the 
        recent past, relief workers have been the targets of 
        harassments such as administrative refusal to renew visas or 
        work permits; physical searches or beatings, and even sexual 
        assault or killings for speaking publicly. There is also an 
        understandable prioritization by most international relief 
        organizations of their role in meeting the immediate health 
        needs of the communities they serve, and a concomitant 
        reluctance to collect or provide evidence of rape and other 
        atrocities, which also requires special training, expertise, 
        and security measures. Such activities may also engage 
        politically ``neutral'' NGOs in roles where they may appear to, 
        or be accused of, taking sides in a conflict. In the case of 
        Darfur, the Sudanese Government's arrest of NGO workers who 
        have reported on or spoken publicly about mass rape in that 
        conflict has sent a chilling message to the entire humanitarian 
        community.
Failure to Prioritize Prevention of Sexual Assault in Peacekeeping 
        Situations
  <bullet> When the situation in a given country becomes so fraught 
        that the United Nations intervenes with a peacekeeping or 
        protection force, not enough attention is paid to the problem 
        of sexual violence against women in the course of the conflict. 
        Except for those specifically hired to deal with gender-based 
        violence, few peacekeepers, U.N., or NGO workers have training 
        in how to deal with victims of sexual assault.
  <bullet> There are measures that NGO workers or peacekeepers can take 
        to protect women from violent sexual assault. African Union 
        peacekeepers implemented firewood patrols in Darfur to 
        accompany women when left internally displaced persons camps to 
        gathered firewood. However, these patrols were never 
        implemented across all of the camps, and even in the camps 
        where they formed they are reported to have been uneven, 
        irregular, and unpredictable.
The Importance of Accountability
  <bullet> There are several reasons why accountability is important. 
        First, a lack of accountability breeds a culture of impunity 
        and leads to further breakdown of the rule of law. Second, it 
        is vital to promote a culture of respect for international 
        norms and to destroy the cynicism that accepts rape as an 
        inevitable component of war. Finally, accountability measures 
        offer victims acknowledgement of the wrongs and harms done to 
        them, and provide other essential forms of redress such as 
        arrest, prosecution, and punishment of the perpetrators, as 
        well as compensation and repair.
Breaking the Culture of Impunity
  <bullet> Perpetrators of mass rape in war have little reason to 
        believe that they will be held accountable for their actions. 
        The International Criminal Court has called for the arrest of 
        two Sudanese men, Ahmed Haroun, former Minister of State for 
        the Interior, and Ali Kushayb, a Janjaweed leader, on a total 
        of 51 counts of war crimes and crimes against humanity (among 
        those counts, Haroun is charged with 4 counts of rape, Kushayb 
        with two). Mr. Haroun has actually been promoted to acting 
        Minister of Humanitarian Affairs, and is responsible for 
        overseeing the coordination and delivery of aid to the very 
        people against whom he is accused of committing attacks. Very 
        few governments have come forward to assist in pressing the 
        Sudanese Government to turn these men over to the Court, even 
        though the U.N. Security made the referral to the ICC. This 
        sends a very real message to perpetrators and victims alike 
        that perpetrators of war crimes, including mass rape, are 
        beyond the reach of the law.
  <bullet> PHR has witnessed and documented a strong desire for justice 
        among numerous victims, their families and their communities. 
        In some cases, it is only the knowledge that the perpetrators 
        will be punished for what they have done that will allow the 
        victims and communities to heal and for cycles of violence and 
        revenge to cease. In Darfur, for example, local NGOs 
        prosecuting rape say that they have seen dozens of courageous 
        women, aware of the near impossibility of winning a rape 
        conviction, who would like to bring forward cases in spite of 
        the obstacles. Many seek a comprehensive form of justice which 
        enables them to rebuild their broken lives and communities and 
        live without fear.
Promoting Adherence to International Norms
  <bullet> It is important that a country act within the bounds of 
        international norms, including protecting women from mass rape 
        in war. ``Rogue states'' not only present dangers to their own 
        people, but also threaten to weaken their neighbors. The crisis 
        in Darfur has had destabilizing consequences for neighboring 
        Chad and the Central African Republic.
Compensation and Reparation
  <bullet> In the past several years, courts have begun to recognize 
        the rights of victims to compensation and reparations 
        (including access to medical and psychological services). 
        Therefore, accountability measures are critical so that women 
        may have access to financial, medical, and psychological 
        support, which is also tied into acknowledgement of the guilt 
        of the perpetrator.
Conclusions/Recommendations
  <bullet> The capacity of the humanitarian community to assess and 
        respond to systematic sexual violence in conflict has increased 
        in recent years. U.S. Government aid efforts funded by the 
        Congress have played an important role in increasing this 
        capacity. Nonetheless, mechanisms for promoting the rule of law 
        with regards to sexual violence before and after conflicts, 
        reporting and documentation of sexual violence during armed 
        conflicts, treatment, advocacy, and restitution often receive 
        insufficient attention or resources.
  <bullet> The U.S. Government should work to ensure that the U.N. and 
        other international actors always incorporate an assessment of 
        sexual violence when monitoring threats to civilians in a 
        conflict or post-conflict situation. Staff should be trained on 
        awareness of rape as a war crime, and given clear protocols to 
        follow in recognition that documentation is a crucial element 
        to advocating for the victims. Physicians for Human Rights 
        recommends that those involved in protection efforts, such as 
        peacekeeping forces, humanitarian aid organizations, local and 
        international NGOs, and other relevant actors incorporate best 
        practices for responding to rape as a weapon of war into their 
        work. These include:

      1. Prevention.--Rape as a weapon of war must be stopped in its 
        course, rather than assuming that it will be an inevitable 
        byproduct of conflict. The U.S. Government should support 
        mechanisms that help prevent sexual violence, such as 
        supporting interventions by international peacekeeping and 
        protection forces where appropriate, identifying the 
        perpetrators and those supporting campaigns of systematic rape, 
        and publicly sanctioning governments that fail to protect 
        victims of rape and/or refuse to investigate, disarm, and 
        prosecute perpetrators.
      2. Protection.--All too often, the systems that have been 
        developed to protect civilians are simply not being deployed or 
        are not being deployed effectively. The United States must 
        provide more support for diplomacy, intervention, and 
        enforcement as laid out in the tenets of the Responsibility to 
        Protect by the International Commission on Intervention and 
        State Sovereignty. For example, for the past 6 years the 
        international community has failed to protect vulnerable women 
        and girls in Sudan despite credible accounts of widespread and 
        systematic rape. As a matter of urgency, the United States must 
        ensure that international protection forces in Darfur and 
        elsewhere have the necessary means to fulfill their mission.
      3. Documentation.--The United States should support efforts to 
        build the capacity of local and international responders to 
        safely document and publicly report on sexual violence in a 
        manner that does not endanger individual victims or 
        humanitarian workers and their agencies. It should also 
        encourage and support more collaboration between humanitarian 
        groups and human rights organizations to address challenges in 
        documenting and reporting these crimes.
      4. Justice and Accountability.--Where possible, the international 
        community should work to strengthen local justice systems by 
        improving rape laws, enhancing protection for victims who come 
        forward, and supporting local efforts to hold perpetrators 
        accountable (including truth and reconciliation commissions, 
        special courts for the prosecution of rape as a war crime, and 
        restitution efforts). The United States should also support the 
        international system of legal accountability, which will be 
        necessary when local justice systems are incapable of 
        prosecuting crimes that fall under the Rome Statute of the ICC. 
        The arrest warrants issued by the ICC for Haroun and Kushayb 
        for war crimes and crimes against humanity including mass rape 
        in Darfur, for example, should be given top priority.

      The U.S. Government should facilitate the ability of victims of 
        systematic rape during war to seek asylum in the United States 
        via the following:

      <bullet>  Enact legislation stating that in cases in which sexual 
            violence is being perpetrated by any party to an armed 
            conflict, there be a presumption that rape took place on 
            one of the five protected grounds for asylum (in which the 
            asylum applicant has a well-founded fear of persecution 
            based on race, nationality, religion, political opinion, or 
            membership in a social group).
      <bullet>  Repeal the 1-year bar on asylum applications in 
            recognition of the undue burden that it places on survivors 
            of severe trauma such as rape during war, and more 
            generally to all asylum seekers.

      5. Treatment and Remedy.--Given the magnitude of this crisis and 
        the enormous needs of survivors for medical care and trauma 
        recover, the United States should assess and commit to support 
        international and local responses. PHR urges the U.S. 
        Government to:

      <bullet>  Increase funding for addressing the immediate long-term 
            needs of victims, including providing them with medical 
            care, culturally appropriate mental health care, skills 
            training and compensation. In particular support the 
            capacity of indigenous women and organizations to work and 
            lead in these areas.
      <bullet>  Increase funding and support for programs to rebuild 
            communities in the aftermath of systematic rape, 
            recognizing that there are specific needs for both the 
            community and for the victims of sexual violence. Programs 
            should incorporate community education and advocacy 
            programs to help combat the stigma associated with rape 
            survivors and their children.
      <bullet>  Compel governments responsible for rape in war to 
            provide reparation to the victims, and provide financial 
            support to the Victims Trust Fund established by the 
            International Criminal Court.
      <bullet>  Disarmament, Demobilization, and Reintegration programs 
            for ex-combatants must include resocialization and sexual 
            violence education. Women should be involved in all DDR 
            efforts.
      <bullet>  Develop a better understanding of perpetrators' 
            motivations and the patterns that are associated with 
            systematic rape as a weapon of war.

                                  <all>

</pre></body></html>
